<html>
<title> - PROTECTING PERSONAL CONSUMER INFORMATION FROM CYBER ATTACKS AND DATA BREACHES</title>
<body><pre>[Senate Hearing 113-531]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-531

                      PROTECTING PERSONAL CONSUMER
                     INFORMATION FROM CYBER ATTACKS
                           AND DATA BREACHES

=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 26, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PUBLISHING OFFICE
92-594                    WASHINGTON : 2015
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 26, 2014...................................     1
Statement of Senator Rockefeller.................................     1
    Report entitled ``A `Kill Chain' Analysis of the 21013 Target 
      Data Breach'' by the Majority Staff........................     2
Statement of Senator Thune.......................................    12
Statement of Senator McCaskill...................................    47
Statement of Senator Pryor.......................................    49
Statement of Senator Klobuchar...................................    57
Statement of Senator Blunt.......................................    64
Statement of Senator Blumenthal..................................    67
Statement of Senator Markey......................................    69

                               Witnesses

Hon. Edith Ramirez, Chairwoman, Federal Trade Commission.........    14
    Prepared statement of the Federal Trade Commission...........    16
Dr. Wallace D. Loh, President, University of Maryland............    21
    Prepared statement...........................................    23
John J. Mulligan, Executive Vice President and Chief Financial 
  Officer, Target Corporation....................................    24
    Prepared statement...........................................    26
Ellen Richey, Chief Enterprise Risk Officer and Chief Legal 
  Officer, Visa, Inc.............................................    28
    Prepared statement...........................................    30
Peter J. Beshar, Executive Vice President and General Counsel, 
  Marsh & McLennan Companies.....................................    34
    Prepared statement...........................................    36
David Wagner, President, Entrust, Inc............................    39
    Prepared statement...........................................    40

                                Appendix

Electronic Transactions Association, prepared statement..........    75
News Release dated Monday, February 24, 2014 from the Department 
  of Justice entitled ``Attorney General Holder Urges Congress to 
  Create National Standard for Reporting Cyberattacks''..........    76
America Bankers Association, prepared statement..................    77
National Retail Federation, prepared statement...................    82
Letter dated March 26, 2014 to Hon. Jay Rockefeller, Chairman, 
  Committee on Commerce, Science and Transportation and Hon. John 
  Thune, Ranking Member, Committee on Commerce, Science, and 
  Transportation from Bill Hughes, Senior Vice President, 
  Government Affairs, Retail Industry Leaders Association (RILA).   103
Response to written questions submitted to Hon. Edith Ramirez by:
    Hon. John D. Rockefeller IV..................................   104
    Hon. John Thune..............................................   105
    Hon. Kelly Ayotte............................................   106
    Hon. Deb Fischer.............................................   107
Response to written questions submitted to John J. Mulligan by:
    Hon. John D. Rockefeller IV..................................   108
    Hon. Bill Nelson.............................................   108
    Hon. Kelly Ayotte............................................   109
Response to written question submitted by Hon. Kelly Ayotte to:
    Ellen Richey.................................................   111

 
                      PROTECTING PERSONAL CONSUMER
                     INFORMATION FROM CYBER ATTACKS
                           AND DATA BREACHES

                              ----------                              


                       WEDNESDAY, MARCH 26, 2014

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 1:49 p.m., in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

       OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. This hearing will come to order. This hearing 
is in order. It doesn't have to come to order; it is.
    We now live in the era of ``big data.''
    You knew that, Senator McCaskill? That is not news to you, 
OK.
    Whether we like it or not, companies are regularly 
collecting reams of information about us as we go about our 
daily lives.
    I serve on the Intelligence Committee, and I have since 
before 
9/11. And it just drives me absolutely wild sometimes to read--
The New York Times and The Washington Post are the guilty 
parties, for the most part--but they talk about everybody's 
privacy is just about to be invaded, except nobody's has been. 
But if it could happen, then it has happened, you see. That is 
the way you keep people scared. And now people are reacting to 
it, saying, oh, we just have to get rid of that thing. We are 
not necessarily an intelligent Congress when it comes to our 
national security.
    So, in any event, they are tracking us as we visit our 
websites, as we visit stores, as we purchase products. While 
some of the information may be mundane, a lot of it is highly 
sensitive. It might have to do with health, family problems, 
whatever.
    I think we can all agree that if Target or any other 
company is going to collect detailed information about its 
customers, they need to do everything possible to protect them 
from identity thieves.
    Because what, in fact, everybody was fearing about the NSA, 
which has never come to be true, has come to be true about the 
American private sector. That is the irony of the whole thing. 
This city is wrought with, you know, the terrible things that 
could happen from NSA, except nothing terrible has happened, 
but some terrible things are happening elsewhere.
    So it is now well known that Target fell far short of doing 
this--that is, protecting their customers. Last November and 
December, cyber thieves were able to infect their credit card 
payment terminals with a malicious software, loot their 
computer servers, access a staggering amount of consumer 
information, which they could pick and choose from and then 
sell them for something called a profit.
    There has been a lot of anxiety recently about the kind of 
information the Federal Government--I am making my point here 
again; I like making this point--may be collecting about 
American citizens as part of their efforts to protect our 
country from the ongoing terrorist threat. But the truth is 
that private companies like Target hold vastly larger amounts 
of sensitive information about us than the government could 
ever think of doing. And they spend much less time and much 
less money protecting their sensitive data than the government 
does. You cannot penetrate the firewalls, all of the firewalls, 
around the NSA.
    Senator Thune, welcome, sir.
    So we learned yesterday that Federal agents notified more 
than 3,000 companies last year that their computer systems had 
been hacked. I am certain that there are many more breaches 
that we never hear about.
    In my zeal a number of years ago, I asked the SEC if they 
would sort of make it a requirement that every time somebody 
was hacked into, that had to be reported to the SEC, put on 
their website, for the advantage of the shareholders, because 
that is the kind of information they need to know if they are 
going to buy or sell or whatever. That is haphazard at best.
    So Target is going to tell us today that they take data 
security very seriously and that they followed their industry's 
data security standards, but the fact remains it wasn't enough. 
The credit card numbers of 40 million people and the e-mail 
addresses of nearly 70 million people were potentially stolen 
under their watch.
    My staff has carefully analyzed what we know at this point 
about the Target breach. In a new report, they identify many 
precise opportunities Target had to prevent this from 
happening. It is a very interesting sort of a chart of where 
they could have--and I will hold it up.
    And I ask unanimous consent that this be made a part of the 
record of this hearing.
    [The information referred to follows:]

        A ``Kill Chain'' Analysis of the 2013 Target Data Breach

             Majority Staff Report for Chairman Rockefeller

Executive Summary
    In November and December 2013, cyber thieves executed a successful 
cyber attack against Target, one of the largest retail companies in the 
United States. The attackers surreptitiously gained access to Target's 
computer network, stole the financial and personal information of as 
many as 110 million Target customers, and then removed this sensitive 
information from Target's network to a server in Eastern Europe.
    This report presents an explanation of how the Target breach 
occurred, based on media reports and expert analyses that have been 
published since Target publicly acknowledged this breach on December 
19, 2013. Although the complete story of how this breach took place may 
not be known until Target completes its forensic examination of the 
breach, facts already available in the public record provide a great 
deal of useful information about the attackers' methods and Target's 
defenses.
    This report analyzes what has been reported to date about the 
Target data breach, using the ``intrusion kill chain'' framework, an 
analytical tool introduced by Lockheed Martin security researchers in 
2011, and today widely used by information security professionals in 
both the public and the private sectors. This analysis suggests that 
Target missed a number of opportunities along the kill chain to stop 
the attackers and prevent the massive data breach. Key points at which 
Target apparently failed to detect and stop the attack include, but are 
not limited to, the following:

  <bullet> Target gave network access to a third-party vendor, a small 
        Pennsylvania HVAC company, which did not appear to follow 
        broadly accepted information security practices. The vendor's 
        weak security allowed the attackers to gain a foothold in 
        Target's network.

  <bullet> Target appears to have failed to respond to multiple 
        automated warnings from the company's anti-intrusion software 
        that the attackers were installing malware on Target's system.

  <bullet> Attackers who infiltrated Target's network with a vendor 
        credential appear to have successfully moved from less 
        sensitive areas of Target's network to areas storing consumer 
        data, suggesting that Target failed to properly isolate its 
        most sensitive network assets.

  <bullet> Target appears to have failed to respond to multiple 
        warnings from the company's anti-intrusion software regarding 
        the escape routes the attackers planned to use to exfiltrate 
        data from Target's network.
A. The Target Data Breach
1. The Stolen Data
    On December 19, 2013, Target publicly confirmed that some 40 
million credit and debit card accounts were exposed in a breach of its 
network.\1\ The Target press release was published after the breach was 
first reported on December 18 by Brian Krebs, an independent Internet 
security news and investigative reporter.\2\ Target officials have 
testified before Congress that they were not aware of the breach until 
contacted by the Department of Justice on December 12.\3\ The data 
breach affected cards used in U.S. Target stores between November 27 
and December 18, 2013.\4\
---------------------------------------------------------------------------
    \1\ Target, Target Confirms Unauthorized Access to Payment Card 
Data in U.S. Stores (Dec. 19, 2013) (online at http://
pressroom.target.com/news/target-confirms-unauthorized-access-to-
payment-card-data-in-u-s-stores).
    \2\ Brian Krebs, Sources: Target Investigating Data Breach, 
KrebsOnSecurity (Dec. 18, 2013) (online at http://krebsonsecurity.com/
2013/12/sources-target-investigating-data-breach/).
    \3\ Testimony of John Mulligan, Target Executive Vice President and 
Chief Financial Officer, before the Senate Committee on the Judiciary, 
at 2 (Feb. 4, 2014) (online at http://www
.judiciary.senate.gov/pdf/02-04-14MulliganTestimony.pdf).
    \4\ Id. at 2-3.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Thieves were able to sell information from these cards via online 
black market forums known as ``card shops.'' \5\ These websites list 
card information including the card type, expiration date, track data 
(account information stored on a card's magnetic stripe), country of 
origin, issuing bank, and successful use rate for card batches over 
time. The newer the batch, the higher the price, as issuing banks often 
have not had sufficient time to identify and cancel compromised cards. 
A seller, nicknamed ``Rescator,'' at a notorious card shop even offered 
a money-back guarantee for immediately cancelled cards.\6\ Those 
purchasing the information can then create and use counterfeit cards 
with the track data and PIN numbers \7\ stolen from credit and debit 
card magnetic stripes. Fraudsters often use these cards to purchase 
high-dollar items and fence them for cash, and if PIN numbers are 
available, a thief can extract a victim's money directly from an ATM. 
Based on a reading of underground forums, hackers may be attempting to 
decrypt the stolen Target PIN numbers.\8\
---------------------------------------------------------------------------
    \5\ Brian Krebs, Cards Stolen in Target Breach Flood Underground 
Markets (Dec. 20, 2013) (online at http://krebsonsecurity.com/2013/12/
cards-stolen-in-target-breach-flood-underground-markets/).
    \6\ Id.
    \7\ Target initially denied that debit card PIN numbers had been 
stolen, but reports confirmed that encrypted PIN numbers had indeed 
been stolen. See Jim Finkle and David Henry, Exclusive: Target hackers 
stole encrypted bank PINs--source, Reuters (Dec. 25, 2013) (online at 
http://www.reuters.com/article/2013/12/25/us-target-databreach-
idUSBRE9BN0L220131225).
    \8\ Adam Greenberg, Hackers Seek to Decrypt PIN Codes Likely Stolen 
in Target Breach, SC Magazine (Jan. 8, 2014) (online at http://
www.scmagazine.com/hackers-seek-to-decrypt-pin-codes-likely-stolen-in-
target-breach/article/328529/).
---------------------------------------------------------------------------
    On January 10, 2014, Target disclosed that non-financial personal 
information, including names, addresses, phone numbers, and e-mail 
addresses, for up to 70 million customers was also stolen during the 
data breach.\9\
---------------------------------------------------------------------------
    \9\ Target, Target Provides Update on Data Breach and Financial 
Performance (Jan. 10, 2014) (online at http://pressroom.target.com/
news/target-provides-update-on-data-breach-and-financial-performance).
---------------------------------------------------------------------------
2. The Attack
    On January 12, Target CEO Gregg Steinhafel confirmed that malware 
installed on point of sale (POS) terminals \10\ at U.S.-based Target 
stores enabled the theft of financial information from 40 million 
credit and debit cards.\11\ This malware utilized a so-called ``RAM 
scraping'' attack, which allowed for the collection of unencrypted, 
plaintext data as it passed through the infected POS machine's memory 
before transfer to the company's payment processing provider. According 
to reports by Brian Krebs, a tailored version of the ``BlackPOS'' 
malware--available on black market cyber crime forums for between 
$1,800 and $2,300--was installed on Target's POS machines.\12\ This 
malware has been described by McAfee Director of Threat Intelligence 
Operations as ``absolutely unsophisticated and uninteresting.'' \13\ 
This assessment is in contrast with the statement of Lawrence Zelvin, 
Director of the Department of Homeland Security's National 
Cybersecurity and Communications Integration Center, who describes the 
malware used in the attack as ``incredibly sophisticated.'' \14\
---------------------------------------------------------------------------
    \10\ A Point of Sale (POS) terminal is a physical device used by a 
merchant to process payments for goods and services purchased by a 
customer. Customized hardware and software is often used at a POS 
terminal, or cash register, part of which is used to swipe and process 
credit and debit card information.
    \11\ Becky Quick, Target CEO Defends 4-Day Wait to Disclose Massive 
Data Hack, CNBC (Jan. 12, 2014) (online at http://www.cnbc.com/id/
101329300).
    \12\ Brian Krebs, A First Look at the Target Intrusion, Malware, 
KrebsOnSecurity (Jan. 15, 2014) (online at http://krebsonsecurity.com/
2014/01/a-first-look-at-the-target-intrusion-mal
ware/).
    \13\ Michael Riley, Ben Elgin, Dune Lawrence, and Carol Matlack, 
Missed Alarms and 40 Million Stolen Credit Card Numbers: How Target 
Blew It, Bloomberg Businessweek (Mar. 13, 2014) (online at http://
www.businessweek.com/articles/2014-03-13/target-missed-alarms-in-epic-
hack-of-credit-card-data).
    \14\ House Committee on Energy and Commerce, Subcommittee on 
Commerce, Manufacturing, and Trade, Protecting Consumer Information: 
Can Data Breaches Be Prevented?, 113th Cong. (Feb. 5, 2014).
---------------------------------------------------------------------------
    According to unnamed investigators, the attackers first installed 
their malware on a small number of POS terminals between November 15 
and November 28, with the majority of Target's POS system infected by 
November 30.\15\ A report by The New York Times states that the 
attackers first gained access to Target's internal network on November 
12.\16\
---------------------------------------------------------------------------
    \15\ Brian Krebs, Target Hackers Broke in Via HVAC Company, 
KrebsOnSecurity (Feb. 5, 2014) (online at http://krebsonsecurity.com/
2014/02/target-hackers-broke-in-via-hvac-company/).
    \16\ Elizabeth A. Harris, Nicole Perlroth, Nathaniel Popper, and 
Hilary Stout, A Sneaky Path Into Target Customers' Wallets (Jan. 17, 
2014) (online at http://www.nytimes.com/2014/01/18/business/a-sneaky-
path-into-target-customers-wallets.html).
---------------------------------------------------------------------------
    A Dell SecureWorks report shows that the attackers also installed 
malware, designed to move stolen data through Target's network and the 
company's firewall, on a Target server.\17\ The Dell SecureWorks team 
was able to analyze a sample of the actual malware used in the Target 
attack. The attackers reportedly first installed three variants of this 
malware on November 30 and updated it twice more, just before midnight 
on December 2 and just after midnight on December 3.\18\ According to a 
Bloomberg Businessweek report, Target's FireEye malware intrusion 
detection system triggered urgent alerts with each installation of the 
data exfiltration malware.\19\ However, Target's security team neither 
reacted to the alarms nor allowed the FireEye software to automatically 
delete the malware in question. Target's Symantec antivirus software 
also detected malicious behavior around November 28, implicating the 
same server flagged by FireEye's software.\20\
---------------------------------------------------------------------------
    \17\ A third type of malware was installed on intermediate servers 
which presumably stored stolen data inside Target's network before the 
next exfiltration step. However, this malware has thus far not been 
analyzed publicly. See Keith Jarvis and Jason Milletary, Inside a 
Targeted Point-of-Sale Data Breach, Dell SecureWorks, at 5 (Jan. 24, 
2014) (online at http://krebs
onsecurity.com/wp-content/uploads/2014/01/Inside-a-Targeted-Point-of-
Sale-Data-Breach.pdf).
    \18\ Id.
    \19\ Michael Riley, Ben Elgin, Dune Lawrence, and Carol Matlack, 
Missed Alarms and 40 Million Stolen Credit Card Numbers: How Target 
Blew It, Bloomberg Businessweek (Mar. 13, 2014) (online at http://
www.businessweek.com/articles/2014-03-13/target-missed-alarms-in-epic-
hack
-of-credit-card-data).
    \20\ Id.
---------------------------------------------------------------------------
    According to Seculert, a security company focused on advanced cyber 
threats, the malware started to send the stolen data to an external 
file transfer protocol (FTP) server via another compromised Target 
server on December 2, 2013.\21\ Over the next two weeks, the attackers 
collected 11 GB of stolen information using a Russia-based server.\22\ 
Analysis of the malware by Dell SecureWorks found that the attackers 
exfiltrated data between 10:00 a.m. and 6:00 p.m. Central Standard 
Time, presumably to obscure their work during Target's busier shopping 
hours.\23\ Other sources describe a variety of external data drop 
locations, including compromised servers in Miami and Brazil.\24\ The 
70 million records of non-financial data were included in this theft, 
but public reports do not make clear how the attackers accessed this 
separate data set.
---------------------------------------------------------------------------
    \21\ Aviv Raff, PoS Malware Targeted Target, Seculert (Jan. 16, 
2014) (online at http://www.seculert.com/blog/2014/01/pos-malware-
targeted-target.html).
    \22\ Id.
    \23\ Keith Jarvis and Jason Milletary, Inside a Targeted Point-of-
Sale Data Breach, Dell SecureWorks, at 6, 11 (Jan. 24, 2014) (online at 
http://krebsonsecurity.com/wp-content/up
loads/2014/01/Inside-a-Targeted-Point-of-Sale-Data-Breach.pdf).
    \24\ Brian Krebs, Target Hackers Broke in Via HVAC Company, 
KrebsOnSecurity (Feb. 5, 2014) (online at http://krebsonsecurity.com/
2014/02/target-hackers-broke-in-via-hvac-company/).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The attackers reportedly first gained access to Target's system by 
stealing credentials from an HVAC and refrigeration company, Fazio 
Mechanical Services, based in Sharpsburg, Pennsylvania.\25\ This 
company specializes as a refrigeration contractor for supermarkets in 
the mid-Atlantic region \26\ and had remote access to Target's network 
for electronic billing, contract submission, and project management 
purposes.\27\
---------------------------------------------------------------------------
    \25\ Id.
    \26\ Fazio Mechanical Services, About Us (accessed Mar. 12, 2014) 
(online at http://fazio
mechanical.com/about-us.html).
    \27\ Fazio Mechanical Services, Statement on Target Data Breach 
(accessed Mar. 12, 2014) (online at http://faziomechanical.com/Target-
Breach-Statement.pdf).
---------------------------------------------------------------------------
    Reports indicate that at least two months before the Target data 
breach began, attackers stole Fazio Mechanical's credentials for 
accessing Target's network via e-mails infected with malware.\28\ 
According to a former Target security team member, Fazio would more 
than likely have had access to Target's Ariba external billing 
system;\29\ however, reports do not make clear how the attackers gained 
access to Target's POS terminals from this initial foothold on the edge 
of Target's network. According to the same source, it is likely the 
outside portal was not fully isolated from the rest of Target's 
network.\30\ Once inside, the attackers may have exploited a default 
account name used by an IT management software product by BMC Software 
to move within Target's network.\31\ The attackers also disguised their 
data exfiltration malware as a legitimate BMC Software product.\32\
---------------------------------------------------------------------------
    \28\ Sources have identified malware known as ``Citadel,'' which 
steals passwords on compromised machines. However, this has not been 
confirmed. See Brian Krebs, E-mail Attack on Vendor Set Up Breach at 
Target, KrebsOnSecurity (Feb. 12, 2014) (online at http://krebs
onsecurity.com/2014/02/e-mail-attack-on-vendor-set-up-breach-at-target/
).
    \29\ Id.
    \30\ Id.
    \31\ Brian Krebs, New Clues in the Target Breach, KrebsOnSecurity 
(Jan. 29, 2014) (online at http://krebsonsecurity.com/2014/01/new-
clues-in-the-target-breach/).
    \32\ Keith Jarvis and Jason Milletary, Inside a Targeted Point-of-
Sale Data Breach, Dell SecureWorks, at 6 (Jan. 24, 2014) (online at 
http://krebsonsecurity.com/wp-content/uploads/2014/01/Inside-a-
Targeted-Point-of-Sale-Data-Breach.pdf).
---------------------------------------------------------------------------
B. The Kill Chain
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

1. The ``Kill Chain'' as a Cybersecurity Defense Tool
    The conventional model of information security relies on static 
defense (e.g., intrusion detection systems and antivirus software) and 
assumes that attackers have an inherent advantage over defenders given 
ever-shifting technologies and undiscovered software vulnerabilities. 
In 2011, the Lockheed Martin Computer Incident Response Team staff 
published a white paper explaining how these conventional defenses were 
not sufficient to protect organizations from sophisticated ``advanced 
persistent threats'' (APTs).\33\ The paper proposed an ``intelligence-
driven, threat-focused approach to study intrusions from the 
adversaries' perspective'' that could give network defenders the upper 
hand in fighting cyber attackers.\34\
---------------------------------------------------------------------------
    \33\ Eric M. Hutchins, Michael J. Cloppert, Rohan M. Amin, 
Intelligence-Driven Computer Network Defense Informed by Analysis of 
Adversary Campaigns and Intrusion Kill Chains, Lockheed Martin (2011) 
(online at http://www.lockheedmartin.com/content/dam/lockheed/data/
corporate/documents/LM-White-Paper-Intel-Driven-Defense.pdf).
    \34\ Id. at 2.
---------------------------------------------------------------------------
    Instead of installing static defense tools and waiting for the next 
attack, the paper argued, network defenders should continuously monitor 
their systems for evidence that attackers are trying to gain access to 
their systems. Any intrusion attempt reveals important information 
about an attacker's tactics and methodology. Defenders can use the 
intelligence they gather about an attacker's playbook to ``anticipate 
and mitigate future intrusions based on knowledge of the threat.'' \35\ 
When a defender analyzes the actions of attackers, finds patterns, and 
musters resources to address capability gaps, ``it raises the costs an 
adversary must expend to achieve their objectives . . . [and] such 
aggressors have no inherent advantage over defenders.'' \36\
---------------------------------------------------------------------------
    \35\ Id.
    \36\ Id. at 3.
---------------------------------------------------------------------------
    To illustrate how network defenders can act on their knowledge of 
their adversaries' tactics, the paper lays out the multiple steps an 
attacker must proceed through to plan and execute an attack. These 
steps are the ``kill chain.'' While the attacker must complete all of 
these steps to execute a successful attack, the defender only has to 
stop the attacker from completing any one of these steps to thwart the 
attack.
    Analyzing past attacks, utilizing threat intelligence, and 
improving defenses at all phases of the kill chain allow a defender to 
detect and deny future attacks earlier and earlier in the kill chain. 
This requires constant vigilance, but it can theoretically defend 
against even APTs using so-called ``zero-day'' exploits, which utilize 
previously unknown vulnerabilities and attack signatures that defense 
tools cannot detect.\37\
---------------------------------------------------------------------------
    \37\ Id. at 4-5.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
2. Analysis of the Target Data Breach Using the Kill Chain
    John Mulligan, Target's Executive Vice President and Chief 
Financial Officer, testified that his company ``had in place multiple 
layers of protection, including firewalls, malware detection software, 
intrusion detection and prevention capabilities and data loss 
prevention tools.'' \38\ He further stated that Target had been 
certified in September 2013 as compliant with the Payment Card Industry 
Data Security Standards (PCI-DSS),\39\ which credit card companies 
require before allowing merchants to process credit and debit card 
payments.
---------------------------------------------------------------------------
    \38\ Testimony of John Mulligan, Target Executive Vice President 
and Chief Financial Officer, before the Senate Committee on the 
Judiciary, at 4-5 (Feb. 4, 2014) (online at http://
www.judiciary.senate.gov/pdf/02-04-14MulliganTestimony.pdf).
    \39\ Id. at 5.
---------------------------------------------------------------------------
    These steps were obviously not sufficient to prevent the breach. 
Based on public information about Target's breach reviewed in the 
previous section, this section walks through the steps of the kill 
chain and analyzes what actions Target and its contractor, Fazio 
Mechanical Services, did or did not take to defend themselves.
A. Reconnaissance--Attacker Quietly Gathers Information About Victim
    As discussed above, the attacker may have sent malware-laden e-
mails to Fazio at least two months before the Target data breach began. 
According to analysis by Brian Krebs, the attacker may have found 
information on Target's third-party vendors through simple Internet 
searches, which, at the time of his writing, displayed Target's 
supplier portal and facilities management pages.\40\ Files available on 
these sites provided information for HVAC vendors and, through a 
metadata analysis, allowed the attacker to map Target's internal 
network prior to the breach. To disrupt this step in the kill chain, 
Target could have limited the amount of publicly available vendor 
information. Target could have also shared threat information with its 
suppliers and vendors and encouraged collaboration on security within 
the community.
---------------------------------------------------------------------------
    \40\ Brian Krebs, E-mail Attack on Vendor Set Up Breach at Target, 
KrebsOnSecurity (Feb. 12, 2014) (online at http://krebsonsecurity.com/
2014/02/e-mail-attack-on-vendor-set-up-breach-at-target/).
---------------------------------------------------------------------------
B. Weaponization--Attacker Prepares Attack Payload to Deliver to Victim
    While unconfirmed, the attacker likely weaponized its malware 
targeting Fazio in an e-mail attachment, likely a PDF or Microsoft 
Office document. Fazio could have disrupted this step in the kill chain 
through the use of broadly accepted real-time monitoring and anti-
malware software. However, according to investigators familiar with the 
case, Fazio used the free version of Malwarebytes Anti-Malware, which 
does not provide real-time protection and is intended only for 
individual consumer use.\41\
---------------------------------------------------------------------------
    \41\ Id.
---------------------------------------------------------------------------
C. Delivery--Attacker Sends Payload to Victim
    The attacker sent infected e-mails to Fazio in a so-called phishing 
attack. Phishing, or ``spear phishing,'' when an attacker customizes e-
mail messages using social engineering techniques (e.g., checking 
Facebook or LinkedIn for a potential victim's business associates and 
relationships), is a well-known attack method. Fazio could have 
disrupted this step in the kill chain by training its staff to 
recognize and report phishing e-mails. Real-time monitoring and anti-
malware software could have also potentially detected the infected 
file(s).
    While reports are unconfirmed, the malware on Fazio's systems may 
have recorded passwords and provided the attackers with their key to 
Target's Ariba external billing system. In this phase of the kill 
chain, Target could have potentially disrupted the attack by requiring 
two-factor authentication for its vendors. Two-factor authentication 
includes a regular password system augmented by a second step, such as 
providing a code sent to the vendor's mobile phone or answering extra 
security questions. According to a former Target vendor manager, Target 
rarely required two-factor authentication from its low-level 
contractors.\42\ PCI-DSS require two-factor authentication for remote 
access to payment networks and access controls for all users,\43\ 
although the Ariba system is not technically related to Target's POS 
system.
---------------------------------------------------------------------------
    \42\ Id.
    \43\ Standard 7.2 and 8.3 are most relevant to this discussion. 
Version 3.0 of the standard was released in November 2013, after the 
Target breach. As such, this report references the previous version 
2.0. See Payment Card Industry Security Standards Council, Payment Card 
Industry (PCI) Data Security Standard Version 2.0, at 44, 47 (Oct. 
2010) (online at https://www
.pcisecuritystandards.org/documents/pci_dss_v2.pdf).
---------------------------------------------------------------------------
    However the attacker actually leveraged its access to this vendor's 
system to enter Target's, less security at the perimeter of Target's 
network may have contributed to the attacker's success in breaching the 
most sensitive area of Target's network containing cardholder data. 
Using the Fazio credentials to gain access to Target's inner network, 
it appears the attackers then directly uploaded their RAM scraping 
malware to POS terminals.
D. Exploitation--Attackers Payload Deployed in Victim's Network
    Once delivered, the RAM scraping malware and exfiltration malware 
began recording millions of card swipes and storing the stolen data for 
later exfiltration. Target could have potentially blocked the effect of 
the exfiltration malware on its servers by either allowing its FireEye 
software to delete any detected malware, or, if not choosing the 
automatic option, by following up on the several alerts that were 
triggered at the time of malware delivery. According to Businessweek, 
the FireEye software sent an alert with the generic name 
``malware.binary'' to Target security staff.\44\ It is possible that 
Target staff could have viewed this alert as a false positive if the 
system was frequently alarming.
---------------------------------------------------------------------------
    \44\ Michael Riley, Ben Elgin, Dune Lawrence, and Carol Matlack, 
Missed Alarms and 40 Million Stolen Credit Card Numbers: How Target 
Blew It, Bloomberg Businessweek (Mar. 13, 2014) (online at http://
www.businessweek.com/articles/2014-03-13/target-missed-alarms-in-epic-
hack
-of-credit-card-data).
---------------------------------------------------------------------------
    Another protective step could have been paying greater attention to 
industry and government intelligence analyses. According to an FBI 
industry notification, RAM scraping malware has been observed since 
2011.\45\ Furthermore, a Reuters report stated that Visa published in 
April and August of 2013 two warnings about the use of RAM scraping 
malware in attacks targeting retailers.\46\ These warnings apparently 
included recommendations for reducing the risk of a successful attack. 
According to the Wall Street Journal, Target's security staff made 
their misgivings known about vulnerabilities on the company's POS 
system; however, it is unclear if Target took any action to address 
vulnerabilities before the attack.\47\
---------------------------------------------------------------------------
    \45\ FBI Cyber Division, Recent Cyber Intrusion Events Directed 
Toward Retail Firms (Jan. 17, 2014) (online at http://
krebsonsecurity.com/wp-content/uploads/2014/01/FBI-CYD-PIN-140
117-001.pdf).
    \46\ Jim Finkle and Mark Hosenball, Exclusive: More Well-Known U.S. 
Retailers Victims of Cyber Attacks--Sources, Reuters (Jan 12, 2014) 
(online at http://www.reuters.com/article/2014/01/12/us-target-
databreach-retailers-idUSBREA0B01720140112).
    \47\ Danny Yadron, Paul Ziobro, Devlin Barrett, Target Warned of 
Vulnerabilities Before Data Breach, The Wall Street Journal (Feb. 14, 
2014) (online at http://online.wsj.com/news/articles/
SB10001424052702304703804579381520736715690).
---------------------------------------------------------------------------
E. Installation--Attacker Establishes Foothold in Victim's Network
    Reports suggest that the attacker maintained access to Fazio's 
systems for some time while attempting to further breach Target's 
network. It is unclear exactly how the attacker could have escalated 
its access from the Ariba external billing system to deeper layers of 
Target's internal network. But given the installation of the BlackPOS 
malware on Target's POS terminals, the compromise of 70 million records 
of non-financial data, and the compromise of the internal Target 
servers used to gather stolen data, it appears that the attackers 
succeeded in moving through various key Target systems.
    Brian Krebs and Dell SecureWorks posit that the attackers may have 
exploited a default account name used in a BMC Software information 
technology management system;\48\ however, it is unclear exactly how 
the attackers found the account password. If the theory is true, a 
protective step at this phase of the kill chain could have included the 
elimination or alteration of unneeded default accounts, as called for 
in PCI-DSS 2.1.\49\
---------------------------------------------------------------------------
    \48\ Brian Krebs, New Clues in the Target Breach, KrebsOnSecurity 
(Jan. 29, 2014) (online at http://krebsonsecurity.com/2014/01/new-
clues-in-the-target-breach/); Keith Jarvis and Jason Milletary, Inside 
a Targeted Point-of-Sale Data Breach, Dell SecureWorks, at 5 (Jan. 24, 
2014) (online at http://krebsonsecurity.com/wp-content/uploads/2014/01/
Inside-a-Targeted-Point-of-Sale-Data-Breach.pdf).
    \49\ Payment Card Industry Security Standards Council, Payment Card 
Industry (PCI) Data Security Standard Version 2.0, at 24 (Oct. 2010) 
(online at https://www.pcisecuritystandards.org/documents/
pci_dss_v2.pdf).
---------------------------------------------------------------------------
    In its recently filed 10K, Target states that in the fall of 2013, 
``an independent third-party assessor found the portion of our network 
that handles payment card information to be compliant with applicable 
data security standards.'' \50\ One of those standards would have been 
PCI-DSS 11.5, which requires vendors to monitor the integrity of 
critical system files.\51\ To achieve this standard, Target could have 
used a technique called ``white listing,'' whereby only approved 
processes are allowed to run on a machine.
---------------------------------------------------------------------------
    \50\ Target Corporation, SEC Form 10-K, at 17, 47 (Mar. 14, 2014) 
(online at http://www
.sec.gov/Archives/edgar/data/27419/000002741914000014/tgt-
20140201x10k.htm).
    \51\ Payment Card Industry Security Standards Council, Payment Card 
Industry (PCI) Data Security Standard Version 2.0, at 63 (Oct. 2010) 
(online at https://www.pcisecuritystandards.org/documents/
pci_dss_v2.pdf).
---------------------------------------------------------------------------
F. Command and Control (C2)--Attacker Has ``Hands on the Keyboard'' 
        Remote Access to Victim's Network
    Based on the reported timeline of the breach, the attackers had 
access to Target's internal network for over a month and compromised 
internal servers with exfiltration malware by November 30. While the 
exact method by which the attackers maintained command and control is 
unknown, it is clear the attackers were able to maintain a line of 
communication between the outside Internet and Target's cardholder 
network.
    In this phase of the kill chain, one protective step includes 
analysis of the location of credentialed users in the network. For 
example, if the attackers were still using Fazio's stolen credentials, 
an analyst would have reason to be concerned if that credential was 
being used in an unrelated area of the Target network. That the 
attackers were still using Fazio's credentials when installing malware 
or moving through the Target network is unlikely, but the analysis 
could have still proven useful.
    Another protective step at this phase would have been strong 
firewalls between Target's internal systems and the outside Internet 
(e.g., routing traffic through a proxy) to help disrupt the attacker's 
command and control. Target could also have filtered or blocked certain 
Internet connections commonly used for command and control.
G. Actions on Objectives--Attacker Acts to Accomplish Data Exfiltration
    The attackers transmitted the stolen data to outside servers--at 
least one of which was located in Russia--in plain text via FTP \52\ (a 
standard method for transferring files) over the course of two weeks. 
At this phase of the kill chain, protective defensive steps could have 
included white listing approved FTP servers to which Target's network 
is allowed to upload data. For example, a white list could have 
dismissed connections between Target's network and Russia-based 
Internet servers. An analysis of data transmissions on Target's busy 
network may be like searching for a needle in a haystack, but an upload 
to a server in Russia presumably would have been flagged as suspicious 
if discovered.
---------------------------------------------------------------------------
    \52\ McAfee, McAfee Labs Threats Report Fourth Quarter 2013, at 7 
(2013) (online at http://www.mcafee.com/us/resources/reports/rp-
quarterly-threat-q4-2013.pdf).
---------------------------------------------------------------------------
    Target's FireEye software reportedly did detect the data 
exfiltration malware and decoded the destination of servers on which 
data for millions of stolen credit cards were stored for days at a 
time. Acting on this information could have stopped the exfiltration, 
not only at this last stage, but especially during the ``delivery'' 
step on the kill chain.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______


    The Chairman. And anybody who wants one of these is welcome 
to have it. I hope people at the press table have it.
    It is increasingly frustrating to me that organizations are 
resisting the need to invest in their security systems. Target 
must be a clarion call to businesses, both large and small, 
that it is time to invest in some changes.
    While I am disappointed that many companies have failed to 
take responsibility for their data security weaknesses, I am 
just as disappointed by Congress and our failure to create 
Federal standards for protecting consumer information. If you 
can imagine having stores in 45 or 35 states, and every state 
has different rules and regulations, it is just an impossible 
mess.
    Recently, I put forth legislation that builds on the long, 
well-established history of the Federal Trade Commission and 
state attorneys general in protecting consumers from data 
breaches.
    The bill set forth strong Federal consumer data security 
and breach notification standards by: one, directing the FTC to 
circulate rules requiring companies to adopt reasonable but 
strong security protocols; requiring companies to notify 
affected consumers in the wake of the breach--I mean, that 
should just be automatic; and authorizing both the FTC and 
state attorneys general to seek civil penalties for violations 
of that law.
    For nearly a decade, we have had major data breaches at 
companies large and small. Millions of consumers have suffered 
the consequences. While Congress deserves its share of the 
blame for inaction, I am increasingly frustrated by industry's 
disingenuous attempts at negotiations.
    So this is my message to the industry today: It is time to 
come to the table. Be willing to compromise. While I am willing 
to hear their concerns about the legislation--my legislation or 
any other legislation--I am not willing to forfeit the basic 
protections that American consumers have a right to count on. 
And I will not.
    Finally, I would be remiss if I did not publicly note that 
representatives from the company Snapchat declined my 
invitation to testify today. When people refuse to testify in 
front of this committee, my instincts, which may be skewed, are 
nevertheless that they are hiding something. In this instance, 
on this subject, I think it warrants closer scrutiny.
    I call on my most distinguished good--I won't go through 
the usual drill.
    [Laughter.]

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. OK. Well, thank you, Chairman Rockefeller, 
for holding this afternoon's hearing on data breaches and 
protecting consumer information. Protecting consumers from 
identity theft, fraud, and financial harm is certainly a goal 
that all of us on this committee share.
    I am glad that representatives from Target and the 
University of Maryland accepted our invitation to be here today 
to tell us of their recent and well-publicized breaches. While 
the forensic investigations into these incidents are still 
ongoing, it is clear that millions of individuals have 
unfortunately been affected.
    I look forward to hearing about what lessons Target and the 
University of Maryland have learned from these breaches and 
what additional steps they are taking to prevent them in the 
future and to better safeguard individuals' personal 
information.
    Yet data breaches clearly are not unique to Target and the 
University of Maryland. A data breach report from Verizon found 
that there were more than 600 confirmed data breach disclosures 
among private and government entities and at least 44 million 
compromised records in 2012 alone.
    While we are here today primarily to discuss data breaches 
in the private sector, we can't forget that the U.S. Government 
also holds immense amounts of consumer financial data and 
personal information. It is estimated that the Federal 
Government spent more than $14.6 billion on IT security in 
Fiscal Year 2012, but it is not immune to cyber attacks and 
data breaches.
    In 2012, Federal agencies reported more than 22,000 data 
breach incidents, a number that is more than double what was 
reported in 2009. In addition, a recent report by the 
Government Accountability Office, the government's watchdog, 
identified several instances where Federal agencies failed to 
notify affected individuals, even when the breach was 
determined to have a high risk of harm.
    Breaches of personal information can affect individuals in 
many ways, ranging from the inconvenience of having a credit 
card replaced to the harm of identity theft, where a criminal 
runs up large debts or commits crimes in the victim's name.
    When there is risk of real harm stemming from a breach, we 
need to make sure that consumers have the information they need 
to protect themselves. That is why I support a uniform Federal 
breach notification standard to replace the patchwork of laws 
in 46 states and the District of Columbia.
    A single Federal standard would ensure all consumers are 
treated the same with regard to notification of data breaches 
that might cause them harm. Such a standard would also provide 
consistency and certainty regarding timely notification 
practices, which benefits both consumers and businesses.
    I also want to ensure that businesses appropriately secure 
information and are not burdened by outdated or ill-suited 
security requirements but, rather, are provided with the 
flexibility to develop effective and innovative tools to secure 
the information they are entrusted to protect.
    For these reasons, I cosponsored Senate Bill 1193, the Data 
Security and Breach Notification Act of 2013, with Senator 
Toomey and a number of my colleagues on this committee. The 
bill would require companies possessing personal data to notify 
consumers in a timely manner if their information has been 
unlawfully taken.
    Mr. Chairman, I know that you have also introduced 
legislation on this topic, and I look forward to working with 
you and our colleagues as we consider how best to promote the 
security of personal consumer information and ensure 
appropriate breach notification.
    Of course, we should acknowledge that this issue is not a 
new one. The Committee reported data breach legislation in 2005 
and again in 2007, but finding broad agreement on the path 
forward has proven difficult. We should heed the testimony of 
Mr. Wagner and not allow the perfect to become the enemy of the 
good.
    Our recent experience advancing legislation on the role of 
the National Institute of Standards and Technology in the 
identification of voluntary best practices and standards for 
cybersecurity gives me reason for optimism. And I was pleased 
to see that several of the witnesses today have highlighted the 
good work done by NIST in that regard.
    As we have noted in the past, legislation is also needed to 
enhance information-sharing of cyber threats, with liability 
protections. While not every data breach occurs because of a 
cyber attack, timely information-sharing of cyber threats is 
key to preventing and responding to cyber attacks, whether it 
is a breach of consumer data, theft of intellectual property, 
or an attack on critical infrastructure.
    So I look forward to learning more about the new 
partnership between the merchant and financial associations 
that will focus on sharing more information on cyber threats 
and improving technology to protect consumers.
    I also hope Visa and Target can elaborate on the work that 
they are doing to identify and prevent payment card fraud 
resulting from the recent breach so that the payment system is 
more secure and consumers are better protected.
    I also look forward to hearing from Chairwoman Ramirez of 
the Federal Trade Commission about the work the agency is doing 
on enforcement and education to protect consumers from identity 
theft and fraud.
    I also know that the Secret Service and the Federal Bureau 
of Investigation, in partnership with industry and government 
partners, are working hard to detect and prosecute cyber 
criminals and fraudsters.
    So, Mr. Chairman, I hope our witnesses can share their 
experiences, good or bad, working with Federal agencies on our 
shared goal of safeguarding consumers' personal information. 
And I want to thank you again for holding this hearing, and I 
look forward to hearing from our witnesses.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Thune.
    We are a very good combination. If you don't know that now, 
you will learn it.
    Senator Thune. It is true.
    The Chairman. It is true. We both come from big states.
    [Laughter.]
    Senator Thune. We are both tall people.
    The Chairman. We are both tall people, that is right. And 
we both--and we love sports.
    First, let's start with the Honorable Ramirez, Edith 
Ramirez, who is Chairwoman of the Federal Trade Commission.
    And, once again, I issue the following words of comfort to 
you: Never fear that the National Gallery of Art is going to 
take you over. You are going to be there 1,000 years from now. 
Whether they will be or not, I don't know, but you will be.
    [Laughter.]

  STATEMENT OF HON. EDITH RAMIREZ, CHAIRWOMAN, FEDERAL TRADE 
                           COMMISSION

    Ms. Ramirez. Thank you.
    Chairman Rockefeller, Ranking Member Thune, and members of 
the Committee, I appreciate the opportunity to present the 
Federal Trade Commission's testimony on data security.
    Under your leadership, Chairman Rockefeller, this committee 
has led critical efforts in Congress to protect consumers' 
privacy and data security. From the recent examination of the 
data-broker industry and its impact on consumers to proposing 
data security requirements for industry, you and the members of 
this committee have sought to advance the same goals as the 
FTC. And I want to thank you for your leadership.
    As this committee is well aware, consumers' data is at 
risk. Recent data breaches remind us that hackers seek to 
exploit vulnerabilities in order to access and misuse 
consumers' data in ways that can cause serious harm to 
consumers and businesses.
    These threats affect more than just payment card data. For 
example, breaches in recent years have also compromised Social 
Security numbers, account passwords, health data, and 
information about children. This occurs against the backdrop of 
identity theft, which has been the FTC's top consumer complaint 
for the last 14 years.
    Today, I am here to reiterate the Commission's bipartisan 
call for the enactment of a strong Federal data security and 
breach notification law. Never has the need for legislation 
been greater. With reports of data breaches on the rise, 
Congress must act.
    The FTC supports Federal legislation that would strengthen 
existing data security standards and require companies, in 
appropriate circumstances, to provide notification to consumers 
when there is a security breach. Reasonable security practices 
are critical to preventing data breaches and protecting 
consumers from ID theft and other harm. And when breaches do 
occur, notifying consumers helps them protect themselves from 
any harm that is likely to be caused by the misuse of their 
data.
    Legislation should give the FTC authority to seek civil 
penalties where warranted to help ensure that FTC actions have 
an appropriate deterrent effect. In addition, enabling the FTC 
to bring cases against nonprofits, such as universities and 
health systems, which have reported a substantial number of 
breaches would help ensure that whenever personal information 
is collected from consumers, entities that maintain such data 
adequately protect it.
    Finally, APA rulemaking authority, like that used in the 
CAN-SPAM Act, would allow the Commission to ensure that as 
technology changes and the risks from the use of certain types 
of information evolve, companies would be required to give 
adequate protection to such data.
    For example, whereas a decade ago it would have been 
difficult and expensive for a company to track an individual's 
precise location, smartphones have made this information 
readily available. And as the growing problem of child identity 
theft has brought to light in recent years, Social Security 
numbers alone can be combined with another person's information 
to steal an identity.
    Using its existing authority, the FTC has devoted 
substantial resources to encourage companies to make data 
security a priority. The FTC has settled 50 cases against 
companies that we alleged put consumer data at risk.
    In all these cases, the touchstone of the Commission's 
approach has been reasonableness. A company's data security 
measures must be reasonable in light of the sensitivity and 
volume of consumer information it holds, the size and 
complexity of its data operations, and the cost of available 
tools to improve security and reduce vulnerabilities.
    The Commission has made clear that it does not require 
perfect security and that the fact that a breach occurred does 
not mean that a company has violated the law. As the 
Commission's case against the retailer TJX illustrates, the 
Commission's data security cases have alleged failures to 
implement basic, fundamental safeguards.
    In 2007, TJX announced what was then one of the largest 
known data breaches. According to the FTC's subsequent 
complaint against TJX, a hacker obtained information from tens 
of millions of credit card and debit payment card information, 
as well as the personal information of approximately 455,000 
consumers.
    The FTC alleged that TJX engaged in a number of practices 
that, taken together, were unreasonable, such as allowing 
network administrators to use weak passwords, failing to limit 
wireless access to in-store networks, not using firewalls to 
isolate computers processing cardholder data from the Internet, 
and not having procedures to detect and prevent unauthorized 
access to its networks, such as procedures to update antivirus 
software.
    In addition to our enforcement efforts, the Commission also 
undertakes policy initiatives to promote privacy and data 
security, such as workshops on mobile security issues and child 
and senior ID theft. And for those consumers who may have been 
affected by recent breaches, the FTC has posted information 
online about steps they should take to protect themselves. The 
FTC also provides guidance to businesses about reasonable 
security practices.
    Thank you for the opportunity to provide the Commission's 
views on data security. The FTC remains committed to promoting 
reasonable security for consumer data, and we look forward to 
continuing to work with the Committee and Congress on this 
critical issue.
    Thank you.
    [The prepared statement of Ms. Ramirez follows:]

           Prepared Statement of the Federal Trade Commission
I. Introduction
    Chairman Rockefeller, Ranking Member Thune, and members of the 
Committee, I am Edith Ramirez, Chairwoman of the Federal Trade 
Commission (``FTC'' or ``Commission'').\1\ I appreciate the opportunity 
to present the Commission's testimony on data security.
---------------------------------------------------------------------------
    \1\ This written statement presents the views of the Federal Trade 
Commission. My oral statements and responses to questions are my own 
and do not necessarily reflect the views of the Commission or of any 
other Commissioner.
---------------------------------------------------------------------------
    Under your leadership, Chairman Rockefeller, this Committee has led 
critical efforts in Congress to protect consumers' privacy and data 
security. Throughout your tenure, the Committee has focused on a wide 
range of privacy and security concerns facing consumers in this 
increasingly interconnected economy. From the recent examination of the 
data broker industry and its impact on consumers; \2\ to protecting our 
children's privacy as technology changes; \3\ to promoting consumers' 
choices about online privacy; \4\ to proposing baseline data security 
requirements for industry,\5\ you and members of the Committee have 
shared the same goals as the Federal Trade Commission: to protect 
consumer privacy and promote data security in the private sector. The 
FTC thanks you for your leadership.
---------------------------------------------------------------------------
    \2\ See Office of Oversight & Investigations Majority Staff Report, 
Senate Commerce Committee, A Review of the Data Broker Industry: 
Collection, Use, and Sale of Consumer Data for Marketing Purposes (Dec. 
18, 2013), available at http://www.commerce.senate.gov/public/
?a=Files.Serve
&File_id=bd5dad8b-a9e8-4fe9-a2a7-b17f4798ee5a.
    \3\ See, e.g., Press Release, Rockefeller Says Modernized COPPA 
Rule Will Better Protect Children Online, Dec. 19, 2012, available at 
http://www.commerce.senate.gov/public/index.cfm?p=
PressReleases&ContentRecord_id=1a0ac4aa-bfbe-493e-a877-
16035146562d&ContentType_id=7
7eb43da-aa94-497d-a73f-5c951ff72372&Group_id=4b968841-f3e8-49da-a529-
7b18e32fd69d&M
onthDisplay=12&YearDisplay=2012.
    \4\ See, e.g., Hearing Before the Committee on Commerce, Science, 
and Transportation, U.S. Senate, A Status Update on the Development of 
Voluntary Do-Not-Track Standards, Apr. 24, 2013, available at http://
www.commerce.senate.gov/public/index.cfm?p=Hearings&ContentRe
cord_id=1cf8fb1a-fb0b-4bf1-958b-1ea3c443a73c&ContentType_id=14f995b9-
dfa5-407a-9d35-56c
c7152a7ed&Group_id=b06c39af-e033-4cba-9221-
de668ca1978a&MonthDisplay=4&YearDisplay
=2013.
    \5\ See, e.g., Press Release, The Data Security & Breach 
Notification Act, Jan. 30, 2014, available at http://
www.commerce.senate.gov/public/
index.cfm?p=Legislation&ContentRecord_id=
40e0ad58-866a-41ea-bf00-750c17e1ee3a.
---------------------------------------------------------------------------
    As this Committee is well aware, consumers' data is at risk. Recent 
publicly announced data breaches \6\ remind us that hackers and others 
seek to exploit vulnerabilities, obtain unauthorized access to 
consumers' sensitive information, and potentially misuse it in ways 
that can cause serious harm to consumers as well as businesses. These 
threats affect more than payment card data; breaches reported in recent 
years have also compromised Social Security numbers, account passwords, 
health data, information about children, and other types of personal 
information.
---------------------------------------------------------------------------
    \6\ See Elizabeth A. Harris & Nicole Perlroth, For Target, the 
Breach Numbers Grow, N.Y. Times, Jan. 10, 2014, available at http://
www.nytimes.com/2014/01/11/business/target-breach
-affected-70-million-customers.html (discussing recently-announced 
breaches involving payment card information by Target and Neiman 
Marcus); Nicole Perlroth, Michaels Stores Is Investigating Data Breach, 
N.Y. Times, Jan. 25, 2014, available at http://www.nytimes.com/2014/01/
26/technology/michaels-stores-is-investigating-data-breach.html 
(announcement of potential security breach involving payment card 
information).
---------------------------------------------------------------------------
    Data security is of critical importance to consumers. If companies 
do not protect the personal information they collect and store, that 
information could fall into the wrong hands, resulting in fraud, 
identity theft, and other harm, along with a potential loss of consumer 
confidence in the marketplace. As one example, the Bureau of Justice 
Statistics estimates that 16.6 million persons--or 7 percent of all 
U.S. residents ages 16 and older--were victims of identity theft in 
2012.\7\
---------------------------------------------------------------------------
    \7\ See Bureau of Justice Statistics, Victims of Identity Theft, 
2012 (Dec. 2013), available at http://www.bjs.gov/content/pub/pdf/
vit12.pdf.
---------------------------------------------------------------------------
    As the Nation's leading privacy enforcement agency, the Commission 
has undertaken substantial efforts for over a decade to promote data 
security and privacy in the private sector through civil law 
enforcement, education, and policy initiatives. The Commission is here 
today to reiterate its longstanding, bipartisan call for enactment of a 
strong Federal data security and breach notification law. Never has the 
need for legislation been greater. With reports of data breaches on the 
rise, and with a significant number of Americans suffering from 
identity theft, Congress must act. This testimony provides an overview 
of the Commission's data security efforts, and restates the FTC's 
support for data security legislation.
II. The Commission's Data Security Program
A. Law Enforcement
    The Commission enforces several statutes and rules that impose 
obligations upon businesses to protect consumer data. The Commission's 
Safeguards Rule, which implements the Gramm-Leach-Bliley Act (``GLB 
Act''), for example, provides data security requirements for non-bank 
financial institutions.\8\ The Fair Credit Reporting Act (``FCRA'') 
requires consumer reporting agencies to use reasonable procedures to 
ensure that the entities to which they disclose sensitive consumer 
information have a permissible purpose for receiving that 
information,\9\ and imposes safe disposal obligations on entities that 
maintain consumer report information.\10\ The Children's Online Privacy 
Protection Act (COPPA) requires reasonable security for children's 
information collected online.\11\ Reasonableness is the foundation of 
the data security provisions of each of these laws.
---------------------------------------------------------------------------
    \8\ 16 C.F.R. Part 314, implementing 15 U.S.C. Sec. 6801(b).
    \9\ 15 U.S.C. Sec. 1681e.
    \10\ Id. at Sec. 1681w. The FTC's implementing rule is at 16 C.F.R. 
Part 682.
    \11\ 15 U.S.C. Sec. Sec. 6501-6506; see also 16 C.F.R. Part 312 
(``COPPA Rule'').
---------------------------------------------------------------------------
    In addition, the Commission enforces the proscription against 
unfair or deceptive acts or practices in Section 5 of the FTC Act.\12\ 
A company acts deceptively if it makes materially misleading statements 
or omissions.\13\ Using its deception authority, the Commission has 
settled more than 30 matters challenging companies' express and implied 
claims about the security they provide for consumers' personal data. 
Further, a company engages in unfair acts or practices if its data 
security practices cause or are likely to cause substantial injury to 
consumers that is neither reasonably avoidable by consumers nor 
outweighed by countervailing benefits to consumers or to 
competition.\14\ The Commission has settled more than 20 cases alleging 
that a company's failure to reasonably safeguard consumer data was an 
unfair practice.\15\
---------------------------------------------------------------------------
    \12\ 15 U.S.C. Sec. 45(a).
    \13\ See Federal Trade Commission Policy Statement on Deception, 
appended to Cliffdale Assocs., Inc., 103 F.T.C. 110, 174 (1984).
    \14\ See Federal Trade Commission Policy Statement on Unfairness, 
appended to Int'l Harvester Co., 104 F.T.C. 949, 1070 (1984) (``FTC 
Unfairness Statement'').
    \15\ Some of the Commission's data security settlements allege both 
deception and unfairness, as well as allegations under statutes such as 
the FCRA, GLB Act, and COPPA.
---------------------------------------------------------------------------
    The FTC conducts its data security investigations to determine 
whether a company's data security measures are reasonable and 
appropriate in light of the sensitivity and volume of consumer 
information it holds, the size and complexity of its data operations, 
and the cost of available tools to improve security and reduce 
vulnerabilities. The Commission's 50 settlements with businesses that 
it charged with failing to provide reasonable protections for 
consumers' personal information have halted harmful data security 
practices; required companies to accord strong protections for consumer 
data; and raised awareness about the risks to data, the need for 
reasonable and appropriate security, and the types of security failures 
that raise concerns.\16\ And they have addressed the risks to a wide 
variety of consumer data, such as Social Security numbers, health data, 
data about children, credit card information, bank account information, 
usernames, and passwords, in a broad range of sectors and platforms.
---------------------------------------------------------------------------
    \16\ See Commission Statement Marking the FTC's 50th Data Security 
Settlement, Jan. 31, 2014, available at http://www.ftc.gov/system/
files/documents/cases/140131gmrstatement.pdf.
---------------------------------------------------------------------------
    In each of these cases, the Commission has examined a company's 
practices as a whole and challenged alleged data security failures that 
were multiple and systemic. Through these settlements, the Commission 
has made clear that reasonable and appropriate security is a continuous 
process of assessing and addressing risks; that there is no one-size-
fits-all data security program; that the Commission does not require 
perfect security; and that the mere fact that a breach occurred does 
not mean that a company has violated the law.
    In its most recent case, the FTC entered into a settlement with GMR 
Transcription Services, Inc., a company that provides audio file 
transcription services for its clients--which includes health care 
providers.\17\ According to the complaint, GMR relies on service 
providers and independent typists to perform this work, and conducts 
its business primarily over the Internet by exchanging audio files and 
transcripts with customers and typists by loading them on a file 
server. As a result of GMR's alleged failure to implement reasonable 
and appropriate security measures or to ensure its service providers 
also implemented reasonable and appropriate security, at least 15,000 
files containing sensitive personal information--including consumers' 
names, birthdates, and medical histories--were available to anyone on 
the Internet. The Commission's order prohibits GMR from making 
misrepresentations about privacy and security, and requires the company 
to implement a comprehensive information security program and undergo 
independent audits for the next 20 years.
---------------------------------------------------------------------------
    \17\ GMR Transcription Servs., Inc., Matter No. 112-3120 (F.T.C. 
Dec. 16, 2013) (proposed consent order), available at http://
www.ftc.gov/news-events/press-releases/2014/01/provider-medical-
transcript-services-settles-ftc-charges-it.
---------------------------------------------------------------------------
    The FTC also recently announced a case against TRENDnet, which 
involved a video camera designed to allow consumers to monitor their 
homes remotely.\18\ The complaint alleges that TRENDnet marketed its 
SecurView cameras for purposes ranging from home security to baby 
monitoring. Although TRENDnet claimed that the cameras were ``secure,'' 
they had faulty software that left them open to online viewing, and in 
some instances listening, by anyone with the cameras' Internet address. 
This resulted in hackers posting 700 consumers' live feeds on the 
Internet. Under the FTC settlement, TRENDnet must maintain a 
comprehensive security program, obtain outside audits, notify consumers 
about the security issues and the availability of software updates to 
correct them, and provide affected customers with free technical 
support for the next two years.
---------------------------------------------------------------------------
    \18\ TRENDnet, Inc., No. C-4426(F.T.C. Jan. 16, 2014) (consent 
order), available at http://www.ftc.gov/enforcement/cases-proceedings/
122-3090/trendnet-inc-matter.
---------------------------------------------------------------------------
    The FTC also has brought a number of cases alleging that 
unreasonable security practices allowed hackers to gain access to 
consumers' credit and debit card information, leading to many millions 
of dollars of fraud loss.\19\ The Commission's settlement with TJX 
provides a good example of the FTC's examination of reasonableness in 
the data security context.\20\ According to the complaint, TJX engaged 
in a number of practices that, taken together, failed to reasonably 
protect consumer information. Among other things, it (1) failed to 
implement measures to limit wireless access to its stores, allowing a 
hacker to connect wirelessly to its networks without authorization; (2) 
did not require network administrators to use strong passwords; (3) 
failed to use a firewall or otherwise limit access to the Internet on 
networks processing cardholder data; and (4) lacked procedures to 
detect and prevent unauthorized access, such as by updating antivirus 
software and responding on security warnings and intrusion alerts. As a 
result, a hacker obtained tens of millions of credit and debit payment 
cards, as well as the personal information of approximately 455,000 
consumers who returned merchandise to the stores. As this matter 
illustrates, the FTC's approach to reasonableness is process-based 
rather than a checklist of specific technologies or tools. The 
Commission looks to see whether companies have a general framework in 
place to develop, implement, and maintain appropriate safeguards that 
is reasonable and appropriate in light of the sensitivity and volume of 
the data it holds, the size and complexity of its data operations, and 
the cost of available tools.
---------------------------------------------------------------------------
    \19\ See, e.g., Dave & Buster's, Inc., No. C-4291 (F.T.C. May 20, 
2010) (consent order), available at http://www.ftc.gov/enforcement/
cases-and-proceedings/cases/2010/06/dave-busters-incin-matter; DSW, 
Inc., No. C-4157 (F.T.C. Mar. 7, 2006) (consent order), available at 
http://www.ftc.gov/enforcement/cases-and-proceedings/cases/2006/03/dsw-
incin-matter; BJ's Wholesale Club, Inc., No. C-4148 (F.T.C. Sept. 20, 
2005) (consent order), available at http://www.ftc.gov/enforcement/
cases-and-proceedings/cases/2005/09/bjs-wholesale-club-inc-matter.
    \20\ The TJX Cos., Inc., No. C-4227 (F.T.C. July 29, 2008) (consent 
order), available at http://www.ftc.gov/enforcement/cases-and-
proceedings/cases/2008/08/tjx-companies-inc-matter.
---------------------------------------------------------------------------
B. Policy Initiatives
    The Commission also undertakes policy initiatives to promote 
privacy and data security. For example, the FTC hosts workshops on 
business practices and technologies affecting consumer data. The FTC is 
in the midst of hosting its Spring Privacy Series to examine the 
privacy implications of a number of new technologies in the 
marketplace.\21\ The first seminar, held in February, included a panel 
of industry, technical experts, and privacy advocates and examined the 
privacy and security implications of mobile device tracking, where 
retailers and other companies rely on technology that can reveal 
information about consumers' visits to and movements within a 
location.\22\
---------------------------------------------------------------------------
    \21\ Press Release, FTC to Host Spring Seminars on Emerging 
Consumer Privacy Issues, Dec. 2, 2013, available at http://www.ftc.gov/
news-events/press-releases/2013/12/ftc-host-spring-seminars-emerging-
consumer-privacy-issues.
    \22\ See Spring Privacy Series, Mobile Device Tracking, Feb. 19, 
2014, available at http://www.ftc.gov/news-events/events-calendar/2014/
02/spring-privacy-series-mobile-device-tracking.
---------------------------------------------------------------------------
    In November, the FTC held a workshop on the phenomenon known as the 
``Internet of Things''--i.e., Internet-connected refrigerators, 
thermostats, cars, and other products and services that can communicate 
with each other and/or consumers.\23\ The workshop brought together 
academics, industry representatives, and consumer advocates to explore 
the security and privacy issues from increased connectivity in everyday 
devices, in areas as diverse as smart homes, connected health and 
fitness devices, and connected cars. Commission staff is developing a 
report on privacy and security issues raised at the workshop and in the 
public comments.
---------------------------------------------------------------------------
    \23\ FTC Workshop, Internet of Things: Privacy & Security in a 
Connected World (Nov. 19, 2013), available at http://www.ftc.gov/bcp/
workshops/internet-of-things/.
---------------------------------------------------------------------------
    And last June, the Commission hosted a public forum on mobile 
security issues, including potential threats to U.S. consumers and 
possible solutions to them.\24\ As the use of mobile technology 
increases at a rapid rate and consumers take advantage of the 
technology's benefits in large numbers, it is important to address 
threats that exist today as well as those that may emerge in the 
future. The forum brought together technology researchers, industry 
members and academics to explore the security of existing and 
developing mobile technologies and the roles various members of the 
mobile ecosystem can play in protecting consumers from potential 
security threats.
---------------------------------------------------------------------------
    \24\ FTC Workshop, Mobile Security: Potential Threats and Solutions 
(June 4, 2013), available at http://www.ftc.gov/bcp/workshops/mobile-
security/.
---------------------------------------------------------------------------
C. Consumer Education and Business Guidance
    The Commission is also committed to promoting better data security 
practices through consumer education and business guidance. On the 
consumer education front, the Commission sponsors OnGuard Online, a 
website designed to educate consumers about basic computer 
security.\25\ OnGuard Online and its Spanish-language counterpart, 
Alerta en Liinea,\26\ average more than 2.2 million unique visits per 
year. Also, for consumers who may have been affected by the recent 
Target and other breaches, the FTC posted information online about 
steps they should take to protect themselves.\27\
---------------------------------------------------------------------------
    \25\ See http://www.onguardonline.gov.
    \26\ See http://www.alertaenlinea.gov.
    \27\ See Nicole Vincent Fleming, An Unfortunate Fact About 
Shopping, FTC Consumer Blog, http://www.consumer.ftc.gov/blog/
unfortunate-fact-about-shopping (Jan. 27, 2014); Nicole Vincent 
Fleming, Are you affected by the recent Target hack?, FTC Consumer 
Blog, https://www.consumer.ftc.gov/blog/are-you-affected-recent-target-
hack. In addition to these materials posted in response to recent 
breaches, the FTC has long published a victim recovery guide and other 
resources to explain the immediate steps identity theft victims should 
take to address the crime; how to obtain a free credit report and 
correct fraudulent information in credit reports; how to file a police 
report; and how to protect their personal information. See http://
www.consumer.ftc.gov/features/feature-0014-identity-theft.
---------------------------------------------------------------------------
    The Commission directs its outreach to businesses as well to 
provide education about applicable legal requirements and reasonable 
security practices. For example, the FTC widely disseminates its 
business guide on data security,\28\ along with an online tutorial 
based on the guide.\29\ These resources are designed to provide a 
variety of businesses--and especially small businesses--with practical, 
concrete advice as they develop data security programs and plans for 
their companies. First, companies should know what consumer information 
they have and what personnel or third parties have, or could have, 
access to it. Understanding how information moves into, through, and 
out of a business is essential to assessing its security 
vulnerabilities. Second, companies should limit the information they 
collect and retain based on their legitimate business needs, so that 
needless storage of data does not create unnecessary risks of 
unauthorized access to the data. Third, businesses should protect the 
information they maintain by assessing risks and implementing 
protections in certain key areas--physical security, electronic 
security, employee training, and oversight of service providers. 
Fourth, companies should properly dispose of information that they no 
longer need. Finally, companies should have a plan in place to respond 
to security incidents, should they occur.
---------------------------------------------------------------------------
    \28\ See Protecting Personal Information: A Guide for Business, 
available at http://business.ftc.gov/documents/bus69-protecting-
personal-information-guide-business.
    \29\ See Protecting Personal Information: A Guide for Business 
(Interactive Tutorial), available at http://business.ftc.gov/
multimedia/videos/protecting-personal-information.
---------------------------------------------------------------------------
    The Commission has also released articles directed towards a non-
legal audience regarding basic data security issues for businesses.\30\ 
For example, because mobile applications (``apps'') and devices often 
rely on consumer data, the FTC has developed specific security guidance 
for mobile app developers as they create, release, and monitor their 
apps.\31\ The FTC also creates business educational materials on 
specific topics--such as the risks associated with peer-to-peer 
(``P2P'') file-sharing programs and companies' obligations to protect 
consumer and employee information from these risks \32\ and how to 
properly secure and dispose of information on digital copiers.\33\
---------------------------------------------------------------------------
    \30\ See generally http://www.business.ftc.gov/privacy-and-
security/data-security.
    \31\ See Mobile App Developers: Start with Security (Feb. 2013), 
available at http://business.ftc.gov/documents/bus83-mobile-app-
developers-start-security.
    \32\ See Peer-to-Peer File Sharing: A Guide for Business (Jan. 
2010), available at http://business.ftc.gov/documents/bus46-peer-peer-
file-sharing-guide-business.
    \33\ See Copier Data Security: A Guide for Business (Nov. 2010), 
available at http://business.ftc.gov/documents/bus43-copier-data-
security.
---------------------------------------------------------------------------
III. Data Security Legislation
    The FTC supports Federal legislation that would (1) strengthen its 
existing authority governing data security standards on companies and 
(2) require companies, in appropriate circumstances, to provide 
notification to consumers when there is a security breach.\34\ 
Reasonable and appropriate security practices are critical to 
preventing data breaches and protecting consumers from identity theft 
and other harm. Where breaches occur, notifying consumers helps them 
protect themselves from any harm that is likely to be caused by the 
misuse of their data. For example, in the case of a breach of Social 
Security numbers, notifying consumers will enable them to request that 
fraud alerts be placed in their credit files, obtain copies of their 
credit reports, scrutinize their monthly account statements, and take 
other steps to protect themselves. And although most states have breach 
notification laws in place, having a strong and consistent national 
requirement would simplify compliance by businesses while ensuring that 
all consumers are protected.
---------------------------------------------------------------------------
    \34\ See, e.g., Prepared Statement of the Federal Trade Commission, 
``Privacy and Data Security: Protecting Consumers in the Modern 
World,'' Before the Senate Committee on Commerce, Science, and 
Transportation, 112th Cong., June 29, 2011, available at http://
www.ftc.gov/sites/default/files/documents/public_statements/prepared-
statement-federal-trade-commission-privacy-and-data-security-
protecting-consumers-modern/110629privacytestimonybrill.pdf; Prepared 
Statement of the Federal Trade Commission, ``Data Security,'' Before 
Subcommittee on Commerce, Manufacturing, and Trade of the House 
Committee on Energy and Commerce, 112th Cong., June 15, 2011, available 
at http://www.ftc.gov/sites/default/files/documents/public_statements/
prepared-statement-federal-trade-commission-data-security/
110615datasecurity
house.pdf; FTC, Security in Numbers, SSNs and ID Theft (Dec. 2008), 
available at http://www.ftc.gov/sites/default/files/documents/reports/
security-numbers-social-security-numbers-and-identity-theft-federal-
trade-commission-report/p075414ssnreport.pdf; President's Identity 
Theft Task Force, Identity Theft Task Force Report (Sept. 2008), 
available at http://www
.ftc.gov/sites/default/files/documents/reports/presidents-identity-
theft-task-force-report/081021
taskforcereport.pdf.
---------------------------------------------------------------------------
    Legislation in both areas--data security and breach notification--
should give the FTC the ability to seek civil penalties to help deter 
unlawful conduct, jurisdiction over non-profits, and rulemaking 
authority under the Administrative Procedure Act. Under current laws, 
the FTC only has the authority to seek civil penalties for data 
security violations with regard to children's online information under 
COPPA or credit report information under the FCRA.\35\ To help ensure 
effective deterrence, we urge Congress to allow the FTC to seek civil 
penalties for all data security and breach notice violations in 
appropriate circumstances. Likewise, enabling the FTC to bring cases 
against non-profits \36\ would help ensure that whenever personal 
information is collected from consumers, entities that maintain such 
data adequately protect it.\37\
---------------------------------------------------------------------------
    \35\ The FTC can also seek civil penalties for violations of 
administrative orders. 15 U.S.C. Sec. 45(l).
    \36\ Non-profits are generally outside the FTC's jurisdiction. 15 
U.S.C. Sec. Sec. 44 & 45(a).
    \37\ A substantial number of reported breaches have involved non-
profit universities and health systems. See Privacy Rights 
Clearinghouse Chronology of Data Breaches (listing breaches including 
breaches at non-profits, educational institutions, and health 
facilities), available at http://www.privacyrights.org/data-breach/new.
---------------------------------------------------------------------------
    Finally, rulemaking authority under the Administrative Procedure 
Act would enable the FTC in implementing the legislation to respond to 
changes in technology. For example, whereas a decade ago it would be 
incredibly difficult and expensive for a company to track an 
individual's precise geolocation, the explosion of mobile devices has 
made such information readily available. And, as the growing problem of 
child identity theft has brought to light in recent years, a child's 
Social Security number alone can be used in combination with another 
person's information, such as name or date of birth, in order to commit 
identity theft.\38\ Rulemaking authority would allow the Commission to 
ensure that as technology changes and the risks from the use of certain 
types of information evolve, companies would be required to give 
adequate protection to such data.
---------------------------------------------------------------------------
    \38\ FTC Workshop, Stolen Futures: A Forum on Child Identity Theft 
(July 12, 2011), available at http://www.ftc.gov/news-events/events-
calendar/2011/07/stolen-futures-forum-child-identity-theft.
---------------------------------------------------------------------------
IV. Conclusion
    Thank you for the opportunity to provide the Commission's views on 
data security. The FTC remains committed to promoting reasonable 
security for consumer data and we look forward to continuing to work 
with the Committee and Congress on this critical issue.

    The Chairman. Thank you very much.
    We are very honored to have the President of the University 
of Maryland here, Dr. Wallace Loh.
    Thank you for taking the time, sir. I am sure that 
testifying before a congressional committee must be something 
you look forward to.
    [Laughter.]

          STATEMENT OF DR. WALLACE D. LOH, PRESIDENT, 
                     UNIVERSITY OF MARYLAND

    Mr. Loh. Thank you, Chairman Rockefeller and Ranking Member 
Thune and members of the Commerce Committee. I spend most of my 
time testifying before the Maryland legislature, so I hope that 
is good preparation for today.
    On February 18, after a major snowstorm paralyzed this 
region that weekend--that was President's Day weekend--we had a 
very sophisticated cyber attack. Somebody basically uploaded a 
Trojan horse into the website of one of our colleges. This 
website, about 10 years old, invites the uploading of 
photographs, but instead they uploaded this malware.
    Once they got into that website, they were able to pierce 
into central systems, and they were actually coding in order to 
do that. And they were able to get to the directory of the 
management of IT, find their passwords, and then change these 
to issue orders.
    So they downloaded 310,000 names, Social Security numbers, 
university IDs. They intentionally left out photographs, so on 
and so forth, that kind of information, because that would have 
slowed the exfiltration of the data. And they did it using Tor 
(software allowing online anonymity), which means that they 
were able to hide the point of origin of the attack.
    It turns out, because we have never been hacked before, we 
were just flying by the seat of our pants.
    And it just so happens that we did exactly what your bill 
proposes to do. With regard to notification, we announced it 
within 24 hours. Within 24 hours, we also contacted credit 
rating agencies, set up call centers, and notified the entire 
university community, all 38,000 students, all 12,000 faculty 
and staff. And within 4 or 5 days, we e-mailed, called, sent 
letters to everybody else, a total of 310,000 because some of 
them are alumni going back for 20 years.
    The reason, of course, is that what they got were the 
university IDs, but, remember, until about the year 2000, every 
university in this country was using Social Security numbers as 
identification. And we have thousands of databases, and they 
just took that one database where we had both the university ID 
and the Social Security.
    So, in terms of notification, not only did we notify, we 
offered to pay 5 years of protection--credit card protection--
to all the affected parties. That is approximately $20 per 
person, multiplied by 310,000 over 5 years. To date, 
approximately 60,000 have signed up for this free 5-year 
protection.
    What we also did in terms of data security is very much 
along the lines of what your bill has proposed. What we have 
done immediately was to purge all of the unnecessary data. We 
have purged approximately 225,000 names from our records. We 
didn't purge all of them because you need Social Security 
numbers for a student's financial aid, for payroll purposes. We 
are trying to reinforce the security for those Social Security 
numbers that remain.
    So what we are trying to do, with the help of the FBI, the 
Secret Service, private security companies, are two things. One 
is to strengthen perimeter defenses and hire firms to do 
periodic, on a regular basis, penetration testing. And then, 
also, assuming they still are able to penetrate, because people 
who play offense will always be one step ahead of those who are 
playing defense, is to tighten the security around the 
sensitive databases.
    So what we have done in just one month is we have migrated 
almost all of our websites to the cloud. We have purged, as I 
said, lots of information. We have engaged firms to do 
penetration testing. We have isolated information that is 
sensitive from information that is less sensitive and so on. 
And the cost is very, very high.
    Let me just conclude by saying that 3 weeks later we had 
another major intrusion. Fortunately, of course, the FBI was 
working with us. All I can say at this point is that within 36 
hours the FBI was able to identify and, in their parlance, 
successfully mitigate that intrusion. No data was released, 
except that the data of one individual was posted on the Web 
for everybody to see just because the intruder wanted everybody 
to know that they were successful.
    So that is where we are at. And thank you very much for all 
of your work in terms of requiring data notification and data 
security. This is a very important issue.
    And I will conclude by saying this. Security in a 
university is very different than data security in the private 
sector, because a university is an open organization. There are 
many points of access because it is all about the free exchange 
of information. By definition, that is the Internet. In the 
private sector, you can centralize cybersecurity. You cannot do 
that at a university.
    So we have to find that proper balance between security and 
access. And that is the challenge for all universities because, 
as you know, in the past 12 months 50 universities have had 
major data breaches, and not all of them even bothered to 
report it.
    [The prepared statement of Mr. Loh follows:]

         Prepared Statement of Dr. Wallace D. Loh, President, 
                         University of Maryland
    My name is Wallace Loh and I am the President of the University of 
Maryland. From its beginnings as a small, land-grant institution to its 
current status as a major presence in higher education, the University 
of Maryland has a long and distinguished history of excellence and 
innovation, evidenced by being #38 in the 2013 Academic Ranking of 
World Universities.
    I am grateful for this opportunity to discuss an issue that is not 
only important to the higher education community but to all of us who 
participate in online activities on a daily basis. As the state's 
flagship institution, the University of Maryland has 37,000 students, 
12 colleges and schools, 9000 faculty and staff, and an annual $1.7 
billion operation budget. To safeguard such a large and complex 
operation, we recently doubled the number of our IT security engineers 
and analysts as well as our investment in top-end security tools. 
However, as our recent data breach reveals, more remains to be done.
    On February 18, 2014, the University of Maryland was the victim of 
a sophisticated computer security attack that exposed records 
containing personal information of faculty, staff, students and 
affiliated personnel from the College Park and Shady Grove campuses. 
Fortunately, no financial, academic, health or contact (phone and 
address) information was compromised, but we are not taking any 
chances. I have ordered five years of credit protection services at no 
cost to every person affected by this breach. This is above and beyond 
the protection measures taken by other organizations and institutions, 
and so far nearly 30,000 persons affected by the breach have 
registered, which is also well ahead of projections. In addition, all 
sensitive records in the breached database that are no longer required 
have been removed.
    As evidence of our efforts, the University of Maryland IT security 
staff, working with the U.S. Secret Service, the FBI, and the campus 
police, mitigated another intrusion which occurred on Saturday, March 
15, 2014. There was no public release of any information and no damage 
to the institution, except for the release of personal data of one 
senior university official.
    Our experience highlights a serious and growing threat. In fact, in 
the past decade, some 20 large universities across the country have 
also reported major data breaches. Fortunately, there are steps that 
can be taken to minimize our risk and vulnerability.
    Over the past month, the University of Maryland has handled the 
situation in a deliberate and thorough manner, working with computer 
forensic investigators to determine how our sophisticated, multi-
layered security defenses were bypassed, to track down the 
perpetrators, and most importantly to ensure there is no repeat of 
these intrusions. The steps we are taking now should serve as both a 
warning and a model for other institutions.
    First, many university databases were created years ago when the 
environment for cyber threats was different. Consequently, they need to 
be explored, updated and secured. A comprehensive review of all 
personal information across all databases is underway, which has 
already led to the removal of all sensitive records in the breached 
database that are no longer required. Second, to maintain protection, 
universities should perform penetration tests of security defense on an 
ongoing basis to seal any possible technological gaps. At the moment, 
we are evaluating cyber security consulting firms that can assist with 
this process. Finally, there must be an appropriate balance between 
centralized (University-operated) versus decentralized (unit-operated) 
IT systems. Technical fixes must be reflected in policy changes to 
ensure that safeguards at central and local levels are equally robust 
and tightly coordinated. This includes examining national cybersecurity 
policies, procedures and best practices. The University of Maryland is 
performing each of these steps and recommends that other universities 
follow suit. And while such changes may be pricey, being proactive in 
safeguarding sensitive information is worth the investment.
    To execute this threefold mission, I have formed an 18-member Task 
Force on Cybersecurity. The Task Force includes experts from our 
campus, including members from our Maryland Cybersecurity Center. It 
also includes students since their perspective is unique and essential. 
The first meeting of the Task Force took place March 12 and I have 
charged them to complete an investigation and submit recommendations to 
me by June 12. The Task Force has the full support of my office and the 
resources it needs to complete its task. I will take all necessary 
actions based on the Task Force's recommendations and the results of 
the forensic analysis now underway.
    Concurrently, the University IT staff with the support of outside 
consultants are working virtually non-stop to protect better the vast 
information systems in our network that are accessible to students, 
faculty, staff and others. In the past month, they have identified and 
closed the pathways utilized in the February 18, 2014, breach and the 
incursion on March 15, 2014, changed the passwords for all databases 
and applications, and conducted an initial audit to detect 
vulnerabilities in individual websites within web hosting environments. 
Plans have also been accelerated to migrate web hosting to a more 
secure environment.
    Equally important, it is not enough to rely on others to defend 
against cyber threats. Each of us must do our part and take reasonable 
steps to ensure our own information security. Therefore, the University 
of Maryland will also present a series of identity theft seminars to 
our students, faculty, staff and alumni. These seminars, which will 
also be recorded and made available online for viewing at a later time, 
will feature Jeff Karberg from the Maryland Attorney General's Identity 
Theft Unit.
    It is clear that there is no impregnable barrier against every 
cyber-attack. There is an arms race between hackers playing offense and 
universities playing defense. Nonetheless, as the threat evolves, so 
can we. It will require higher investments in cyber security and 
greater diligence on our part, but as we become more adept at defense, 
we will inevitably create a good offense, and cyber criminals will have 
to be the ones who are worried.
            Thank you.
                                             Wallace D. Loh

    The Chairman. Excellent testimony, and I thank you very 
much.
    Mr. John Mulligan is Executive Vice President and Chief 
Financial Officer of the Target Corporation.
    We welcome you.

         STATEMENT OF JOHN J. MULLIGAN, EXECUTIVE VICE

             PRESIDENT AND CHIEF FINANCIAL OFFICER,

                       TARGET CORPORATION

    Mr. Mulligan. Good afternoon, Chairman Rockefeller, Ranking 
Member Thune, and members of the Committee. My name is John 
Mulligan, and I am the Executive Vice President and Chief 
Financial Officer of Target. It is a pleasure to be with you 
here today.
    As you know, Target experienced a data breach resulting 
from a criminal attack on our systems. Let me begin by once 
again reiterating how deeply sorry we are for the impact this 
incident has had on our guests, your constituents.
    Our top priority is always taking care of our guests. They 
should feel confident about shopping at Target. We work hard to 
protect information about them, but the reality is we 
experienced a data breach. Our guests expect more, and we are 
working hard to do better. We know this has shaken their 
confidence, and we intend to earn it back.
    My written statement provides additional details about the 
breach and Target's response. Like you, we are asking hard 
questions about whether we could have taken different actions 
before the breach was discovered that would have resulted in 
different outcomes.
    In particular, we are focused on what information we had 
that could have alerted us to the breach earlier, whether we 
had the right personnel in the right positions, and ensuring 
that decisions related to operational and security matters were 
sound. We are working quickly to answer these questions.
    This afternoon, I would like to provide an update since I 
last testified, including the actions we are taking to further 
strengthen our security and potential policy solutions we 
support.
    From the outset, our response to the breach has been 
focused on supporting our guests and taking action to protect 
them against constantly evolving cyber threats. We are taking a 
hard look at security across our network.
    While we don't know everything yet, we have initiated the 
following steps to further protect our perimeter and better 
secure our data: We are enhancing our security systems. We are 
increasing segmentation of key portions of our network. We have 
accelerated the installation of additional anti-malware tools. 
And we are hardening our network perimeter by expanding two-
factor authentication.
    Earlier this month, Target became the first retailer to 
join the Financial Services Information Sharing and Analysis 
Center. The center shares critical information and facilitates 
detection, prevention, and response to cyber attacks and fraud 
activity.
    We are accelerating our $100 million investment in the 
adoption of chip technology because we believe it is critical 
to enhancing consumer protection. We have already installed 
approximately 10,000 chip-enabled devices in Target stores and 
expect to complete this installation in all Target stores by 
September, 6 months ahead of schedule. We also expect to begin 
to issue and accept chip-enabled cards by early 2015.
    We have offered one year of free credit monitoring and 
identity theft protection to anyone who has ever shopped at our 
U.S. Target stores. And we have informed our guests that they 
have zero liability for any fraudulent charges on their cards 
arising from this incident.
    We believe that responsible policy measures can help 
further enhance security for our guests and all consumers. Mr. 
Chairman, I know that you and other members of the Committee 
have introduced legislation designed to enhance data security. 
Although I am not a policy expert, I have discussed the 
principles of your bill with our team. We agree that a uniform 
standard would help provide clarity and predictability to 
consumer notifications. While the standard would be uniform, we 
would support continued state attorneys general enforcement.
    We also believe that data security standards, if 
appropriately structure by the Federal Trade Commission, could 
provide additional protection for consumers. We have learned 
that even robust security can't completely shield a company 
from a criminal breach. However, the more that data security 
can be improved across the economy, the better protected 
consumers will be.
    For many years, Target has invested significant capital and 
resources in technology, personnel, and processes. Prior to the 
data breach, we had in place multiple layers of protection and 
continually made enhancements to meet evolving threats. And in 
September 2013, our systems were certified compliant with 
Payment Card Industry data security standards, meaning that we 
met approximately 300 independent requirements of the 
assessment.
    Yet the reality is that criminals breached our system. To 
prevent breaches like this from happening again, none of us can 
go it alone. All businesses and their customers are facing 
frequent and increasingly sophisticated attacks by cyber 
criminals. Protecting American consumers is a shared 
responsibility, and Target remains committed to being part of 
that solution.
    Senators, I want to once again say to you and to our guests 
how sorry we are this happened. We are committed to getting 
things right.
    Thank you.
    [The prepared statement of Mr. Mulligan follows:]

Prepared Statement of John Mulligan, Executive Vice President and Chief 
                       Financial Officer, Target
I. Introduction
    Good afternoon Chairman Rockefeller, Ranking Member Thune, and 
Members of the Committee. My name is John Mulligan and I am the 
Executive Vice President and Chief Financial Officer of Target. I 
appreciate the opportunity to be here today to discuss important issues 
surrounding data breaches and cybercrime.
    As you know, Target experienced a data breach in late 2013 
resulting from a criminal attack on our systems. Let me reiterate how 
deeply sorry we are for the impact this incident has had on our 
guests--your constituents. Our top priority is taking care of our 
guests. They should feel confident about shopping at Target. We work 
hard to protect their information. But the reality is we experienced a 
data breach. Our guests expect more and we are working hard to do 
better. We know this has shaken their confidence and we intend to earn 
it back.
    We are asking hard questions about whether we could have taken 
different actions before the breach was discovered that would have 
resulted in different outcomes. In particular, we are focused on what 
information we had that could have alerted us to the breach earlier; 
whether we had the right personnel in the right positions; and ensuring 
that decisions related to operational and security matters were sound. 
We are working diligently to answer these questions.
    This afternoon, I'd like to provide an update since I last 
testified, including actions we are taking to further strengthen our 
security and potential policy solutions we support. Because the 
government's investigation regarding the intruders remains active and 
ongoing, I may not be able to provide specifics on certain matters. We 
continue to work closely with the U.S. Secret Service and the U.S. 
Department of Justice--to help them bring to justice the criminals who 
perpetrated this wide-scale attack on Target, American business and 
consumers.
II. What We Know
    We are further strengthening our data security based on learnings 
from an end-to-end review of our systems. We are not finished with that 
review, and additional facts may affect our findings, but we are 
certainly developing a clearer picture of events and want to share with 
you some key facts we have learned.
    Like any large business, we log a significant number of technology 
activities in our system--more than 1 billion on average each day. 
These activities range from relatively insignificant, such as a team 
member logging onto a laptop, to more significant, such as removal of a 
virus from a computer. Using technology tools, those activities are 
narrowed to a few hundred events that are surfaced to the professionals 
staffing our Security Operations Center (SOC). As a result of their 
review of these events, dozens of cases are opened daily for additional 
assessment.
    It appears that intruders entered our system on November 12. We now 
believe that some intruder activity was detected by our computer 
security systems, logged and surfaced to the SOC and evaluated by our 
security professionals. With the benefit of hindsight and new 
information, we are now asking hard questions regarding the judgments 
that were made at that time and assessing whether different judgments 
may have led to different outcomes.
    We believe that the intruders initially obtained an HVAC vendor's 
credentials to access the outermost portion of our network. We are 
still investigating how the intruders were able to move through the 
system using higher-level credentials to ultimately place malware on 
Target's point-of-sale registers. The malware appears to have been 
designed to capture payment card data from the magnetic strip of credit 
and debit cards prior to encryption within our system.
    On the evening of December 12, we were notified by the Justice 
Department of suspicious activity involving payment cards used at 
Target stores. We immediately started our internal investigation.
    On December 13, we met with the Justice Department and Secret 
Service. On December 14, we engaged an outside team of experts to lead 
a thorough forensic investigation.
    On December 15, we confirmed that criminals had infiltrated our 
system, installed malware on our point-of-sale network and potentially 
stolen guest payment card data. That same day, we removed the malware 
from virtually all registers in our U.S. stores.
    Over the next two days, we began notifying the payment processors 
and card networks, preparing to publicly notify our guests, and 
equipping call centers and stores with the necessary information and 
resources to address our guests' concerns.
    Our actions leading up to our public announcement on December 19--
and since--have been guided by the principle of serving our guests. We 
moved quickly to share accurate and actionable information with the 
public. When we announced the intrusion on December 19, we used 
multiple forms of communication, including a mass-scale public 
announcement, e-mail, prominent notices on our website, and social 
media.
    Additionally, when we subsequently confirmed the theft of certain 
personal data, we used various channels of communication to notify our 
guests on January 10.
    The breach affected two types of data: payment card data, which 
affected approximately 40 million guests, and certain personal data, 
which affected up to 70 million guests. The theft of the payment card 
data affected guests who shopped at our U.S. stores from November 27 
through December 18. The theft of personal data included name, mailing 
address, phone number or e-mail address, and in many cases, it was 
partial in nature.
    It is difficult to develop an accurate assessment of overlap 
between these two types of data, due in part to the partial nature of 
the information related to the file of 70 million individuals. Our 
analysis indicates there is an overlap of at least 12 million guests in 
the two populations, and likely more.
III. Protecting Our Guests
    From the outset, our response to the breach has been focused on 
supporting our guests and taking action to further protect them against 
constantly evolving cyber threats. We are taking a hard look at 
security across the network. While we don't know everything yet, we 
have initiated the following steps to further protect our perimeter and 
better secure our data:

        Segmentation. We are increasing the segmentation and separation 
        of key portions of our network by enhancing the protections 
        provided by the firewalls we have in place to limit 
        unauthorized traffic. This is about making it more difficult to 
        move across our network.

        Whitelisting. We continue to strengthen our anti-virus tools, 
        and accelerated the installation of a whitelisting solution on 
        our registers. Whitelisting protects guests by detecting 
        malicious applications and stopping them from running on our 
        registers and gives us another tool to prevent malware from 
        taking root and spreading in our environment. This is about 
        limiting what can run on our network.

        Authentication. We are strengthening our network perimeter by 
        expanding two-factor authentication for entry into the system. 
        This is about double locking the door.

    Beyond these technology responses, we need to ensure the right 
people, with the right experience, are in the right place. That's why 
we are also taking a hard look at our organization, with the intention 
of bolstering our information security structure and practices.

  <bullet> Earlier this month, Target became the first retailer to join 
        the Financial Services Information Sharing and Analysis Center 
        (FS-ISAC), an initiative developed by the financial services 
        industry to help facilitate the detection, prevention, and 
        response to cyber attacks and fraud activity. Target was 
        eligible to join the organization because of its financial 
        operations. During my testimony to Congress in February, I 
        stressed Target's commitment to more coordinated information 
        sharing with law enforcement and others fighting cyber threats, 
        in order to help make our company, partners and guests more 
        secure. Joining the FS-ISAC underscores Target's position that 
        the retail and financial industries have a shared 
        responsibility to collaborate and strengthen protection for 
        American consumers.

  <bullet> We are accelerating our $100 million investment in the 
        adoption of chip technology because we believe it is critical 
        to enhancing consumer protections. We have already installed 
        approximately 10,000 chip-enabled payment devices in Target 
        stores and expect to complete the installation in all Target 
        stores by this September, six months ahead of schedule. We also 
        expect to begin to issue chip-enabled Target REDcards and 
        accept all chip-enabled cards by early 2015. As a founding 
        member and steering committee member of the EMV Migration 
        Forum, we will continue to lead the adoption of these 
        technologies across the payment ecosystem.

  <bullet> We continue to reissue new Target credit or debit cards 
        immediately to any guest who requests one.

  <bullet> We continue to offer one year of free credit monitoring and 
        identity theft protection to anyone who has ever shopped at our 
        U.S. Target stores. This protection includes a free credit 
        report, daily credit monitoring, identity theft insurance and 
        unlimited access to personalized assistance from a fraud 
        resolution agent.

  <bullet> We have informed our guests that they have zero liability 
        for fraudulent charges on their cards arising from this 
        incident. To ensure our guests are protected, we continue to 
        encourage them to monitor their accounts and promptly alert 
        either Target or their issuing bank, as appropriate, of any 
        suspicious activity.
Moving Forward
    For many years, Target has invested significant capital and 
resources in security technology, personnel and processes. Prior to the 
data breach, we had in place multiple layers of protection, including 
firewalls, malware detection software, intrusion detection and 
prevention capabilities, and data loss prevention tools. We performed 
internal and external validation and benchmarking assessments. And, in 
September 2013, our systems were certified compliant with the Payment 
Card Industry Data Security Standards, meaning that we met 
approximately 300 independent requirements of the assessment. Yet the 
reality is that our systems were breached.
    To prevent this from happening again, none of us can go it alone. 
All businesses--and their customers--are facing frequent and 
increasingly sophisticated attacks by cybercriminals. Protecting 
American consumers is a shared responsibility and requires a collective 
and coordinated response. Target remains committed to being part of the 
solution.
V. Conclusion
    I want to once again say to the Members of this Committee and our 
guests how sorry we are that this happened. We are determined to get 
things right. Thank you.

    The Chairman. Thank you, sir.
    Now Ms. Ellen Richey, who is Chief Enterprise Risk Officer 
for a small corporation called Visa.
    [Laughter.]

 STATEMENT OF ELLEN RICHEY, CHIEF ENTERPRISE RISK OFFICER AND 
                CHIEF LEGAL OFFICER, VISA, INC.

    Ms. Richey. Thank you, Chairman Rockefeller, Ranking Member 
Thune, and members of the Committee. I appreciate the 
invitation to testify today.
    Everyone in our payment system--merchants, financial 
institutions, networks, and cardholders--is affected when data 
compromises occur, because they jeopardize the trust that we 
have worked to build for more than 50 years. We continue to 
work to maintain that trust every day by placing security at 
the forefront of everything we do.
    The payments industry has adopted a layered approached to 
data security. First, we protect consumers from financial harm 
through zero-liability policies that ensure they aren't held 
responsible for fraudulent charges on their accounts. And then 
we work behind the scenes to protect their personal information 
and prevent fraud before it can happen. As a result, fraud 
rates in the Visa system have declined by more than two-thirds 
in the last 2 decades to just 6 cents for every $100 
transacted.
    As recent compromises show, however, our work is never 
done. A critical first step in data security is to limit the 
amount of data that needs to be protected. For example, years 
ago we campaigned successfully to eliminate the storage of 
sensitive card data in large merchant environments. This made 
it more difficult for criminals to steal large volumes of data.
    But, as we all know, more sophisticated criminals today are 
stealing data in transit. Therefore, strong data security 
remains fundamental to our program to protect the payment 
system. The Payment Card Industry data security standards 
establish a baseline which, when fully and consistently 
implemented, has proven effective in protecting our 
stakeholders from cyber attack.
    Visa understands, however, that it is difficult for any 
organization to maintain complete security all of the time. 
With that in mind, we are working with others in the industry 
toward a paradigm shift that would in the future reduce or even 
eliminate vulnerable payment data from the merchant 
environment. If the data available in the environment could no 
longer be reused to commit fraud, criminals would have no 
reason to attack. We call this devaluing the data.
    That is why we are joining with others in the industry to 
create a roadmap for the future of payment security with a 
focus on three data-devaluation technologies: EMV chip, 
tokenization, and point-to-point encryption.
    The EMV chip is a microprocessor that can be embedded in 
payment cards. Chip cards are nearly impossible to counterfeit, 
and, as such, they eliminate one of the most important 
incentives for criminals to steal payment data today: the 
profit opportunity from counterfeit cards.
    But EMV is not a silver bullet. In countries where it is 
widely used, fraud has simply moved to the online channel. So 
to address that threat, we have proposed a new standard for 
digital payments known as ``tokenization,'' which replaces the 
accountholder's 16-digit account number with a digital token 
during the transaction process. Tokenization removes the 
sensitive data from the online merchant environment because it 
is the token and not the card number that goes to the merchant.
    The third element in the roadmap is point-to-point 
encryption, a technology which is available today and protects 
account data from the moment it enters a point-of-sale terminal 
to the completion of the transaction process.
    Securing data today and devaluing it tomorrow are the most 
critical components of our security strategy, but the layered 
approach assumes that no single strategy will ever be 100 
percent effective. Therefore, we also invest in fraud 
prevention and analytical tools, some of the most advanced in 
the world, that identify and prevent billions of dollars of 
fraud each year. And we also invest in breach response, 
continuously improving our ability to identify breaches, 
respond to them quickly, and protect consumers when they occur.
    As a result, the vast majority of accounts exposed in large 
data breaches do not experience fraud. In fact, just 2 to 5 
percent of the accounts exposed incur fraud resulting from a 
breach.
    As the Committee considers its policy responses, Visa 
believes there are three areas where government help could be 
most effective. First, the government can help create a safe 
environment to share cyber-threat information. Second, the 
government can continue to work with the international 
community to improve coordination among law enforcement 
agencies and to eliminate the havens from which cyber criminals 
launch their attacks on our financial system. Third, the 
government can establish a uniform breach-notification standard 
to replace the myriad state laws currently in place.
    And, finally, in closing, let me note that we know cyber 
criminals will always be with us. They will continue to target 
any environment that contains valuable information. The 
payments industry has fought back, investing in sophisticated 
solutions that protect the system and the consumers who rely on 
it.
    But as the criminals improve their technologies, we have to 
improve ours as well. The key is to work together to defeat our 
common enemy. And Visa is fully committed to working with all 
the participants in the payments industry toward this 
objective.
    Thank you again for the opportunity to testify today.
    [The prepared statement of Ms. Richey follows:]

 Prepared Statement of Ellen Richey, Chief Enterprise Risk Officer and 
                     Chief Legal Officer, Visa Inc.
    Chairman Rockefeller, Ranking Member Thune and Members of the 
Committee, my name is Ellen Richey and I am Chief Enterprise Risk 
Officer and Chief Legal Officer at Visa Inc. Thank you for the 
invitation to appear before the Commerce Committee to discuss payment 
system security and Visa's ongoing efforts to protect cardholder data 
from cyber attacks and data breaches.
    For more than 50 years, Visa has enabled people, businesses and 
governments to make and receive payments across the globe. As a global 
payments technology company, we connect financial institutions, 
merchants and governments around the world with credit, debit and 
prepaid products. Visa works behind the scenes to enable billions of 
daily transactions, powered by our core processing network--VisaNet. We 
make digital commerce more convenient, reliable and secure. It's 
important to note that Visa does not issue credit or debit cards or set 
the rates and fees on those products--our financial partners do.
    Fighting fraud and protecting cardholders is a top priority for 
Visa--and securing electronic payments is fundamental to Visa's 
success. We invest heavily in advanced fraud-fighting technologies and 
develop and deploy innovative programs that protect cardholders and 
merchants.
    Recent breaches have highlighted that organized and enterprising 
cyber criminals will seek to infiltrate any vulnerability to access 
consumers' personally identifiable information, payment card data or 
other information they view as valuable. When successful, these 
criminals steal more than money or information; they steal customers' 
peace of mind. Everyone in the payments system--merchants, financial 
institutions, networks, and customers--is affected by these breaches 
because they jeopardize the trust we've worked to establish over the 
last 50 years. At Visa, nothing is more important than trust in the 
payment system. Trust is the cornerstone of electronic payment systems, 
and consumers have long trusted us to safely and efficiently move their 
money. We value their trust and work to maintain it every day, by 
placing security foremost in everything we do.
    It's also important to emphasize that when fraud does occur, Visa 
cardholders are protected through Visa's Zero Liability policy, which 
protects debit and credit cardholders from being held liable for 
fraudulent purchases.
    Visa believes that protecting consumer data is the shared 
responsibility of all parties, including payment networks, financial 
institutions and merchants. No business or industry is exempt from 
protecting customer data or guarding against cyber attacks. Criminals 
are constantly adapting their techniques to gain access to systems that 
store or transmit data. To meet this challenge, security is a 24/7 job 
for all businesses that touch customer data.
    The electronic payments industry secures payment card data through 
a layered approach. It takes a combination of technology, processes and 
people to guard account information and prevent fraud. As a result of 
the industry's security investments, we've seen fraud rates in the Visa 
payment system decline by more than two-thirds over the past two 
decades and fraud rates remain low and stable at less than six 
hundredths of a percent--that's 6 cents for every hundred dollars 
transacted. Our collective success in maintaining the trust and 
confidence of consumers comes from the ability to work together, share 
information and coordinate our defenses. However, as recent compromises 
show, our work is never done.
Protecting Sensitive Data
    The first principle of protecting sensitive data is to limit the 
amount of data you have to protect. To promote this objective, Visa is 
constantly working to eliminate the storage of vulnerable payment data 
in the merchant environment. ``Prohibited'' data includes full magnetic 
stripe information, the CVV2 or ``Card Verification Value 2,'' and PIN. 
Since 2006, Visa has promoted a ``drop the data'' campaign around the 
world to encourage merchants to discontinue storage of prohibited data 
and reduce cardholder data storage overall. As of March 2013, all major 
merchants (Level 1 and Level 2 as defined by PCI DSS) have confirmed 
they do not store prohibited data.
    Eliminating data storage reduces the damage a hacker can cause by 
decreasing the amount of sensitive data in the environment. However, 
today's cyber criminals can also steal data in transit--while passing 
into, out of, or through the system--even if the data is never stored. 
Therefore, strong data security remains a critical element of our 
program to protect and secure the payment system.
    The key to an effective data security program--as with any 
successful operation--is a solid foundation. For the electronic 
payments industry, the Payment Card Industry Data Security Standards 
(PCI DSS) provides that foundation. PCI DSS has proven to be an 
effective set of minimum security standards when fully and consistently 
implemented across all systems handling cardholder data. No standard 
can provide an absolute guarantee of security in a changing world, and 
PCI DSS is not an exhaustive list of all the security practices that an 
organization should consider. However, compliance with the standard is 
a valuable component of a comprehensive security program and greatly 
reduces the risk of data compromise. In fact, we have yet to see a 
payment data compromise in which the breached entity was fully in 
compliance with PCI DSS at the time of the breach.
    The implementation of technical security tools is only one 
component of an effective security regime. In addition, companies must 
put in place business processes that ensure their tools are used and 
maintained properly, their procedures are executed correctly, and the 
inevitable human errors are detected and corrected quickly. This 
requires a rigorous program of internal control, monitoring, corporate 
governance, communication, and training that touches every part of the 
business environment.
    It can take a considerable effort to ensure, for example, that 
everyone in the company follows basic security protocols such as 
removing default passwords, using strong ones in their place, 
prohibiting the use of unapproved removable USB devices, and limiting 
access to systems containing sensitive data. Employees often find these 
controls tedious and inconvenient. But sadly, a lapse in any of these 
areas can open the door to a criminal intrusion that threatens the 
entire enterprise. We often see data compromises that could have been 
avoided by following baseline security procedures.
    Going beyond the basics, we believe that advanced cyber training is 
critically important for large enterprises. For instance, Visa cyber 
defense analysts have undergone training with leading organizations 
including Lockheed Martin, RSA Advanced Cyber Defense and the 
Department of Homeland Security's Industrial Control Systems Cyber 
Emergency Readiness Team.
    Visa views the recent release of the NIST Cyber Security Framework 
for Improving Critical Infrastructure as a positive development in 
strengthening U.S. cyber defenses. We support a flexible, standards-
based approach that recognizes and builds upon existing private and 
public regulatory structures, and we're encouraged that the final 
framework issued by the Administration embraces existing security best 
practices.
    Finally, it is important to recognize that cyber security is not a 
one-time exercise. Companies must continually assess and evolve their 
policies and procedures and educate their employees on how to best 
protect against cyber threats. Cyber hygiene is something Visa, and all 
companies, must work at every day.
Devaluing Data
    While effective security is critical, we understand that it is 
difficult for any organization to be completely secure all the time. 
With that in mind, Visa is working with others in the industry toward a 
paradigm shift that would in the future reduce--or even eliminate--
vulnerable payment data from the merchant environment, by moving from a 
data protection to a data devaluation approach. If the data available 
in the merchant environment could no longer be reused to commit fraud, 
then criminals would have no reason to steal it, and merchants would no 
longer be targeted by criminals seeking to commit payment fraud.
    This approach to the future of payment security relies on three 
technologies: EMV chip, tokenization and point-to-point encryption.
    The EMV chip is a microprocessor that can be embedded in plastic 
payment cards or in other form factors such as mobile phones. Sometimes 
referred to as a smart card or chip card, EMV enables more secure 
processing by generating a one-time-use code for each transaction. 
Since EMV chip cards are nearly impossible to counterfeit, they 
eliminate one of the most important incentives for criminals to steal 
payment data today--their ability to use the data to create counterfeit 
cards. As such, EMV chip makes payment data a less attractive target 
for criminals.
    To encourage adoption of EMV chip in the United States, in August 
2011, Visa announced a roadmap that included processor requirements and 
liability shifts. Visa's EMV roadmap is not a mandate. Instead, it 
provides marketplace incentives to encourage adoption by Visa financial 
institutions and merchants--elements that have proven to be effective 
in moving other markets to deploy EMV chip technology.
    As part of Visa's incentive program, the party that has not 
implemented EMV technology bears the loss from any resulting 
counterfeit fraud. This shift will become effective October 1, 2015 for 
point-of-sale environments, and October 1, 2017 for Automated Fuel 
Dispensers and ATMs.
    Last fall, we reached an important milestone in the migration 
process when the vast majority of U.S. Visa acquirer/processor 
endpoints certified their ability to support merchant acceptance of EMV 
chip transactions. Acquirers representing 95 percent of Visa's payment 
volume in the United States have been certified to support EMV chip 
processing.
    Based on years of experience working with merchants as well as 
issuing banks, Visa has taken care to ensure that our roadmap supports 
a variety of cardholder verification methods, including signature, PIN 
and no cardholder verification for low value, low risk transactions. In 
order to accomplish the transition to EMV in the most cost-effective 
and expeditious way, we want to provide customers, merchants and 
financial institutions with options that minimize the disruption to the 
current payments environment.
    Many have asked why the United States is taking longer than other 
markets to adopt EMV chip technology. The speed and efficiency of our 
telecommunications infrastructure, coupled with back-office tools such 
as the real-time authorization and advanced fraud analytics have helped 
stakeholders to effectively manage fraud levels here. In other markets, 
including the European Union, one reason EMV was adopted was because 
the existing telecommunications infrastructure presented challenges for 
using the kind of real-time network authorizations that occur on 
virtually all transactions in the U.S. As a result, an alternative 
technology was needed to facilitate off-line security checks between 
the card and terminal; thus the emergence of a microchip.
    As the U.S. is adopting EMV chip, we are also now seeing 
international markets adopt real-time authentication tools similar to 
those used in the U.S. While each market went down different paths over 
a decade ago, we are now seeing fraud and security strategies converge 
as all markets recognize the need to deploy multiple technologies to 
fight fraud and to protect personal data.
    As we make the transition to EMV in the United States, it is 
critical that all participants in the payments system work together. 
The payments ecosystem in the U.S. is larger and more complex than any 
other in the world, with thousands of financial institutions and 
millions of businesses accepting electronic payments. Visa has been 
mindful to allow enough time for this migration to occur without 
disadvantaging smaller merchants and financial institutions or unduly 
disrupting the consumer experience as the migration process occurs.
    While EMV is the traditional first step to devaluing payment data, 
it is not a silver bullet. When EMV has been adopted in other countries 
we have seen that cyber thieves continued to steal data in order to 
commit fraud in the eCommerce channel. To address this growing threat, 
in 2013, Visa, MasterCard and American Express proposed a new standard 
for digital payments that will allow a traditional account number to be 
replaced with a payment ``token'' in eCommerce or mCommerce.
    Tokenization uses a unique digital token that is tied to and 
replaces the accountholder's 16-digit account number in a payment 
transaction. Tokenization can enhance transaction efficiency, improve 
cardholder privacy and data security, and may enable new types or 
methods of payment. Tokenization shows particular promise in stopping 
online fraud, because it is the token--not the card number--that goes 
to the merchant, and because the token can be issued with limits on the 
times and places it can be used. Tokenization, like EMV chip, can be 
used to introduce a dynamic element into the transaction, thus 
devaluing the data and making it less lucrative for criminals to steal 
in the first place. When fully deployed, tokenization in combination 
with EMV could eliminate the need for merchants, digital wallet 
operators or others to secure account numbers.
    The final element in a comprehensive data devaluation strategy is 
point-to-point encryption, which can be implemented to secure data as 
it is transmitted from one point to another throughout the transaction 
processing environment. To gain full protection from EMV and 
tokenization approaches, multiple stakeholders must make changes to 
their systems that can take several years to complete. In the meantime, 
encryption technologies are available that can be deployed to protect 
data from the moment it enters a point-of-sale terminal to the 
completion of the transaction process. When properly implemented, 
encryption makes stolen data unusable by criminals and thus reduces the 
incentive to steal it.
Preventing Fraud
    Securing data and ultimately devaluing it are two core elements of 
Visa's approach to securing the payment system and protecting 
consumers. The third is fraud prevention. Our fraud analytics are among 
the most advanced in the industry and have helped to identify and 
prevent billions of dollars of fraud. One such prevention tool is Visa 
Advanced Authorization, which provides an instantaneous rating of a 
transaction's potential for fraud to the financial institution that 
issued the card, including whether it was part of a reported data 
security compromise. This rating occurs as part of the transaction 
authorization and enables the issuer to make a more informed decision 
about whether to accept or decline the transaction.
    These technologies allow financial institutions to better serve and 
protect their customers. I am sure many of you here have received a 
call from your bank or credit union to inquire about a possible 
suspicious transaction. These types of services provide additional 
layers of security to help protect consumers.
    Visa has also invested in tools for consumers to help prevent 
fraud. For instance, Visa offers a service called Verified by Visa that 
adds an extra layer of security, making it harder for someone else to 
use your Visa card to shop online in the rare event your Visa card or 
account number is lost or stolen. Each time your Visa credit or debit 
card is presented to make an online purchase at a participating 
merchant, Verified by Visa helps to make sure it is you who is 
attempting to make that purchase and not someone else.
    In addition, Visa has developed an alerts service that instantly 
notifies cardholders of transaction activity on their mobile phones via 
SMS text or e-mail. Many banks offer this service, or similar ones they 
have developed themselves. An alert is triggered whenever a transaction 
meets a cardholder's preset parameters, and can be sent within seconds 
of a transaction occurring. Alerts generally contain important 
transaction details such as the amount, time, date, the type of 
purchase, and may also include the merchant name and location and the 
currency conversion exchange rate for international transactions. These 
instant notifications are useful to consumers for monitoring their own 
transactions. More importantly, however, they assure consumers that 
they will receive instant notice of any fraudulent activity on their 
accounts, providing them with additional peace of mind.
Breach Response
    The fourth and final element of security and fraud prevention is 
how we respond when a breach has occurred. Visa is continually working 
with clients to improve our ability to identify payment data breaches 
and protect consumers affected by them. We may learn of a breach 
through issuer reports, self-reporting by a compromised merchant, our 
own monitoring efforts, or through law enforcement.
    One commonly used method for detecting compromise activity is known 
as the ``Common Point of Purchase'' or ``CPP.'' Card issuing banks and 
payment networks use advanced analytical tools to search millions of 
transactions in order to identify those unique locations that show a 
pattern of genuine transactions followed by confirmed fraudulent 
activity on the same card. Identifying points of compromise at the 
early stages of stolen card account usage helps to minimize the 
financial consequences of compromise events and enables corrective and 
mitigation actions as early as possible.
    When data breaches expose sensitive cardholder information, Visa's 
first priority is to protect cardholders from fraud. After learning of 
data compromise events, Visa immediately begins working with the 
compromised entity, law enforcement and affected client financial 
institutions to ensure the compromise is remediated and to prevent 
card-related fraud. Visa notifies all potentially affected card issuing 
institutions and provides them with the necessary information so that 
they can monitor the accounts, reissue cards, and, if necessary, advise 
customers to check closely all charges on their statements.
    The banks that issue Visa cards have the direct responsibility and 
relationship with cardholders; they work diligently to ensure that 
cardholders are not responsible for any fraudulent charges. But it is 
also important to note that the vast majority of the accounts exposed 
in large data breaches do not experience fraud. In fact, thanks to 
network, issuer and merchant fraud detection, prevention and monitoring 
solutions, only about 2 to 5 percent of compromised accounts incur 
incidents of fraud resulting from the compromise.
Public Policy Considerations
    As the Committee considers appropriate actions in response to 
recent events, Visa believes there are several areas where government 
can help defend against cyber criminals.
    First, as the payments and other industries reinforce their 
safeguards, the government can help create a safe environment to share 
cyber threat information. Visa currently works closely with a number of 
different groups to gather threat information, including the Financial 
Services Information Sharing and Analysis Center. Improvements in cyber 
threat information sharing with appropriate liability protections can 
further bolster collective efforts on global cyber security.
    Second, a number of cyber criminals are launching attacks from 
overseas. We encourage the government to continue to work with the 
international community to improve coordination and cooperation among 
law enforcement agencies. Cyberspace is not limited by geographic 
borders, and we know that the most sophisticated attackers are often 
physically located overseas. Therefore, any effort to strengthen law 
enforcement cooperation across national or jurisdictional boundaries 
would be beneficial. In addition, governments should agree that it is 
unacceptable for any country to provide a safe haven for cyber 
criminals.
    In addition, the development of a uniform Federal data breach-
notification standard would be a valuable tool to replace the myriad of 
state laws currently in place. Such a standard could guide when and by 
what means consumers and law enforcement agencies should be notified--
as well as by whom--when consumer harm may result from a compromise of 
account information.
    Lastly, we would caution against legislating technology standards 
or mandating a specific security or payment technology, to avoid 
hindering the rapid rate of new payment innovations that are coming to 
market, especially mobile wallet solutions that will leverage a range 
of new tools to authenticate payments and enhance security.
    In closing, the reality is that cyber criminals will continue to 
target U.S. companies, the payment system or any database that contains 
valuable information. But the good news is that there are sophisticated 
tools to protect the system. Visa is committed to working with all 
participants in the payments industry to implement the full range of 
technologies that will fight fraud and further protect consumers' 
information as the marketplace and threats evolve. Of course, 
technology cannot completely eliminate human error or internal threats, 
so it remains critical for businesses to adopt strong policies that are 
effectively implemented by their employees. Cyber criminals are a 
common foe and we all must work together to protect personal consumer 
information from cyber attacks and data breaches.
    Thank you again for the opportunity to testify today. I would be 
happy to answer any questions you may have.

    The Chairman. Thank you very much, very much indeed.
    Now Mr. Peter Beshar, who is Executive Vice President and 
General Counsel, Marsh & McLennan Companies.

          STATEMENT OF PETER J. BESHAR, EXECUTIVE VICE

             PRESIDENT AND GENERAL COUNSEL, MARSH &

                       McLENNAN COMPANIES

    Mr. Beshar. Chairman Rockefeller, Ranking Member Thune, 
members of the Committee, my name is Peter Beshar. And as a 
former David Rockefeller fellow, it gives me particular 
pleasure, Mr. Chairman, to be before this committee.
    I would like to focus my remarks this morning----
    The Chairman. You did it for free?
    Mr. Beshar. I am sorry?
    The Chairman. My uncle did this for free?
    [Laughter.]
    Mr. Beshar. Something like that, Mr. Chairman.
    The Chairman. That is very unusual.
    Please.
    Mr. Beshar. Thank you.
    So I would like to focus my remarks this afternoon on a 
single and narrow topic of cyber insurance: What is it? Who is 
buying it? And what role might it play as part of a 
comprehensive risk-mitigation framework?
    As the world's leading insurance broker, our company has a 
unique perspective on the cyber insurance marketplace. Marsh 
assists clients in preparing risk-mitigation strategies, 
including as to cyber insurance, and has issued its first cyber 
policy as far back as 1999 called ``NetSecure.''
    So there are three basic types of cyber insurance.
    The first and most fundamental is coverage that protects 
out-of-pocket expenses that the University of Maryland or 
another institution might suffer--expenses like credit 
monitoring or setting up call centers or notifying affected 
individuals.
    The second type of insurance is something analogous to 
business interruption insurance so that if your system is 
really disabled for a period of days or longer, you are able to 
recover the actual harm that you have suffered in the form of 
lost profits.
    And the third type of insurance is for damage that might be 
suffered by parties outside of your company, so customers or 
consumers or clients, and that is called third-party insurance.
    To give the Committee some insight into the dynamics in the 
cyber insurance market, we just conducted a survey of our cyber 
clients to give you a sense of who is buying it, what the take-
up rights are, and what the price of this insurance actually 
is.
    So there are a couple of charts that were in my written 
testimony. I think you have some of them in front of you.
    The Chairman. They are in each of our packets.
    Mr. Beshar. Great. Thank you, Mr. Chairman.
    So there are a couple of important headlines.
    The first is that interest in cybersecurity is increasing 
rapidly. Indeed, the number of Marsh clients who purchased 
stand-alone cyber insurance increased by more than 20 percent 
just in the past year.
    The highest take-up rates are in industries like financial 
services; health care, particularly because of the HIPAA 
statute and the importance of protecting healthcare data; and 
also, interestingly, in the education space, where there have 
been marked increases. So that is a breakdown by industry.
    In terms of size of companies, larger companies perceive a 
greater risk to cyber threat than smaller companies do. And so 
we analyzed the take-up rates, and if you are a company with 
revenues of more than $1 billion, your take-up rates are almost 
double what they are if you are a smaller company.
    And, last, Mr. Chairman, on pricing, here the news is 
actually quite positive. Throughout the past year, even as the 
perception of the risk and potential severity associated with 
cyber attacks increased, pricing has remained relatively stable 
throughout the year. This is partly a product of a number of 
new entrants, new underwriters coming into the marketplace.
    So that is the actual insurance. The process of simply 
applying for the insurance is itself constructive because, 
similar to the NIST framework, the process of applying forces 
you to go through a gap analysis to try to benchmark yourself 
against industry standards and what are considered the best 
practices and see what you can do to position yourself as a 
better risk for the underwriting community.
    So, just in closing, Mr. Chairman, as this committee is all 
too aware, this is a race without a finish line. Our 
adversaries will continue to adopt new methods of attack and 
different strategies. And it is extraordinarily important that, 
in combating this threat, government, the private sector, and 
also the nonprofit world partner together to try to respond 
effectively.
    Thank you.
    [The prepared statement of Mr. Beshar follows:]

  Prepared Statement of Peter J. Beshar, Executive Vice President and 
              General Counsel, Marsh & McLennan Companies
Introduction
    Good afternoon Chairman Rockefeller, Ranking Member Thune, and 
members of the Committee. I am Peter Beshar, the Executive Vice 
President and General Counsel of Marsh & McLennan Companies. I commend 
you for convening this hearing and am grateful for the opportunity to 
participate.
    Marsh & McLennan Companies operates through four market-leading 
brands--Marsh, Guy Carpenter, Mercer, and Oliver Wyman. Our 55,000 
employees provide advice and solutions to clients across an array of 
industries in the areas of risk, strategy and human capital. In 
particular, Marsh and Guy Carpenter assist companies in identifying and 
then mitigating key risks to their business--including cyber security.
    I wanted to offer a couple of initial observations and then focus 
my remarks on a single topic--cyber insurance.
    First, hyperconnectivity has been a boon for enhancing our 
productivity. We are able to connect the world and execute tasks with a 
speed that was inconceivable even a decade ago. With that 
hyperconnectivity, however, comes the risk of a significant disruption 
through a cyber attack.
    Second, the government has led the way in identifying the 
significance of this risk and then pushing industry and the non-profit 
sector to bolster their defenses. A case in point was the release last 
month of the Administration's Cyber Security Framework. This is an 
important tool to help enterprises assess their preparedness and then 
enhance their resilience against a cyber attack.
    Moreover, this Committee has been at the vanguard of the effort to 
raise awareness of the threat posed by a cyber security attack. In 
particular, this Committee's interactions with the SEC have served to 
help companies, and investors, better understand the potential 
disruption that can occur from a significant attack.
    In the area of cyber security, offense is a lot easier than 
defense. There is no silver bullet or panacea that will eliminate this 
risk. Rather, it will take a collaborative effort between government 
and business and among professionals in different disciplines--IT, HR, 
Legal and Compliance--to assess vulnerabilities and link arms to 
confront this risk head on.
    This afternoon, I would like to discuss the role that cyber 
insurance can play as one component of a comprehensive risk mitigation 
strategy.
    To begin, what is cyber insurance? Who is buying it? What role can 
it play to mitigate this risk?
    As the largest insurance broker in the world, Marsh has a unique 
perspective on the cyber insurance market.
    The concept of cyber insurance was first introduced the 1980s, when 
insurers began providing coverage for computer failures at banks and 
other Fortune 500 companies. Marsh launched its first cyber insurance 
product, NetSecure, in 1999.
    Broadly stated, there are three core types of cyber insurance.
    The first, and most basic, provides protection for out-of-pocket 
expenses that a company incurs in the wake of a data breach. These 
expenses include notifying affected individuals, setting up call 
centers and providing credit monitoring.
    The second form of coverage protects companies if their computer 
network is effectively shut down for days or longer. With this broader 
business interruption coverage, a company can recover the actual harm 
it suffers in the form of lost profits.
    The third type of coverage is for harm caused to an insured's 
clients, customers and consumers as a result of a significant breach. 
This is called third-party coverage.
    To give the Committee insight into this market, Marsh conducted a 
comprehensive survey of the type of companies that are currently 
purchasing cyber coverage--broken down by industry and size of company.
    There are a number of important headlines. Most importantly, 
interest in cyber insurance is expanding rapidly. Indeed, the number of 
Marsh clients purchasing stand-alone cyber insurance increased more 
than 20 percent in just the past year.
    As reflected below, the highest take up rates for cyber insurance 
are in the following three industries: (1) health care; (2) education; 
and (3) financial services. These industries handle a large volume of 
sensitive personal information, including health care data, social 
security numbers and credit card information. As a result of statutes 
like HIPAA, the take up rates in health care are markedly higher--
approaching 50 percent--than any other industry.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Marsh also analyzed how the size of a business impacts its decision 
whether to purchase cyber insurance. As a general matter, larger 
companies perceive a greater threat to their operations than smaller 
companies. As a result, the take up rates for companies with revenues 
over $1 billion are almost twice as high as the rate for companies with 
revenues below $1 billion.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Third, Marsh analyzed trends in the cost of cyber insurance. Here, 
the news is quite positive. Throughout 2013, cyber insurance rates 
remained stable--even as the perception and potential severity of the 
risk increased. This is partly because a number of new underwriters are 
interested in providing cyber coverage.
    As reflected in the analysis below, the average price per million 
dollars of coverage for a cyber policy actually dropped in 2013 in a 
number of sectors, including financial institutions, utilities, sports 
and entertainment, while increasing for other sectors, including 
communications and transportation.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Furthermore, the process of applying for cyber insurance--analogous 
to the process of conducting a gap analysis under the Administration's 
Cyber Security Framework--is itself a constructive exercise for raising 
awareness and identifying potential vulnerabilities. At Marsh, we 
utilize a proprietary Information Security and Privacy Self-Assessment, 
which is based on international information security management 
standards known as ISO 27001.
    Using the assessment, Marsh brokers perform a high-level review of 
information security management protocols with respect to access 
control, physical security, incident response and business continuity 
planning. The assessment focuses on the strength of a company's 
governance procedures regarding cyber practices to understand how 
insurance carriers will view the company's risk profile.
    Importantly, a number of cyber coverages also provide access to 
experts who are available to monitor the client's information security 
and assist the client to restore operations in the event of a network 
attack. These services include technical advice from on-call 
consultants, vulnerability detection to examine network devices and 
servers, and assistance developing incident response plans.
Conclusion
    As the SEC indicated in its cyber security guidance, cyber 
insurance is one element, among many, of a comprehensive risk 
mitigation strategy.
    This is a race without a finish line. As we strengthen our 
defenses, adversaries will adjust and develop new methods of attack. 
Our success in combatting this dynamic and evolving threat will depend 
on continued collaboration between government, industry and the non-
profit sector.
    I look forward to answering any questions you might have.

    The Chairman. Thank you very much. It was eloquent and 
helpful.
    Mr. David Wagner, President, Entrust, Incorporated.
    Welcome.

      STATEMENT OF DAVID WAGNER, PRESIDENT, ENTRUST, INC.

    Mr. Wagner. Good afternoon, Chairman Rockefeller, Ranking 
Member Thune, Committee members. Entrust is pleased to be here 
to help facilitate and to continue the dialogue for a better 
understanding of cybersecurity issues.
    Just over 2 years ago, Entrust testified on the similar 
topic of cybersecurity, and since that time the situation has 
worsened. Nation-states and criminals are continuing to use 
cyber to advance their interests.
    The December point-of-sale breaches are another example of 
this escalation. Although Entrust has no direct relationship 
with any of the victims of the December point-of-sale attacks, 
we can provide general insight into the attacks.
    As we have heard earlier in these testimonies, criminals 
are using old-fashioned con tricks and cyber tools to get past 
moat-style defenses. Social engineering and malware are the 
silent equivalent of crowbars, penetrating into corporate 
networks. And once past the perimeter defenses, the criminal 
uses a stolen identity and virtually becomes someone on the 
network, making them difficult to distinguish from normal 
network behavior.
    In the case of the retail breaches, once the criminals 
assumed the right identity, they were able to push malicious 
code to the point-of-sale terminals, they were able to collect 
customer credit card data from the magnetic stripes, and then 
they stored and exfiltrated that data overseas.
    You can see from the attack scenarios that they are 
sophisticated. They are sophisticated, but they are not rocket 
science. They use stolen identities to access the victim 
company's network and then use the victim company's IT tools to 
complete their crime.
    A determined cyber attacker can overcome even strong moat 
defenses. We need strategies to strengthen the defenses inside 
the perimeter. Good information security governance is vital, 
and industry regulations like PCI and frameworks like SANS 20, 
COBIT, and ISO are available to help build effective security 
architectures.
    So you might be asking, with all of this knowledge, 
guidance, and standards, how did the breaches occur? Why 
weren't accounts using authentication techniques stronger than 
username and password? Why wasn't the network segmented to 
protect sensitive data? Why weren't alerts responded to and 
network monitoring equipment capturing the unauthorized traffic 
patterns?
    Nothing in the breaches was new. We know that good security 
governance requires investment in people, process, and 
technology applied consistently over time. But have we created 
a culture where executives and board members are aware and 
understand the information security risk at their enterprise? 
Have we created regulations that evolve and change with 
technology? If we haven't, then no regulation or no security 
tool will solve our problem.
    When a retailer is breached, financial institutions bear 
the cost of the stolen data, banks and credit unions bear the 
cost of card reissuance, and consumers suffer the pain of 
changing cards and cleaning up accounts. Risk assessments at 
the organizations where sensitive data reside must consider the 
full systemic value of their data.
    Cyber crime poses a greater threat to the security of 
nations, corporations, and individuals than ever before. The 
challenge is balancing--balancing the importance of protecting 
data with the benefits of emerging technology. As policymakers, 
you are charged with facilitating commerce and putting in place 
a structure for finding this balance.
    Entrust recommends actions in three areas.
    First, Federal breach notification law needs to be passed. 
Federal harmonization will allow enterprises and consumers 
alike to know what is expected of them on a national level. It 
will also put the Federal Government in a role where it 
belongs.
    Second, the Federal Government needs to continue to foster 
best practices and sharing of information across the public and 
private sectors. Collaboration fueled by real-world learning is 
critical to creating a strong, unified front so criminal groups 
can't simply migrate to the next weakest target.
    Third, we must change the cybersecurity culture. 
Enterprises large and small, public and private, need to 
embrace information-security governance as a core 
responsibility.
    Evolving our approach and our cyber defense posture needs 
to be a Federal priority, and we need to move forward now. 
Without changes to the security posture of our most important 
industries and infrastructure, cyber crimes will continue to 
grow in frequency and potency. The best path forward rests upon 
a public-private ecosystem that is built upon good security 
governance, secure identities, and constant self-assessment of 
vulnerabilities.
    Whether we drive adoption through incentives or directives, 
we need to proceed now. I urge you, your colleagues, and the 
administration not to let 2014 expire without adoption of 
measures that will better protect our economy and our security 
posture.
    Thank you for your time this afternoon and for your 
attention to this important matter of cybersecurity.
    [The prepared statement of Mr. Wagner follows:]

      Prepared Statement of David Wagner, President, Entrust, Inc.
    I am David Wagner, President of Entrust, a leader in identity-based 
security software systems and solutions. On behalf of Entrust, we 
appreciate the opportunity to testify today.
    At Entrust, a wholly owned subsidiary of Datacard Group, we secure 
and protect digital identities and information. We serve more than 
5,000 organizations, spanning 85 countries, by safeguarding 
enterprises, governments, financial institutions, websites and 
citizens--including your constituents.
    For its part, Datacard is the world leader in secure identity and 
card personalization solutions. Most payment cards in circulation today 
are issued using Datacard systems. As a combined company, and as a 
result of the ways in which we serve our customers, we possess a unique 
perspective on secure identity and trusted transactions and the 
increasing threat of cyberattacks on networks and systems.
    Just more than two years ago, we testified before a U.S. House of 
Representatives Energy and Commerce Committee subcommittee on this same 
subject of cybersecurity. We said then that cybercrime poses a greater 
threat to the security of nations, corporations and individuals than 
ever before. We noted that the threat had moved from one of hacking for 
honor to one of hacking for harm and profit via overt criminal 
activity.
    Today, it's no secret. The situation has worsened. Incidents 
involving the loss of personal information have increased an average of 
40 percent in each of the two years since we last testified.\1\ 
Practically every day, new headlines appear about a data breach at a 
financial institution, a retailer, a university, a hospital, a 
government agency--and the list continues.
---------------------------------------------------------------------------
    \1\ ``Incidents Over Time: 2011 versus 2012 and 2013.'' Open 
Security Foundation n.pag. Data Loss Statistics. Web. 24 Mar 2014. 
<http://datalossdb.org/statistics>.
---------------------------------------------------------------------------
    In February, cybersecurity firm Hold Security said it uncovered 
stolen credentials from some 360 million accounts available for sale on 
cyber black markets. It also reported the criminals are selling some 
1.25 billion e-mail addresses.\2\ The breaches impact consumer 
confidence and have economic consequences.
---------------------------------------------------------------------------
    \2\ Finkle, Jim. ``360 million newly stolen credentials on black 
market: cybersecurity firm.'' Reuters [Boston] 25 02 2014, n. pag. Web. 
24 Mar. 2014. <http://www.reuters.com/article/2014/02/25/us-cybercrime-
databreach-idUSBREA1O20S20140225>.
---------------------------------------------------------------------------
  <bullet> In the U.S. alone, the direct and indirect impact of 
        identity theft totaled $24.7 Billion (USD).\3\
---------------------------------------------------------------------------
    \3\ Harrell, Erika, and Lynn Langton. United States. Department of 
Justice, Office of Justice Programs, Bureau of Justice Statistics. 
2013. Web. <http://www.bjs.gov/content/pub/pdf/vit12.pdf>.

  <bullet> According to the Bureau of Justice Statistics, 7 percent of 
        Americans aged 16 and older fell victim to identity theft in 
---------------------------------------------------------------------------
        2012. Of these, 22 percent fell victim more than once.\3\

  <bullet> The median loss for those victims to identity theft was 
        $2,183, with a mean of $300.\3\

  <bullet> In a report from the Federal Trade Commission (FTC), which 
        consists of formal complaints registered with law enforcement, 
        the FBI, Canadian counterparts, the FTC, and several other 
        organizations, identity theft remained the largest single 
        consumer compliant category in 2013.\4\
---------------------------------------------------------------------------
    \4\ United States. Federal Trade Commission. Consumer Sentinel 
Network Data Book for January-December 2013. 2014. Web. <http://
www.ftc.gov/system/files/documents/reports/consumer-sentinel-network-
data-book-january-december-2013/sentinel-cy2013.pdf>.

    It also appears that the number of larger breaches is increasing. 
Unfortunately, and a point we will elaborate on later, there is no 
national breach law and the means of assessing an aggregated view of 
this data remain somewhat elusive.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
    However, one view of the data behind the breaches is shown in the 
adjacent figure, which is an aggregation of data from several well-
known breach reporting sites.\5\
---------------------------------------------------------------------------
    \5\ Quick, Miriam, Miriam Hollowood, Christian Miles, and Dan 
Hampson. ``World's Biggest Data Breaches: Selected losses greater than 
30,000 records.'' Information Is Beautiful. N.p., 31 Dec 2013. Web. 24 
Mar 2014. <http://www.informationisbeautiful.net/visualizations/worlds-
biggest-data-breaches-hacks/>.
---------------------------------------------------------------------------
    What this data suggests is that the overall volume and numbers of 
large attacks continue to increase. Additionally, the majority of 
attacks are dedicated efforts to extract information (versus accidental 
losses). In total, it appears that both the number of records exposed 
and the number of incidents have nearly doubled since 2011 and the 
majority of these incidents were in the U.S.\6\
---------------------------------------------------------------------------
    \6\ ``Data Breach QuickView: An Executive's Guide to 2013 Data 
Breach Trends.'' Risk Based Security & Open Security Foundation, n.d. 
Web. 24 Mar 2014. <https://www.riskbased
security.com/reports/2013-DataBreachQuickView.pdf>.
---------------------------------------------------------------------------
    We are witnessing massive growth in the volume of transactions, 
amount of data and number of devices connected online. This attracts 
criminals and provides vectors for attacks. It is at the center of the 
rising tide of cyber issues and the increasing impact of related 
breaches.
    The challenge is to make sure that success in protecting the 
growing volume of data doesn't unnecessarily hinder users from 
receiving the benefits of emerging technology or burden those charged 
with securing the systems. As policymakers, you are charged with 
facilitating commerce and ensuring an optimal structure for finding 
this balance.
The Focus: Identity and Malware
    Before recommending actions to enhance our cyber posture, I'd like 
to provide a bit more background on how the attacks are occurring.
    Although Entrust has no direct relationship with any of the victims 
of the December 2013 point-of-sale (POS) attacks, we can provide 
general insight to the attacks from public information and from our 
understanding of how cyberattacks are normally perpetrated.
    In many of the retail breaches, and not unlike attacks witnessed in 
other industries, criminals are using a combination of social 
engineering and technical tools, such as malicious software or 
``malware,'' to steal credit card numbers and personal information.
    The traditional approach to network security continues to put 
significant focus on developing a perimeter around the corporate 
network. Whether or not these defenses can be breached directly, we can 
ascertain that they aren't the weakest link in the defense by assessing 
the successful attacks. Instead of trying to breach perimeter defenses 
directly, criminals are focusing on obtaining an identity that provides 
access directly inside the network.
    The logic could work something like this: criminals know that many 
organizations still treat the internal network as being protected by 
the perimeter (i.e., castle walls and moat analogy). As a result, less 
attention gets paid to internal systems and where monitoring occurs, it 
tends to get less attention than the external environment.
    As a criminal, if you can get inside, your objectives become much 
easier. So, what is the easiest way to accomplish this goal? A direct 
attack is possible against the perimeter, but this is where we're 
focusing our security investment and attention.
    Back to the castle analogy, the walls are formidable, and the moat 
is deep. However, organizations are people; people working on the 
trusted ``inside'' of the network, people just trying to get their jobs 
done (we will come back to this later). And we generally trust these 
people. They become the vector for many of the attacks.
    If a criminal can get one of their identities, or more specifically 
credentials, they have bypassed the perimeter, the walls and the moat. 
This can be done through social engineering an unsuspecting individual 
with legitimate access to the network (e.g., an employee or 
contractor), by exploiting flaws in a technical implementation, or via 
direct access through a knowing accomplice on the network.
    Using stolen credentials, the criminal has virtually become 
``someone'' on the network and appears as a legitimate user, making 
them difficult to see and detect. From here, the attacker can move more 
easily within the network, using the systems available to the 
legitimate user and bringing in their own more malicious tools.
How Hackers Do It
    A cyberattack is typically not a single event. Regardless of the 
attack goal, there are a series of objectives that need to be completed 
along the way. As described above, each step is made significantly 
easier if the attacker possess the identity of a legitimate person or 
device on the target network.
    Disciplined cyberattackers do not need to ``hack'' or ``break'' a 
computer system in order to take advantage of it maliciously. Attackers 
will use the system as a whole, by taking full advantage of the way 
that PCs and networks are engineered. PCs and their operating systems 
are designed to be highly connected and interoperable in order to 
provide excellent user experiences for their legitimate users.
    This, unfortunately, also provides rich functionality for an 
attacker. Computer networks are naturally trusting by their nature, and 
cyberattackers take full advantage of that. It is very difficult to 
tell the difference between malicious and legitimate behavior on a PC 
or on a computer network. This is because the cyber attacker has stolen 
a legitimate identity. The attacker is not a masked, highly visible 
criminal. The attacker has your identity and is imitating you.
    Employees inside a corporate network can be tricked into opening e-
mails that contain a malicious payload. The original Greek `Trojan 
Horse' is a good analogy, but instead of a wooden horse, the gift may 
be an e-mail that looks like a legitimate request for assistance from 
your boss.
    Anyone can be tricked into opening that e-mail or browsing to a Web 
link. The e-mail or Web link will contain the malicious payload that 
will infect the employee's PC, which will serve as a beachhead from 
which the attacker will perform subsequent steps in the attack.
    By infecting the first PC, the attacker has assumed the identity of 
the employee on that PC. If the employee happens to be an 
administrator, which is all too often the case, the attacker will also 
have the rights of an administrator and allow the attacker to move even 
more quickly to their target.
    The initial infection will be invisible to the employee. Attackers 
are using techniques that defeat end-point protections and continually 
adapt to monitoring. Unfortunately, most defenses at the PC and network 
level are based on catching attacks where the patterns of attacker 
behavior have been seen before. But attackers are capable of adjusting 
their tools and behavior just enough to slip through these defenses.
    From the beachhead of the initial PC infection, the cyberattacker 
will use the first stolen identity to gather information on the target 
network and begin to move towards the ultimate target. The fog of war 
is quickly cleared for the attacker as they map out the network.
    If you have ever browsed for a printer on an enterprise network, 
your own computer has performed network reconnaissance 
indistinguishable from the activity a malicious attacker needs to do to 
map out your network. This means that the attacker's movements in your 
network are exceedingly difficult to distinguish from a normal user, 
unless you have very tight controls over identity, and the rights that 
those identities have.
    A human resources employee should normally never need to view 
computer resources that store highly valuable intellectual property. A 
third-party partner or vendor who has been given access rights to a 
corporate network should not have access to anything beyond the limited 
systems needed to complete their tasks.
Preventing Data Breaches
    You can see from the attack scenario that the criminals must be 
knowledgeable of the systems involved and typical responses from the 
compromised organization. They are knowledgeable, but they aren't 
overly sophisticated. They merely use stolen identities to access and 
use the normal IT tools of the victim in conjunction with malware.
    Although the most advanced and persistent attackers can breach even 
strong defenses, good security governance and strong security policies, 
processes and implementation can thwart most attacks or at least limit 
their impact.
    In addition to industry standards such as the Payment Card Industry 
Data Security Standard, best practices for information security are 
covered in a number of security frameworks such as SANS 20, ISO 27002, 
COBIT and recent publications from NIST.
    The SANS Top 20 Critical Security Controls is an example of the 
focus areas provided in the frameworks. The controls discussed by SANS 
are a subset of a larger body of work provided in NIST SP 800-53, with 
the top 20 controls as follows:
Top 20 Critical Security Controls--Version 5
   1.  Inventory of Authorized and Unauthorized Devices

   2.  Inventory of Authorized and Unauthorized Software

   3.  Secure Configurations for Hardware and Software on Mobile 
        Devices, Laptops, Workstations, and Servers

   4.  Continuous Vulnerability Assessment and Remediation

   5.  Malware Defenses

   6.  Application Software Security

   7.  Wireless Access Control

   8.  Data Recovery Capability

   9.  Security Skills Assessment and Appropriate Training to Fill Gaps

  10.  Secure Configurations for Network Devices such as Firewalls, 
        Routers, and Switches

  11.  Limitation and Control of Network Ports, Protocols, and Services

  12.  Controlled Use of Administrative Privileges

  13.  Boundary Defense

  14.  Maintenance, Monitoring, and Analysis of Audit Logs

  15.  Controlled Access Based on the Need to Know

  16.  Account Monitoring and Control

  17.  Data Protection

  18.  Incident Response and Management

  19.  Secure Network Engineering

  20.  Penetration Tests and Red Team Exercises
    Examples of the rationale behind some of this guidance are provided 
below:

        The principle of ``least privileges'' should be considered a 
        vital part of policy, leading to a minimal usage of 
        administrative credentials. Employees and third parties are 
        often given too many rights on a corporate network, which 
        increases risk. If an attacker is able to steal an 
        administrative identity, this brings huge risk. Therefore, 
        administrative identities should be used minimally and secured 
        strongly.

        It is difficult or impossible to defend a computer network 
        without an inventory of resources. This includes desktop 
        computers, back-office servers, Wi-Fi and wired access points. 
        This is required in order to create secure network 
        architecture.

        A trained security staff equipped with tools is needed to 
        operationalize that defensive posture.

        For example, an important tool to thwart identity-stealing is 
        strong second-factor authentication. Most people think of 
        authentication as being only username and password. Username 
        and password is a single-factor authentication. In other words, 
        the attacker only has to steal one secret (the username and 
        password) in one place in order to steal the identity and be 
        able to log in to a computer system.

        Second-factor authentication requires a user to use two 
        secrets. Strong forms of second-factor authentication exist 
        that take advantage of mobile devices. Strong second-factor 
        authentication provides a very high level of identity 
        protection, not only for employees on a corporate network, but 
        also for third-party users of the network such as partners and 
        vendors.

        Strong second-factor authentication also makes it more 
        difficult to inadvertently `share' a credential with a co-
        worker. Imagine a scenario where an `insider' wishes to 
        sabotage a network for malicious purposes. If an insider simply 
        stood over the shoulder of an administrative co-worker and 
        learned the username/password, they could simply log in as 
        their co-worker and perform malicious activity with the co-
        worker's identity. With strong second-factor authentication, 
        this is not possible.

        Complementing the above, network segmentation is a concept 
        where important resources are only made minimally accessible to 
        computer systems that have a need to reach them.

        Focusing on the December 2013 attacks, whitelisting the 
        software programs able to run on the POS terminal make it more 
        difficult to install the malware. Whitelisting is a technique 
        that allows only a specific set of software to be installed on 
        a computer. If malware is installed on a computer, it will not 
        match the ``whitelisted'' set of software and be rejected.

    In addition, carefully monitoring network traffic with intrusion 
detection and intrusion prevention systems (IDS/IPS) could allow 
security analysts to detect the unauthorized network traffic patterns 
used by the attackers.
    Although attackers are knowledgeable and persistent, there are ways 
to reduce the likelihood of a successful attack and mitigate damages. 
It is commonly understood that security in layers and defense in depth 
help combat attacks.
    However, what is appropriate for any given organization is 
typically defined through an assessment of risk. Inputs to this process 
come from the core values of the business and require top-level 
engagement to be accomplished successfully.
Challenges and Recommendations
    One of the questions we should be asking is, ``with all of the 
knowledge, guidance and standards, how did the breach happen?''
    One avenue to explore is the pace at which we bring lessons learned 
from the experts on the frontline of cyber into practice. Nothing in 
the breaches was new. We don't have a gap in understanding the attacks 
currently being executed.
    Any security practitioner will tell you that good information 
security requires investment in people, process and technology applied 
consistently over time. But have we established a cybersecurity system 
and culture that inherently evolves at the same rate as the threats? Is 
the bureaucratic process seen in government and industry groups 
inherently too slow to adapt? If so, there is no silver bullet in 
technology will help.
    Another problem with many cybercrimes is that the loss has an 
asymmetric impact on its victims. For example, although a retailer is 
breached, the bank bears the cost of the stolen card data, financial 
institutions bear the cost of card re-issuance, and consumers suffer 
the pain of changing cards and cleaning up accounts.
    A major focus of the guidance and regulation that exists today is 
based on the organization conducting a risk assessment where one of the 
first steps is to assign value to the data. But if the impact of a 
breach is only partially born by the organization conducting the 
assessment, then the amount of protection given to that asset may not 
completely capture its systematic value.
    Over the past decade we have significantly advanced our 
understanding of the threat landscape and best practices. What the most 
recent events are showing us is that there are opportunities to improve 
the translation of understanding the threats into mechanisms that turn 
this understanding into action. Evolving our approach and defense 
posture needs to be a Federal priority and we need to move forward now.
    We should start with harmonizing breach notification laws so that 
enterprises and consumers alike know what is expected of them. The 
first state-level breach notification law was enacted in California in 
2002; today, 46 states have similar laws.\7\ However, we are still 
without a common Federal approach. Federal harmonization of breach 
notification laws is a good place to start.
---------------------------------------------------------------------------
    \7\ ``State Security Breach Notification Laws.'' National 
Conference of State Legislatures. N.p., 21 Jan 2014. Web. 24 Mar 2014. 
<http://www.ncsl.org/research/telecommunications-and-information-
technology/security-breach-notification-laws.aspx>.
---------------------------------------------------------------------------
    Second, the Federal government needs to continue to foster the 
adoption of best practices across both the public and private sectors. 
Investments in Federal programs like HSPD-12 and the Transportation 
Workers Identity Modernization program are advancing the security 
infrastructure and generating significant lessons learned. NIST is also 
playing a key role in generating recommendations and guidance based on 
cross-sections of best practices and lessons learned from many 
industries. So, there is a good baseline to work from.
    Finally, we must change the cybersecurity culture. Enterprises--
large and small, public and private--need to embrace information 
security governance as a core responsibility. Industries where data has 
been viewed as a critical asset of the organization have found ways to 
integrate this into their DNA with many good examples existing in 
finance and the defense and intelligence communities.
    However, in these cases, the value of the data is obvious. Losses 
are not asymmetrical. We may want to look closer at how industries 
where handling data, especially personally identifiable information 
(PII), is a byproduct and not an objective of the organization. 
Healthcare, retail and critical infrastructure are all very good 
examples.
    In either case, we believe the focus should be on 1) how to 
accelerate the cycle from learning to implementation and 2) ensuring 
that the asymmetric nature of data is taken into account in 
cyberstrategy. Whether you want to drive adoption via incentives or 
directives is a public policy matter, but however we proceed, we need 
to proceed now.
Conclusion
    Simply as a result of more transactions, data and devices going 
online, and without changes to the security posture of our most 
important industries and infrastructure, cybercrimes will continue to 
increase in frequency and potency. The asymmetric impacts will afflict 
those entrusted with sensitive data and the consumers, citizens and 
employees who put their faith in these systems.
    Given the current situation, you must not let the perfect become 
the enemy of the good. The recommendations put forward would increase 
visibility into the threat environment and costs borne by individuals, 
organizations and the system as a whole. This insight needs to quickly 
filter into a more accurate assessment of risk and a system that is 
quicker to adapt.
    Finally, the recent breaches have brought more attention to the 
cyber challenges we face today. We must take advantage of this focus, 
turn a negative into a positive, and move forward with policy that 
helps organizations embrace information security governance as a core 
responsibility. I urge you, your colleagues and the Administration to 
not let 2014 conclude without adoption of some measures that will 
better protect our economy and security.

    The Chairman. Thank you very, very much.
    Because of an unusual circumstance, and with the permission 
of my distinguished ranking member, the first question from our 
side will come from Senator McCaskill.

              STATEMENT OF HON. CLAIRE McCASKILL, 
                   U.S. SENATOR FROM MISSOURI

    Senator McCaskill. Thank you. I adore you.
    [Laughter.]
    Senator McCaskill. I wanted it on the record. Both of you, 
I adore both of you.
    [Laughter.]
    Senator Wicker. Fails for lack of a second.
    [Laughter.]
    Senator McCaskill. I believe that ultimately the market is 
more effective at controlling behavior than the government. So 
let me start with a question that I don't think has fully been 
answered.
    Mr. Mulligan or Ms. Richey or can any of you shed light on 
exactly how much fraud has resulted from this breach?
    Mr. Mulligan. Are you speaking specifically to our breach?
    Senator McCaskill. Yes, to the Target breach.
    Mr. Mulligan. I will start, and certainly feel free--I can 
only speak to, about 15 percent of the cards that were taken 
were Target-branded product cards. The other 85 percent are 
third parties that we don't have visibility to.
    But when I can tell you, what we have seen, two of the card 
products--one is a branded debit card, the other is a 
proprietary card, a card that only be used at Target--we have 
not seen any incremental fraud on those two particular cards.
    We also have a Visa product that can be used broadly, just 
like anywhere else. There, on our $5.5 billion portfolio, we 
have seen about $2 million of incremental fraud or about a 0.1 
percent increase.
    Senator McCaskill. OK. Tiny amount, then, on your 15 
percent.
    Mr. Mulligan. On ours, yes.
    Senator McCaskill. Ms. Richey, do you have any figures for 
us in terms of----
    Ms. Richey. Yes. I would say, I mentioned in my testimony 
that 2 to 5 percent of accounts might be expected to experience 
incremental fraud.
    We are actually seeing much lower numbers from the Target 
breach. I do believe that the rapid notification that Target 
provided, as well as the strong response from our member 
financial institutions, is responsible for limiting the fraud.
    Senator McCaskill. OK. So what is the total, do you think, 
dollar-wise?
    Ms. Richey. I don't have those dollars available right now.
    Senator McCaskill. Does anybody?
    Ms. Richey. We can get those for you. Of course, you have 
to realize we are still in relatively early stages. But we 
could provide those for you.
    Senator McCaskill. Well, what I am trying to figure out 
here is how much fraud there was and who is holding the bag on 
the fraud. Because I think people don't understand that this--I 
mean, I don't think people understand that Visa doesn't 
necessarily hold the bag on any of it, that most of this debit 
card fraud ends up with a local bank, that a lot of the costs 
associated with this breach, in fact the majority of them, fall 
to credit unions and local banks as opposed to Target.
    Of the $61 million that you have said it cost your company, 
Mr. Mulligan, how much of that was marketing to try to reassure 
your customers that you were--and you are the good guys, by the 
way. I am not trying to say you are not the good guys. But how 
much of that $61 million was marketing as opposed to actual 
loss that you suffered?
    Mr. Mulligan. For the $61 million that we recorded in the 
fourth quarter--any marketing expenses that we undertook would 
have been recorded in the normal course of our business. The 
$61 million was related to response costs, credit monitoring, 
activities such as that.
    Senator McCaskill. Well, the credit monitoring that you are 
offering to your customers, that, in fact, is marketing.
    Mr. Mulligan. We viewed that as a way to respond and help 
our guests for what is, we know, a difficult time for them, to 
provide for them not only credit monitoring but identity theft 
protection and identity theft insurance.
    Senator McCaskill. I think it is terrific you are doing it, 
and I think it was smart for you to do it, and I think it was a 
wise corporate decision. But it was an optional activity you 
engaged in in order to try to repair the damage that had 
occurred as a result of the breach.
    Mr. Mulligan. Yes, we were----
    Senator McCaskill. Correct?
    Mr. Mulligan.--focused on our guests, absolutely.
    Senator McCaskill. OK.
    And the estimate to the banks and credit unions is about 
$200 million. And those are costs that are not optional to 
them, correct? That is them having to reissue the cards and 
bearing the cost of doing that.
    Mr. Mulligan. So the payment card industry has collectively 
determined that, importantly, consumers don't bear any of the 
fraud related to this type of activity.
    There are commercial arrangements that underpin that. Those 
commercial arrangements provide both for the revenues that 
companies like Target pay in. They also provide for the 
remediation in situations like this.
    Senator McCaskill. The point I am trying to make here is 
that I think it is confusing to the consuming public where this 
loss falls and where the costs are absorbed.
    I know that there is $10 billion in more revenue to 
retailers as a result of the government getting involved in 
interchange fees, because interchange fees were $19 billion 
before the Durbin amendment and now they are $10 billion--less 
than $10 billion. So there was $10 billion extra that flowed to 
retailers as a result of those prices coming down. And I am not 
saying that was a good or bad thing.
    I guess what I am trying to get at here is that I think it 
is very important that the risk be borne by those who must 
engage in the activity to protect. Because if the risk goes 
somewhere else, it lessens the incentive to protect.
    Now, I am not going to argue that you all have had a 
terrible thing happen to your company and that you are working 
hard to recover from it and you have been damaged. But there 
are many instances where people think there has been a breach--
I think most Americans thought you guys were covering all the 
costs of this. When you said, ``We are going to make sure that 
no customer loses a dime,'' I don't think that they realize 
that most of the dimes were being paid by somebody else in the 
first place.
    So I think a clarification of where the risk falls is 
important for us if we are going to do anything as a 
government, because it is going to be much better to align 
those risks with the right incentives in the free market.
    Ms. Richey?
    Ms. Richey. I was just going to say that if there is any 
lack of clarity about who is bearing the loss here in the 
Committee, the financial institutions would make their 
customers whole in the first instance, as we know, with the 
zero-liability policies.
    And then the payment networks, both Visa and MasterCard, do 
have a program to shift the cost back to a merchant if the 
merchant is shown to have been out of compliance with our 
industry standards.
    Senator McCaskill. OK.
    Ms. Richey. However, that program covers only a portion of 
their costs. And the reason for that is, just as you said, to 
balance the incentives so that each party is incented to reduce 
the risk and protect the consumer.
    Senator McCaskill. I would love to get into the weeds on 
that, if you would help us with that information, Ms. Richey.
    Ms. Richey. You mean right now?
    Senator McCaskill. No. I mean later.
    [Laughter.]
    Senator McCaskill. No, no, no. I am done. I am done.
    [Laughter.]
    Senator McCaskill. No, no, I mean later. I mean, I really 
want to understand how these risks are being shifted in the 
marketplace.
    Ms. Richey. OK.
    Senator McCaskill. Thank you.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor [presiding]. Thank you.
    What I am going to do is I am going to recognize Senator 
Thune and then, just for the Committee's information, we will 
recess for votes.
    And we have four votes scheduled, I believe? Five votes 
scheduled.
    So we will work that out, but I just wanted the Committee 
to know we will go to Senator Thune, then we will take as short 
a recess as we can, come back and conclude the hearing.
    Senator Thune. Thank you, Mr. Chairman.
    Mr. Mulligan, we are still learning all the details of the 
Target breach, but we know that it affected two types of data. 
One was the payment card data of approximately 40 million 
Target shoppers and other personal data of up to 70 million 
customers.
    The question is, what steps have you taken to provide your 
customers the assurance that their personal information is 
going to be protected going forward?
    Mr. Mulligan. Senator, we have taken several steps. 
Immediately upon identifying the malware, we removed it from 
our system. We closed the portal that created the access point 
in the first place. We have narrowed the scope of who has 
access to our systems.
    We also began an investigation and hired a third-party 
advisor who brought in a forensic investigator to do an end-to-
end review, not just a forensic analysis but a review of our 
entire data security technology processes and controls. From 
that, we will have additional learnings, and we have already 
taken steps that we have learned from there.
    We have enhanced our data segmentation. We have hardened 
our perimeter by increasing the use of two-factor 
authentication. And we have increased malware detection with 
something called ``whitelisting.'' We accelerated the 
investment in that. And that essentially allows only the 
programs we want to run on our point-of-sale terminals to run.
    We have also accelerated the investment in chip and PIN 
technology. A $100 million investment will complete the 
installation of guest payment devices this year and roll out 
the cards in early next year.
    So we have taken many steps, and we will continue to have 
learnings from our end-to-end review and expect to continue to 
make changes.
    Senator Thune. Good.
    Ms. Ramirez, you state in your testimony that, and I quote, 
``Although most states have breach notification laws in place, 
having a strong and consistent national requirement would 
simplify compliance by businesses while ensuring that all 
consumers are protected,'' end quote.
    I agree with that statement, and I am wondering maybe if 
you can elaborate on the advantages of a consistent national 
requirement for breach notification.
    Ms. Ramirez. We see a need for legislation for various 
reasons, and I think that is one. I think it is critical that 
there be comprehensive Federal legislation in this area. And we 
think that if that legislation and the standards that are set 
are sufficiently strong, that in that instance the Federal 
standards should preempt state breach notification laws.
    Senator Thune. OK.
    And several of you, I think, have testified to the 
advantages of having a single Federal standard. And I am just 
wondering maybe if you would like to underscore the value of 
Federal preemption of what is a patchwork right now of state 
laws.
    Ms. Ramirez. I am sorry, if I may add one more point that I 
want to make sure is also clear, in terms of our position at 
the FTC. It is also critical that the states be permitted to 
enforce in this area, that there be concurrent jurisdiction on 
the part of the FTC as well as the states.
    Senator Thune. Right. OK.
    Anybody else want to comment on the value of having a 
national----
    Mr. Wagner. Just a couple quick comments.
    You know, we have talked about transparency here on the 
panel today, and transparency is absolutely critical. So having 
a common breach standard would make it easier to aggregate the 
data to know what is going on from a national perspective.
    And then we also know from these crimes that they often--
probably most often have a multi-state impact and very often an 
international impact. And having the Federal Government 
involved in breach notification seems to make a lot of sense to 
centralize that.
    Senator Thune. Anybody else?
    Ms. Richey. I would just say that a single standard would 
ease the way for getting the notification out faster and 
spending less time and money on lawyers and more on informing 
consumers.
    Senator Thune. Dr. Loh, you are here today because the 
University of Maryland experienced a security attack, which 
exposed the names and Social Security numbers and dates of 
birth of more than, as you note in your testimony, 300,000 
members of your community.
    In your testimony today, you state that the University of 
Maryland experienced a second breach on March 15 but that this 
time that breach resulted only in one senior university 
official having their data breached.
    And so the question is, why is that? Was that official the 
only target of that breach, or was it because of steps taken 
after the first breach?
    Mr. Loh. They actually had unlawful access to far more 
information than was breached the first time, but we don't call 
it a breach because, except for that one individual, it was not 
made public, it was not circulated. And, again, I want to thank 
the FBI for their very expeditious and effective intervention 
that resulted in the successful mitigation within 36 hours.
    The reason we are not saying anything more is because the 
investigation is still proceeding. But it is the case that no 
other information was made available. The fact that that one 
senior university official's name, ID, everything was put on 
the Web and on a public website, on Reddit, was simply because, 
well, the intruder wanted to show how clever he or she was and 
wanted the world to know.
    Senator Thune. I just have one last question, Mr. Chairman, 
and that has to do--again, I want to come back to Ms. Ramirez.
    You testified today that your role at the FTC is to protect 
consumers and ensure companies take reasonable and appropriate 
measures to protect consumer information and that, to do that, 
the FTC uses both its unfairness and deception authority, 
deception authority being relatively clear-cut. And, in that 
case, if a company acts deceptively, it makes materially 
misleading statements or omissions, for instance regarding the 
security measures it has taken.
    But a good number of the FTC's actions in data security 
have come under its unfairness authority, which some have 
argued provides less guidance to companies regarding which 
practices cross the line. Because most of these cases are the 
result of consent decrees, it doesn't seem like there is a 
record, or it doesn't produce a record of precedential value.
    So the question is, short of regulations, should the FTC 
make public the rationale that they use to determine what is 
unfair so that companies have better guidance?
    Ms. Ramirez. Senator, I have to disagree with the critiques 
that have been made of the FTC in this arena. I think that we 
have provided good guidance.
    The approach that we take when we exercise, frankly, both 
our deception authority and our unfairness authority in this 
area is one of reasonableness. As a law enforcer, what we do is 
really driven by the specific facts of a given case. And the 
documents that are part and parcel of our consent decrees 
demonstrate and explain the bases for our allegations and also 
what we believe are remedies and actions that a company should 
undertake.
    So, in our view, we have provided guidance. And the actions 
that we have taken really go to very basic and fundamental 
failures on the part of companies that we think are 
unreasonable and, therefore, that would be a violation of 
Section 5.
    So I do take issue with that. We provide a great deal of 
guidance, also, to businesses as part of our outreach and 
educational efforts. And I believe that companies can discern 
the approach that we take.
    It is a process-based approach, where we urge companies to 
do a very thorough risk assessment based on the type of 
information that they collect and that they use and that they 
then, in turn, develop a program that would be able to address 
any risks to which that information might be exposed.
    We also think it is absolutely critical to have one person, 
at least, who would be in charge of any data security program.
    Senator Thune. Is that guidance made public?
    Ms. Ramirez. Absolutely.
    Senator Thune. OK.
    All right, Mr. Chairman, I see we are out of time and we 
have to run and vote, so I yield back.
    Senator Pryor. Thank you.
    And that is what we will do. We are going to recess for a 
little while; I don't have a time certain. My guess is it will 
be 40 minutes or so, but I don't know exactly, depending on how 
many actual votes we have on the floor. There is a little bit 
of conflicting information about it, whether we have four or 
five votes.
    But, nonetheless, what we will do is we will recess. And 
probably, just for everybody's benefit, we will probably try to 
start as we are doing our last vote on the floor, because 
members can vote and then come back here. So we are trying to 
do that.
    So, with that, what we will do is we will take the recess 
now, and we will reconvene subject to the call of the chair. 
Thank you. [Recess.]
    The Chairman [presiding]. You know, it is nice, we are 
actually just piling through judges. And that has been an 
enormous problem in our system. And we did something called the 
nuclear option, which means if you can get past cloture, then 
all you need is 51 votes. That is what everybody--we have five 
judges, which may not be of any interest to you.
    [Laughter.]
    The Chairman. OK. Mr. Mulligan--where is my Mr. Mulligan? 
There you are.
    Have you all been nice to Mr. Mulligan?
    [Laughter.]
    The Chairman. OK.
    My staff, as you know, have prepared a report analyzing the 
data breach at your company. And we do a lot of reports.
    One that doesn't have anything to do with you or the 
question--and I shouldn't even be saying it--but I am 
interested, so I am going to say it--and I am Chairman, so I 
can say what I want.
    [Laughter.]
    The Chairman. A lot of moving companies, if you want to 
move, you sign a contract, they put your stuff in the moving 
van, and then they take it about 2 miles and then park in an 
alley and call you up and say, ``The price has just tripled.'' 
And, you know, you say, well, that doesn't happen in America. 
The point is it does. And it is very disturbing. It is very 
disturbing.
    So that is why we focus a lot on these kinds of things. It 
is not that we are nasty.
    Richard, you are not nasty, are you? Senator Blumenthal? 
You are not nasty. You are smart, you----
    Senator Blumenthal. Ask my wife, Mr. Chairman.
    [Laughter.]
    Senator Blumenthal. Never.
    The Chairman. That is right.
    My granddaughter and his----
    Senator Blumenthal. Wife.
    The Chairman.--wife are together at school.
    Senator Blumenthal. Your granddaughter and my wife----
    The Chairman. I didn't mean that----
    Senator Blumenthal. Your granddaughter and my daughter were 
together in school.
    The Chairman. Were, yes, that is right.
    Senator Blumenthal. Yep.
    The Chairman. At different levels.
    Senator Blumenthal. Yes.
    The Chairman. Right.
    [Laughter.]
    The Chairman. So, anyway, Mr. Mulligan, we have prepared 
this report, and I want to know if you have read the report.
    Mr. Mulligan. I have. I had a chance to review it last 
night.
    The Chairman. You did last night.
    The report walks through the many steps the attackers had 
to go through in order to hack your company. And then it 
explains how Target could have prevented the breach if you had 
stopped the attackers from completing even just one of the 
steps.
    Let me give you a few examples. You could have prevented 
the breach if one of your vendors, a small Pennsylvania company 
called--is it ``Fazio'' or ``Fazio''?
    Mr. Mulligan. My understanding is it is ``Fazio.''
    The Chairman.--Fazio Mechanical Service had better security 
practices.
    Will you acknowledge that poor vendor security was a factor 
in this attack?
    Mr. Mulligan. Yes.
    The Chairman. And once the attackers had gotten into your 
network, you did not stop them from gaining access to your 
company's highly sensitive consumer data. Will you acknowledge 
that Target failed to properly monitor your computer network 
for the intruders?
    Mr. Mulligan. Senator, it is my understanding that we did 
have proper segmentation in place. As recent as 2 months prior 
to the attack, we were found to be PCI-compliant, and that 
includes network segmentation.
    But your question is an excellent one. How they migrated 
from the outermost portion of our network to our point-of-sale 
data is an excellent question, and I don't have the answer to 
that.
    The Chairman. OK. And who is ``they''?
    Mr. Mulligan. How the intruder, excuse me.
    The Chairman. OK.
    Chairwoman Ramirez, I congratulate the Federal Trade 
Commission for its recent announcement of its 50th data 
security case.
    The FTC has been successful in pursuing data security cases 
using the authority under Section 5 of the FTC Act. As you 
know, Senator Feinstein, Pryor, Nelson, and I have introduced 
data security legislation, as Senator Pryor has done in 
previous years, all to no avail so far--legislation the FTC has 
consistently called for.
    Can you talk about why you see the need for such 
legislation? Why isn't your existing authority under the FTC 
Act enough?
    Ms. Ramirez. Chairman, thank you for your question. And, 
again, I want to thank you for your leadership in this area.
    The FTC has undertaken very critically important work in 
this arena. But I think that our experience and what we see 
happening in the marketplace really does show that companies 
are continuing to under-invest when it comes to data security.
    And that is why we believe that more needs to be done in 
this area and why we think that Congress absolutely needs to 
take action to have Federal comprehensive legislation that 
addresses the issues of data security.
    And, in particular, we want to highlight things that we 
think are critically important relative to enforcement 
authority on the part of the FTC. And that is that we feel that 
it is critical that the FTC have civil penalty authority so 
that there can be appropriate deterrence. We also feel that it 
is important that any legislation give us APA rulemaking 
authority so that the agency can have the flexibility to 
implement any legislation and to adapt to changing technology 
in this arena.
    And then, in addition, we feel that it is also important 
for the FTC to have jurisdiction over nonprofits. Currently, we 
do not have jurisdiction over nonprofits, and we do see that 
universities and other nonprofits are falling victim to 
intrusions and that it is important for the nonprofit sector 
also to have reasonable security measures in place so that 
Americans' information can be protected.
    The Chairman. But they will precisely at that point tell 
you that self-regulation works.
    Ms. Ramirez. We believe that self-regulation is an 
important element of all of this. Data security is a 
complicated issue, and in order to really address it 
effectively, we need to do it in a multi-pronged way.
    So we believe that self-regulation that is robust and where 
you have backup enforcement by the FTC, for instance, that that 
would be a good and important complement to the civil law 
enforcement that we undertake.
    The Chairman. But, in essence----
    Ms. Ramirez. But it wouldn't--in my mind, it is not enough.
    The Chairman. You are saying it is not enough.
    Ms. Ramirez. That is correct.
    The Chairman. Yes. But whether it is cybersecurity, whether 
it is this, whether it is almost anything else, self-regulation 
always solves the problem.
    We had, as you know, recently a chemical spill in 
Charleston in West Virginia. Nine counties just couldn't drink 
water, including my house, and it was not a pleasant 
experience. And I found out rather quickly that there is no 
regulation, they are under no Federal regulation, no state 
regulation--they can do exactly as they please.
    And so one of the people who was really trapped by this, 
who is my, sort of, chief of staff for my West Virginia 
operations, has two young children. And I talked to her this 
morning, and she said--and she had just been on a trip to 
India, in fact, to look at water, new ways of doing water--that 
two more leaks had been discovered on that river, just causing 
one to be blindingly angry and infuriated at ourselves for 
allowing that to happen.
    I was a Governor for eight years; I never did anything 
about it. Every time I drove into Charleston, which I did 
hundreds and hundreds and hundreds of times, I always came 
directly toward those tanks that held all this toxic stuff 
which leaked, and I said, that doesn't look very good to me, it 
looks kind of crummy.
    It is sort of like the pictures in Washington State before 
everything went wrong. Everything looked fine, but if you knew 
that there was a lot of mud there, your mind would lead you to 
other kinds of conclusions. But your mind doesn't choose to 
dwell on things which aren't of the moment.
    Anyway, so I am encouraging increasing hostility towards 
giving the FTC--I am hearing this from others--authority to 
address consumer protection issues like data breaches. That is 
a common complaint from some. And it reaches ears easily 
because people like to hear about the Federal Government not 
being able to do its work, or failing to do its work.
    Unlike years past, when this committee routinely gave the 
FTC the tools it needs to do the job, I am now constantly 
hearing about the dangers of an overzealous FTC, overregulating 
and overburdening American businesses, a lot--hearing it a lot, 
and in this committee.
    My data breach bill, which is S. 1976, gives your agency 
basic rulemaking authority to set data security standards, just 
as Congress did in the Gramm-Leach-Bliley and the children's 
online privacy laws. I don't think that is a controversial 
idea, but some people do.
    Chairwoman Ramirez, can you explain, please, to these 
skeptics, through me, how the FTC goes about setting these 
rules so that, one, I can be satisfied that you are not out to 
ruin industry for the pure pleasure of doing it but you are 
trying to do your job; how the Commission has a careful and 
deliberative process that does not lend itself to the type of 
regulatory chaos that some fear? And then can you explain how 
these rules will help protect consumers from data breaches?
    Ms. Ramirez. I would be happy to.
    Let me say that, first of all, the call for legislation in 
this area is a bipartisan call. The Commission unanimously 
supports the enactment of Federal legislation in this area and 
supports specifically the pieces of legislation that I have 
outlined.
    Let me also say that, in response to the critics of the 
FTC, anyone who looks closely at the work that we undertake can 
see that we do our work in a very balanced way and that we 
absolutely want to be--our job is to protect American consumers 
fundamentally, but we absolutely do listen to the concerns of 
industry.
    And I think when you look at the body of casework that we 
have in this area, the 50 data security cases that you 
mentioned, I think people will see exactly what the basis for 
these are and, in fact, that the actions that we took were 
justified.
    In response to your specific question about how we employ 
APA rulemaking authority, in my initial remarks I referenced 
the CAN-SPAM Act, which is one example of a situation where we 
were given APA rulemaking authority. Any rule that the agency 
would promulgate would go through a notice-and-comment period, 
so stakeholders would have an opportunity to give input. Any 
rule that we ultimately would impose would be based on the 
evidentiary record that would be developed over the course of 
the rulemaking process.
    And the reason that we ask for that is that it is critical 
that the FTC have flexibility in this arena to implement any 
legislation. And two main issues, I think, are the ones that I 
want to highlight.
    One is that we have to recognize that technology is just 
moving very rapidly. So, a decade ago, no one would have 
predicted that facial recognition technology would be so 
readily available, for example, or that geolocation information 
would be so easily obtainable today. So it is critically 
important that there be flexibility that is embedded in any 
legislation to allow the FTC to adapt any rule to emerging and 
evolving technology.
    By the same token, it can also be to the benefit of 
businesses to grant the FTC that flexibility, because we may be 
able to lift certain requirements that may no longer be 
necessary over time. And that certainly happened in connection 
with our implementation of the CAN-SPAM Act.
    So, in my view, it really would be to the advantage of 
everyone--consumers as well as the business community--to grant 
us that flexibility.
    The Chairman. I thank you.
    I am well over my time, and it is time for Senator 
Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman. Thank 
you for holding this important hearing and for working on some 
important legislation.
    I think we all know that this is no longer one singular 
problem, as we have heard from our witnesses today. In fact, 
The Washington Post printed an article yesterday showing that 
the Federal Government notified 3,000 U.S. companies of a 
breach in just the last year.
    And I think it calls attention to the fact that we need to 
move on cybersecurity legislation, that we need to move on some 
of the notification bills and the work that Senator Rockefeller 
is doing, Senator Leahy is doing. I am on both committees, so I 
have been immersed in this.
    As Mr. Mulligan knows, we had another hearing, and 
Chairwoman Ramirez, in the Judiciary Committee. And one of the 
things we focused on a lot there that I continue to believe is 
important is, one, going after the people that did this and 
working with the Justice Department on that. That has to be a 
top priority. But, number two, how we prevent this going 
forward.
    And one of the things that I found pretty shocking was that 
in America we have 25 percent of credit card transactions in 
the world but we have 50 percent of the world's fraud. And, as 
we know, some of the other countries have moved to the chip and 
PIN technology. I know that Target tried some of this 
technology--maybe you can talk about that--a few years back, 
but it wasn't adopted by other companies.
    And so I think I would start with that. What do you think 
we need to do to stop this from happening, in terms of adopting 
some of the technology? And how long do you think it is going 
to take, when we already have parts of the world that are 
already adopting this? It is currently the standard in Europe.
    So maybe we could hear from you, Ms. Richey, first.
    Ms. Richey. We do believe that it is necessary for the 
United States to join most of the rest of the countries of the 
world in adopting the chip technology to control fraud in the 
face-to-face environment.
    We have set out a roadmap for EMV chip adoption, and we 
announced that in August of----
    Senator Klobuchar. Great.
    Ms. Richey.--2011, with the idea that it would take 
probably around 4 to 7 years to get to a critical mass of chip 
adoption, based on our experience in other countries.
    I am encouraged by the level of enthusiasm toward the chip 
project that we are seeing in the wake of these recent events. 
And I am hopeful that by our liability-shift date in 2015, 
October 2015, that we will see substantial adoption in both the 
merchant and the issuing bank side.
    Senator Klobuchar. And do you think it would be better to 
have the PIN rather than signatures? Would that be safer?
    Ms. Richey. ``Safe'' is an interesting word in this 
context.
    Senator Klobuchar. OK. Would that lead to less fraud?
    Ms. Richey. It might initially lead to less fraud. PIN does 
reduce lost and stolen fraud. So PIN does nothing to prevent 
the criminal from counterfeiting a card, unfortunately. And 
about 70 percent of the fraud that occurs in physical 
locations, brick-and-mortar stores, is counterfeit, not lost 
and stolen.
    So we believe the bigger problem is counterfeit. It is also 
easier for the criminal to accomplish because they can do it by 
stealing data, not by having to take possession of, you know, 
thousands or millions of physical plastic cards.
    So we believe that the best thing for the industry to do is 
to focus on chip and that trying to change the environment 
between PIN, signature, and no cardholder verification, which 
are our current methodologies, would just slow things down and 
increase the cost.
    So, therefore, we are saying the issuer could have the 
choice, based on their own risk profile, whether to issue with 
chip and PIN or chip and signature, and similarly in the 
merchant environment, where today about two-thirds of the 
merchants don't currently deploy PIN.
    Senator Klobuchar. Right.
    And I think we know, I mentioned--Mr. Mulligan, maybe you 
want to address this--that Target had tried to go with the chip 
technology. And what happened?
    Mr. Mulligan. We did. A little more than 10 years ago, we 
introduced what we call guest payment devices to read chip 
cards. And we introduced our Target Visa card, actually, with 
chips enabled in it 10 years ago.
    The real benefit for consumers comes with wide adoption, 
though, when those cards are widely used and they are widely 
read throughout the economy. And we have seen that in other 
geographies. After we went about 3 years by ourselves, we 
determined that it didn't make much sense for us to continue, 
given that there was no real benefit to consumers broadly.
    We have continued to support, in our case, chip and PIN, 
but we agree that moving to at least chip-enabled technology is 
a positive step forward.
    Senator Klobuchar. Are you speeding up your adoption of 
that now?
    Mr. Mulligan. We are. We have accelerated that. It is a 
$100 million investment for us. And we will have the guest 
payment devices in September, and we will issue cards, chip-
enabled cards, and read them early next year.
    Senator Klobuchar. And, Mr. Wagner, as a subsidiary of 
Datacard, which is also a Minnesota company, how does your 
company view the transition to chip cards? And how have Entrust 
and Datacard been involved in making recommendations to the 
finance and payment networks on implementing new cards and new 
security methods?
    Mr. Wagner. Well, Datacard is, in fact, the world leader in 
producing equipment to encode financial transaction cards, both 
magnetic stripe and of course EMV other places in the world. 
And so we are a big supporter of the EMV technology.
    You know, one of the things, when you combine security, you 
know, it is clear that the chip and PIN is a more secure way to 
do it, but there is obviously balance and usability that needs 
to be considered. But when you consider from a security 
perspective, the chip and PIN is a more secure way to go about 
it. But either is better than the current mag-stripe 
environment.
    Senator Klobuchar. And, Mr. Chair, if I could just ask one 
more question----
    The Chairman. Of course.
    Senator Klobuchar.--of Chair Ramirez?
    Many of the large data breaches and the hacking operations 
are perpetrated by people outside the U.S. And there is no 
shortage of crimes that they could be charged with, but it can 
be very hard to bring them into our courts because they operate 
largely overseas.
    In the case of the Target breach, I understand that 
Business Weekly has identified a Ukrainian operation that could 
be responsible. Again, the investigation is under way; this is 
just what we read in Business Weekly.
    But can you discuss how you work with law enforcement on 
investigations? I know I asked this of the Justice Department 
in a Judiciary hearing, but what steps do you think we could be 
taking to make it easier to get these international hackers 
into a courtroom to stop them?
    Ms. Ramirez. As to your specific question, I do have to 
defer to the criminal law enforcement authorities to get into 
the details of that. But I will say that the FTC works very 
closely, in terms of our own work, in parallel with our 
criminal law partners in these areas.
    We, of course, are focused on the front end, how retailers 
and other businesses are protecting consumer information. But, 
again, we work in parallel with and I think our efforts are 
complementary to the efforts of criminal law enforcers who are 
seeking to locate and punish perpetrators.
    Let me also add that we do a tremendous amount of work on 
the international front, working with civil law enforcement 
agencies around the world to address these issues. That is a 
significant part of our own engagement. And we use authority 
that has been given to us by Congress under the SAFE WEB Act to 
be able to pursue civil law enforcement where needed. And so we 
do want to partner with other law enforcers, because we have to 
these days.
    Senator Klobuchar. And so do you think we should be doing 
more, as we negotiate trade agreements, as we work with these 
other countries as part of security agreements, in terms of 
trying to come up with some international standards?
    Because it seems to me that more and more of these cases 
are outside of our borders, in terms of who is perpetrating 
them.
    Ms. Ramirez. Absolutely. I think increasingly we need to be 
working with international partners around the world, and we 
absolutely have to focus on that set of issues, as well.
    Senator Klobuchar. Thank you very much.
    The Chairman. Thank you.
    Senator Pryor?
    Senator Pryor. Thank you, Mr. Chairman.
    And let me follow up on that, if I can, Chairwoman Ramirez. 
With the FTC working with other agencies, other Federal and 
state and other law enforcement agencies generally, plus the 
international community, is there a formal process there? I 
mean, do you have these formal relationships where you sit down 
every day or every week or every month with these folks? Or is 
it more on a case-by-case, ad-hoc basis?
    Ms. Ramirez. We do work regularly with sister agencies here 
domestically. It does operate on a case-by-case basis.
    We do also have specifically a Criminal Liaison Unit, 
because as part of our overall enforcement work we do partner 
with U.S. attorney's offices. We also do close work with main 
Justice and then also with the FBI, Secret Service. But 
specifically on these issues, it tends to be in conjunction 
with specific investigations.
    On the more global level, we do work through multilateral 
organizations as well as through specific bilateral 
relationships that we have with counterpart law enforcers 
around the globe who also have consumer protection authority. 
And then we do also engage, where necessary, where appropriate, 
with criminal authorities around the world, as well.
    Senator Pryor. You know, one reason I ask is my experience 
with law enforcement is that sometimes they will form what are 
sometimes called task forces, you know, where they will have 
multi-agency or multi-jurisdiction.
    I didn't know if FTC serves in, like, a task force-type 
setting where you have regular meetings, where people are 
focused on this, trying to find solutions, trying to head some 
of this off before it starts. Are you all involved in anything 
like that?
    Ms. Ramirez. It really is on more a case-by-case basis. 
Again, our focus is on the civil law enforcement side and on 
the front end. But we absolutely will cooperate very closely 
where it is necessary, and we do stay in close contact with 
domestic criminal law enforcers.
    Senator Pryor. OK, let me go down to the other end of the 
table there.
    Mr. Wagner, I know in both the Rockefeller bill and also 
the Toomey bill, they use the word ``reasonable'' policies--
``reasonable'' is the key word--policies to ensure consumers' 
private data is protected.
    And, you know, obviously, ``reasonable'' is a little 
elastic, a little situational. And that may be the best word to 
use, but could you please speak to that and kind of talk about 
what principles are contained within the, kind of, concept of 
``reasonable''?
    Mr. Wagner. Well, the key principles that we would espouse 
are those of information security governance, understanding the 
risks that the enterprise has around information security at a 
high level, at a corporate, at a board level, understanding 
which information assets have value, and making sure that that 
is not just an assessment of the value to your organization 
but, as we are seeing, the effect can be ecosystem-wide, and so 
making sure that those, you know, asymmetric values get 
considered at the risk officer level, at the corporate level, 
so it can be dealt with.
    Senator Pryor. Does anybody else on the panel want to 
comment on ``reasonable'' and, you know, what that means in the 
context of what you do?
    Ms. Richey. Well, there are a whole set of well-known 
security standards applicable either on an industrywide basis 
or broadly across all industries. And I believe that many of 
them have very specific things that need to be done but that at 
the same time they are flexible.
    So there is a whole custom and practice of the trade that 
you would want to look at based on the risks that you have 
identified as to whether the measures that you took were in 
accordance with those standards.
    Senator Pryor. And is that a good starting point here?
    Ms. Richey. I believe so, yes.
    Senator Pryor. Yes.
    Did you have something?
    Mr. Loh. Yes. The word ``reasonable'' was what caught my 
attention in Section 2 of the bill, ``requiring reasonable 
measures and procedures for information security.''
    Even though it has only been about 5 weeks since our major 
data breach, I have already asked for the estimates of the cost 
to have, quote, ``reasonable'' defenses and reasonable'' 
perimeter defenses, penetration testing, and protection of 
sensitive information.
    It can range from a few million dollars to as high as $30 
million to $50 million. They have quoted me figures from other 
studies that say that, at least in academic settings, it is 
approximately $100 per every identity stolen. So if we had 
310,000 stolen, the cost, as a rough estimate, is 310,000 times 
$100.
    And the question I think that Mr. Mulligan raised, which I 
thought was an excellent question: Who shares in the 
responsibility for protection?
    It would bankrupt most universities to spend $20 million, 
$30 million in cybersecurity protection, especially when there 
is no 100 percent guarantee anyway. Is this something that 
should be shared more widely between private business, 
universities, and the Federal Government?
    To take one example, Social Security numbers. Why don't we 
devalue Social Security numbers? Why not require financial 
institutions not to use Social Security numbers so that there 
is no longer the incentive to steal Social Security numbers?
    If one doesn't do that, one shifts all of those costs to, 
at least in this case, higher education institutions. And so it 
is a balancing between risks and costs. And all I can tell you 
is that the costs can be staggering. And even then, all of the 
experts that we have retained are telling us there is no 100 
percent guarantee.
    Ms. Ramirez. I wanted to add a few words from the 
perspective of the Federal Trade Commission on this issue.
    We do believe that the reasonableness is the right 
approach. Given the different types of companies that we have 
jurisdiction over across many industries, we think that it is 
critical to have flexibility and, again, to have a very fact-
specific approach. At the same time, we certainly understand 
the challenges that Dr. Loh has identified.
    And going back to your question about certain things that 
the Federal Government can do, one area where we have been 
participating in a task force has been in connection with 
identity theft. And as part of that task force that was set up 
under the Bush administration, a number of different Federal 
agencies have made recommendations about how to deal with 
issues such as Social Security numbers to minimize the risks of 
ID theft.
    So I do think that while this is a complicated question, 
there are many places where the government can play an 
important role. And, to me, data security legislation is one 
step in that effort, but I think there are other things that 
need to be examined, including the way personal information is 
being utilized.
    Senator Pryor. Thank you, Mr. Chairman.
    Thank you.
    The Chairman. Thank you, Senator Pryor.
    Philosophically and realistically, that was an interesting 
discussion because--and it gets back to something that I talk 
about as often as I can. Unless this country is willing to get 
serious about infrastructure, from which I mean cybersecurity 
to 200,000 pound water tankers crossing 75,000 max pound 
bridges all over West Virginia so that they can build a 
fracking platform--if we don't have the infrastructure, which 
is research, which is NIH, which is the Cancer Institute, which 
is Alzheimer's, which is everything, plus the hard stuff, the 
roads--I mean, you know, we have a lot of pipelines in West 
Virginia. Nobody knows where they are. They carry gas, but 
somebody goes in to build a house and breaks through five 
layers of pipelines that nobody knew were there.
    At some point, the sense of forgiveness runs dry, that if 
we are going to be a serious country, continue to be a serious 
country, we have to do infrastructure. We have no choice.
    If you said, Senator Rockefeller, are you for raising the 
gas tax, I would say yes. I believe in user fees; I always 
have. If you have an objective that you want--you want to build 
roads and bridges--then you do that thing which is necessary to 
make it happen.
    If you choose not to--you are ideologically pure--you 
probably win your next election, and your state declines and 
fritters away. Or people, young people, make the conclusion, as 
they have, or some of them already, on our water spill, the 
toxic water spill, for which there was no state regulation 
whatsoever--of which I was partly responsible, because I was 
Governor for 8 years. And I told you, I kept looking at these 
tanks and wondering what they were doing there but did nothing 
about it.
    If you don't take responsibility for your future, you have 
no future. And that gets to the very bottom of what divides 
this Congress. It is not Republicans and Democrats. Roy Blunt 
and I have been friends for years. I got him to do something 
which he didn't want to do, for which he has forgiven me for 
getting him to do it because he finds it not that undoable. 
Plus, he likes me and I like him. OK? So things work.
    But you have to be willing to raise taxes to pay for things 
where we are eons behind. STEM, modern bridge structures--I 
mean, the list is endless: NSF, NIH, NIST. You want a good way 
to find out where a good standard is? You go to NIST. That is 
where the cybersecurity people want to go. They will do it 
fairly. They will do it, but it will cost.
    And so to Dr. Loh, who runs a university, which does not 
have endless amounts of money, I am full of sympathy. But I 
can't walk away, as a Senator, from being part of the solution 
to his problem. And that is what we are doing here; we are 
walking away year after year from being part of the solution to 
the problem.
    If you want good infrastructure, you have to pay for it. If 
you are going to pay for it, you have to raise taxes. Then the 
question is, how do you raise taxes? Then you get into the 1 
percent versus the--and then that becomes a lot of talk. But 
the point is you either get the infrastructure or you don't. 
And if you don't, your future is dim.
    It was very interesting when the President called, 
accurately, Russia an important regional power. Mr. Putin must 
have been unhappy at that, but it was accurate because of the 
size of his economy and because of what he has not done and 
they have not done over the years. In projecting power, 
projecting toughness and all the rest of it, they have not 
built things up. My son-in-law lives there; he knows. You can't 
escape that.
    So that is my little editorial. But, to me, it is the way 
we improve this country. The way we help Dr. Loh, the way we 
help everybody, is that we are in this together, that we have 
to share responsibility, that we don't point fingers. We are 
all to blame.
    We are in the habit of being comfortable. We are in the 
habit of thinking that the world is as it was 30 years ago. 
Now, that is a stupid and trivial thing to say, but it is just 
totally true. It is totally true. So I am trying to make life 
tougher on us.
    I am not running for re-election, so it is easy for me to 
talk like that. But if I were running for re-election, I would 
talk like that. Or else I don't belong in this job; I shouldn't 
run for the job.
    So that is just my thought. Now, I have gone over my time. 
And Senator Markey has been here, and he doesn't like it if I 
go for over a minute and a half. But I am just going to ask my 
question and hope for Roy and Ed's forbearance.
    Mr. Mulligan, this is for you. According to press reports, 
attackers gained access to the Target network through the 
Pennsylvania vendor, which we have discussed already. Does 
Target require any particular level of security of its third-
party vendors?
    Mr. Mulligan. We do assess the inherent risks of our third-
party vendors and rate them on a risk scale and determine which 
of those we need to review, which of those we don't, Senator. 
We have a process for doing so.
    The Chairman. I am not sure what the answer is.
    Mr. Mulligan. We do. We do. We have standards, Senator. And 
we have an audit process to ensure they are meeting them.
    The Chairman. A lot of people have audit practices. Not all 
of them are enforced. That is a high bar question, I admit.
    Mr. Mulligan. We have a process where we routinely review 
the inherent risk. And those with high risk we evaluate 
periodically. Those with a medium risk we evaluate less often. 
And those we deem low-risk we don't evaluate, Senator. We----
    The Chairman. OK.
    Do any third-party vendors have access to Target's point-
of-sale systems? And if so, what security standards apply to 
them?
    Mr. Mulligan. Anyone who has access to our point-of-sale 
networks, the same security standards would apply: two factor 
authentication, as is required by PCI. And beyond that, anyone, 
whether our own team members or if we have, say, technology 
contractors working on them, they would apply similarly.
    The Chairman. See, Senator Markey, we have the rhetoric of 
attention and auditing but not necessarily the fact of. One can 
still get away with rhetoric in this country. One can get on 
the evening news with brilliantly sculpted rhetoric. It doesn't 
mean you are doing anything.
    I just threw that your direction. You are not a media 
hound, so I am not accusing you of being that kind of person. I 
mean, I would if I knew my audience better, because I would 
have fun doing it and you would have fun squashing me.
    At the same time of the breach, who at Target was 
ultimately responsible for the company's data security?
    Mr. Mulligan. Senator, we have multiple teams that work in 
data security. At the time of the breach, various elements 
reported it to several different executives.
    The Chairman. Now, you see, that worries me. That worries 
me. You had a former CIO, Beth Jacob, and I want to make sure 
she doesn't get run over by a bus in this discussion.
    It is true that Target data security responsibilities have 
been divided up, as you indicate, among a variety of staff and 
not under a chief information security officer. But what I am 
obviously getting at is, at some point, the CEO and the Board 
of Directors have to accept responsibility for what is 
happening.
    That is why I mentioned this morning with data breaches--
that you should have to report it to the SEC. And there was no 
law. I just called up Mary Schapiro, who was there at the time; 
she said, sure, I will do it.
    And I did the same thing with coal mines. We have a lot of 
coal mine disasters in West Virginia. So any time somebody is 
killed or there is a coal mine disaster, it has to be reported, 
because that is helpful to investors and shareholders about 
their decisions.
    But I believe in responsibility. I think it has to come 
down to a point, a source point. And I think that has to be a 
Board of Directors and the CEO. And then you can scatter the 
responsibility however you want.
    I have talked too long, and now I have to figure out who 
got here first.
    I think, Roy, did you get here first?
    Senator Blunt. I was here first.
    The Chairman. Roy was here first.
    So, Senator Blunt, I am sorry. Senator Blunt.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. I thank the Chairman.
    And the Chairman and I are good friends, and the thing he 
talked me into doing was co-chairing with him an effort to be 
sure we understood what all the alternatives are out there at a 
staff level on health care. And whether I wanted to know it or 
not, I needed to know it. And, once again, he figured out 
something that was better for me than I probably thought it 
would be.
    But thank you all for being here. It has been a long 
afternoon, people coming and going. I may very well ask a 
question that has already been asked, but as a rule here, even 
if everything has been said, if everybody hasn't said it yet, 
it is still OK to repeat it.
    [Laughter.]
    I just sort of--you know, whenever we set this hearing, I 
think there were 46 different requirements to comply. There may 
be more than that by the time we get to the end of the hearing, 
but there were at least that many.
    And my first question is simply a ``yes'' or ``no'' 
question. Do you believe that a uniform national standard for 
data breach notification would benefit consumers? And just 
``yes'' or ``no'' is all I would like to have there.
    Ms. Ramirez. I will start. Yes.
    Senator Blunt. Dr. Loh? A uniform standard of notification?
    Mr. Loh. Yes.
    Mr. Mulligan. Yes.
    Ms. Richey. Yes.
    Mr. Beshar. Yes.
    Mr. Wagner. And yes.
    Senator Blunt. Well, that is what I think too. And 
hopefully we can figure out how to do that. And I think the 
Attorney General recently called for that uniform standard, as 
well, and it is something that hopefully this Congress can 
accomplish. [Editor's note: Senator Blunt requested that the 
Attorney General's statement in this regard be placed in the 
record. See pp. 76-77, herein.]
    One of the questions the Chairman asked--and maybe it was 
your answer, Mr. Mulligan. At the time of the breach, was there 
more than--weren't there multiple breaches of data in what 
happened in Target in the last part of last year?
    Mr. Mulligan. We had breach of our systems, Senator, and 
two types of data were removed.
    Early in December, or mid-December, on December 19, we 
indicated that approximately 40 million credit card account 
numbers had been removed from our systems.
    And then, once verified, we also, on January 10, provided 
notice that certain personal information, including name, 
address, e-mail, and phone number, in various combinations, had 
also been removed in the same breach.
    Senator Blunt. So if I understand this right, in the same 
breach, does that mean you had all the information for all 40 
million people? Or did you have some of them you had individual 
information and others you just had card information that 
didn't identify it to an individual?
    Mr. Mulligan. That is correct. And the overlap between the 
two, while one would think it would be a relatively simple 
process, it was not. We know that there was at least 12 million 
of the records that overlapped and likely more than that.
    Senator Blunt. So where you had the breach of information 
but you didn't know who that related to, is there any way you 
could have--who could you have notified there if you wanted to 
notify an individual customer that their card information had 
been shared in ways you wouldn't have wanted and stolen, in 
effect, from you?
    Mr. Mulligan. Given the nature of our breach, Senator, we 
felt that the best way to notify customers was very broad 
public disclosure. We did so on December 19 through the media, 
through our website, through social media. We did so again on 
January 10 related to the personal data.
    In both cases, we augmented that public disclosure by e-
mailing. In the first case we e-mailed about 17 million of our 
guests and in the second case about 47 million guests.
    Senator Blunt. How did you know who those 47 million were?
    Mr. Mulligan. We had their e-mail addresses.
    Senator Blunt. And that was for everybody in that 
particular file, or everybody that had shopped within a window 
of time, or how did you know that?
    Mr. Mulligan. For the 70 million records, those are the 
individuals we had accurate e-mail addresses for.
    Senator Blunt. For the 47 million e-mails out of the 70 
million.
    Mr. Mulligan. Correct.
    Senator Blunt. I see.
    And, Ms. Richey, I think--what did the Chairman say? Does 
Visa--no. A level of security for--it was asked about the 
company. I thought of a question then. Does your company 
require any level of security for the merchants who use Visa? 
And are you changing what that level of security is?
    Ms. Richey. Yes, we do require a level of security. It is 
the level embodied in the PCI data security standards.
    And we also require for large merchants that they provide 
us a validation by an independent security assessor once each 
year that they are in compliance. For the smaller merchants, we 
require a self-assessment questionnaire that is administered by 
the merchant bank that has set them up to accept payments.
    So that is what we have in place today. The PCI Council 
actually administers that standard, and they review it 
periodically and promote improvements to it.
    Senator Blunt. And have you given notice of a new level of 
standard that you want merchants to have by sometime in 2015?
    Ms. Richey. So there are two different things going on 
here. One is the security standard, how they secure the data in 
their environment.
    Senator Blunt. Right.
    Ms. Richey. And the other is to devalue the data in their 
environment so that they would no longer have valuable data and 
no longer be targeted by thieves.
    So the standard for October 2015 is for these EMV chip 
cards, where the card actually sends a one-time-use signal so 
that even if you steal all the data relative to the card it 
can't be reused to commit fraud.
    So the standard for 2015 is to implement the EMV standard 
by placing EMV terminals in the stores and outfitting them with 
the proper technology on the back end, failing which the 
merchant would be liable for the fraud if a chip card, an EMV 
chip card, is used in that terminal. So that is that standard.
    Senator Blunt. OK.
    My last question for you and then anybody else who wants to 
answer it is, do you believe there is any benefit in Congress 
in the law trying to specify exactly what the card standard 
should be? If we said in law you would have to have a chip in 
the card or you would have to have a chip and a PIN number in 
the card, is that, in your view, a good thing or an unhelpful 
thing?
    Ms. Richey. Generally speaking, I would say that our 
success across the world has been through this liability-shift 
mechanism. It allows the flexibility in the different merchant 
environments for them to move in that direction.
    Senator Blunt. So ``liability shift'' means if they don't 
secure things as you required, they would have a higher level 
of liability as a merchant.
    Ms. Richey. Right. And that allows them to set the pace of 
their transition according to their environment and the risk in 
their environment. So we believe that should be effective. We 
have seen it over and over again across the world.
    I hesitate--naturally, we would like to get out of the 
business of having to administer this ourselves, but when we 
have seen the few governments that have tried to mandate 
technologies in other parts of the world, they tend to have 
unintended consequences and actually make it more difficult to 
move forward with new types of technology that can leapfrog 
current technology. So that would be my hesitation on that.
    Senator Blunt. Anybody disagree with that?
    My sense has been that the thieves, the hackers would 
always be more nimble than the Congress. And we prove that on a 
regular basis, our lack of nimbleness. And if you are too 
specific in law, all you do is create a roadmap as to what you 
have to do if you want to break the code.
    But what were you going to say, Ms. Ramirez?
    Ms. Ramirez. I was going to agree with what Ms. Richey has 
testified to. We believe that a flexible approach is the right 
way to go here.
    Senator Blunt. Thank you, Chairman.
    The Chairman. Thank you very much.
    Ah, you have made it back.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. I have made it back, Mr. Chairman. I 
have a reprieve on my presiding because I felt this committee 
hearing was so important. And thank you for----
    The Chairman. So then I have the pleasure of putting you in 
front of Senator Markey and watching him fume.
    [Laughter.]
    The Chairman. Senator Blumenthal was here and is 
recognized.
    Senator Blumenthal. I was here before and----
    The Chairman. Yes.
    Senator Blumenthal. Thank you, Mr. Chairman. Thank you. And 
thank you for your leadership in convening this hearing.
    Thank you to the panel. You know, I feel that this 
afternoon is, in a certain way, a missed opportunity for all of 
us because we have been bouncing in and out due to the votes 
and our schedules and so forth. But this panel's contribution I 
think has been very, very useful and I think could be even more 
useful. And I am going to be submitting some additional 
questions for the record that perhaps you can address.
    And speaking of missed opportunities, the report done by 
the majority staff of this committee I think performs an 
extraordinary service and provides an excellent backdrop and 
summary and analysis of what happened here. And it uses the 
term ``opportunities''--missed opportunities'' is the way I 
would interpret them--that, very unfortunately, were failed 
here.
    And it brings home to me one of the truths that I think 
maybe Senator Blunt was alluding to: The best technology in the 
world is useless unless there is good management.
    And here, to be quite blunt, there were multiple warnings 
from the company's anti-intrusion software. They were missed by 
management, maybe because of lack of training, perhaps simply a 
sense of confidence or complacence. And the automated warnings, 
the specific kinds of signals that should have been an 
indication not only of intrusion but the need for action were 
missed. And that has created enormous costs.
    So one of the lessons of this incident for me is that 
better management has to come with better technology. Do any of 
you disagree?
    I take it by your silence you are agreeing.
    The other area that has not been explored so far is the 
notification here. And the breach occurring on 11/12, November 
12, happened well before there was notification to consumers, 
December 19 I think it was.
    And the question that arises, I think, in the minds of a 
lot of consumers, and justifiably, is: Was there timely enough, 
quick enough, fast enough notification here? And what can be 
done to improve that pace in the future?
    So let me ask Mr. Mulligan first and then perhaps the 
others about what you think about the timeliness of 
notification.
    Mr. Mulligan. Senator, first, we identified the malware on 
our system on the morning of December 15. From that moment 
forward, we were very focused on public notification.
    Senator Blumenthal. But should you have discovered it 
earlier?
    Mr. Mulligan. That is a reasonable question, Senator, and 
one--you know, the report, as you indicated, is very well done. 
It is asking a lot of hard questions, questions we are asking--
--
    Senator Blumenthal. And, in my view, let me just state very 
simply, there should have been earlier discovery. Whether you 
could have prevented the intrusion and stopped it earlier, that 
may be a subject of debate, but certainly it should have been 
discovered and notified earlier.
    Mr. Mulligan. We are certainly going back to understand 
that, Senator.
    As the alerts were surfaced, our team assessed them. They 
assess hundreds of alerts every day and make judgments based 
upon those. Given the circumstances we were in, we identified 
the malware on the morning of December 15 and provided public 
notice 4 days later.
    We were very focused, your point is exactly right, on speed 
and doing so quickly. And we balanced that with ensuring that 
we could provide accurate information to our guests and respond 
to their questions, given the volume, that we knew were coming 
in both our call centers and our stores.
    Senator Blumenthal. Chairwoman Ramirez?
    Ms. Ramirez. Thank you.
    From our perspective, reasonably prompt notice is, of 
course, quite critical, but we also understand that it is very 
important for companies who have been victims of a breach 
incident to be able to assess exactly what transpired. And I 
think, as Mr. Mulligan has noted, it is critical that consumers 
receive accurate information, as well.
    So we understand that that can take time. From our 
perspective, ultimately, notice should happen reasonably 
promptly. In our view, at the very outside, it should be about 
60 days. Of course, it is critical that consumers have an 
opportunity to be able to take steps to protect themselves if 
their information has been exposed.
    Senator Blumenthal. I want to thank all of you for your 
answers. My time has expired, and I am going to yield to 
Senator Markey before he truly starts fuming, with good reason.
    And I want to follow up on this question of notification. 
Because anybody can be a victim of hacking or intrusion, but no 
one should in any way delay notification to consumers once it 
has happened. And even when there is something less than 
complete certainty, a warning to consumers can save literally 
hundreds of millions, if not billions of dollars.
    And the ultimate cost, often, is borne by those consumers 
in identity theft. So Senator McCaskill earlier was talking 
about, you know, who is bearing the cost in terms of the 
suffering and the pain resulting from identity theft? Consumers 
bear it, even if they get money, even if they are told by a 
monitoring--or even if they get insurance.
    So I want to thank you all for your cooperation. I know 
that Target has cooperated with my office and with this 
committee, and I want to thank you for the contribution that 
you made here today and before now.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Blumenthal. And thank you; 
I don't know how you pulled it off, but you got a leave of 
absence. And I have been here 29 years, and you are the first 
person who has ever gotten that. So you clearly care, and so we 
are grateful for your coming back.
    But now we are treated to the one and only, great Mr. 
Edward Markey.
    [Laughter.]

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    Dr. Loh, the University of Maryland decided to provide 5 
years of credit protection to those impacted by the data breach 
at your school. How did you determine that 5 years was an 
appropriate time period?
    Mr. Loh. Well, as you know, we announced it within 24 
hours, notified everybody within about 4 or 5 days. And very 
quickly, the way most students communicate is by social media--
--
    Senator Markey. But why the 5-year period to offer 
protection?
    Mr. Loh. And so, what they were complaining about was that 
we initially offered one year, and they said one year is not 
adequate.
    Senator Markey. And what was your conclusion?
    Mr. Loh. And my conclusion is I think they are right. It is 
going to cost more money, but it is the right thing to do. And 
then----
    Senator Markey. And why is it the right thing to do?
    Mr. Loh. I am sorry?
    Senator Markey. Why is it the right thing to do?
    Mr. Loh. Why is it the right thing to do? Because, after 
all, it did happen. It is our responsibility to provide the 
maximum protection possible of our sensitive data. We did not 
do it. I think we have very strong defenses, yet even so they 
were penetrated in a very sophisticated way. But that is no 
defense.
    Senator Markey. OK. So----
    Mr. Loh. And so we decided to up it from 1 year to 5 years.
    Senator Markey. OK. Great.
    So, Mr. Mulligan, Target has offered victimized consumers 
just one year of credit monitoring service. My concern is the 
same as Dr. Loh's and the students at the University of 
Maryland that 1 year is too brief a period a time, given the 
compromise of this information.
    So why did you choose one year and not have a longer period 
of time, even though, as Dr. Loh said, it costs more money, but 
it is consistent with the risk that the consumer now runs?
    Mr. Mulligan. We certainly evaluated this. Not having 
experience, we reached out to other entities that had had 
similar experiences. Our understanding at the time we made the 
offer was that one year was appropriate, would provide 
appropriate coverage.
    We are certainly not dogmatic about that. We have not 
received the same feedback from our guests. We have issued 
millions of access codes to our coverage and have not received 
that feedback. But certainly if we did, we would reconsider 
that.
    And I think, importantly, part of our coverage is that you 
have access to a fraud specialist ongoing beyond that one year. 
That goes on forever.
    Senator Markey. Yes, I mean, my concern is, of course, this 
information has been compromised and it is sitting out there, 
and 1 year is just an arbitrary period of time to select to say 
that it can't be used in a way that comes back to haunt the 
individuals whose information has been compromised. And I just 
think that a more lengthy period of time makes more sense. I 
think the University of Maryland reached the correct decision.
    I also understand the credit monitoring Target is offering 
tracks only one credit report, Experian, and not the credit 
files maintained by TransUnion and Equifax.
    Why do you believe that one bureau monitoring is good 
enough? Wouldn't free monitoring all of three reports provide 
consumers with better protection following the breach?
    Mr. Mulligan. Here again, we reached out to several other 
entities who had similar situations. We understood Experian is 
a well-established company. They had a product that we felt 
would work very well for our consumers, our guests, because it 
offered, in addition, identity theft protection, identity theft 
insurance, and, additionally, the ongoing access to the fraud 
specialist, which we thought was particularly important. So we 
went with their particular product.
    Senator Markey. Yes. Again, I would suggest to you that you 
look perhaps to a broader group of companies here that would be 
helpful.
    Credit monitoring may also provide consumers with a false 
sense of security because these services monitor only attempts 
to open new lines of credit; they do not watch for day-to-day 
unauthorized charges on your credit card.
    So tell us what Target is doing to help consumers with that 
problem.
    Mr. Mulligan. That is an excellent question. And as we have 
communicated to our guests, we have talked consistently about 
the need to monitor your existing accounts.
    And, again, we understand that this has impacted them. We 
have tried to provide resources, tools, communication. We have 
provided one spot on our website which has all the information 
we have provided to them. We have provided e-mails and 
additional information to our REDcard holders, all with a focus 
to keep them informed about the information we have.
    Senator Markey. Thank you.
    And let me move to you, Mr. Wagner, if I could. What steps 
are you taking today to ensure that better ways of ensuring 
data security keep up with new payment technologies?
    Mr. Wagner. Well, as Visa has testified, the EMV technology 
is a major improvement for payment security, so that is 
something that Datacard is interested in supporting.
    From an Entrust perspective, you know, our commitment is to 
help our customers have the identity technologies that they 
need to, you know, provide a strong layer of security in their 
defense mechanisms.
    And one of the things that is really key to understand is 
that the malware has changed the way it operates in the last 
several years. And this idea of being someone on the network, 
being able to overtake a network administrator's credential and 
move freely inside the corporate network as if you have a 
ticket to Disneyland is a very different security risk than we 
were dealing with, you know, 4 and 5 years ago.
    So trying to educate the industry, get governance processes 
in place that help companies understand their risk, and provide 
tools to mitigate those risks are what Entrust is trying to do.
    Senator Markey. You know, and I guess what I would suggest 
is this, OK? That it doesn't make any sense for the Congress to 
mandate specific technologies. What it does make sense to do, 
however, is to say to industries that you have to keep up with 
the changes, and if you don't keep up with the changes, that 
you are liable. So to say that any of this is a surprise is 
just to say that you are not keeping up with what is going on.
    And so the Chairman here could call a hearing of the five 
or six smartest young geeks in America, and they could explain 
it to this committee right now. But the truth is that the five 
or six smartest geeks in each one of your companies should be 
having that meeting right now with the CEOs, just saying, these 
are the changes and these are the recommendations that we make 
in order to provide the extra protection, because the law 
requires us to keep up. OK?
    And so, to just keep saying we are surprised at the changes 
means that you haven't kept up. But it doesn't mean that 
younger people in your own organizations have kept up. And so, 
in and of itself, it is no excuse, OK? It just isn't.
    And the Congress shouldn't require a specific technology, 
but it should require a standard. You know? If you don't have a 
radio on your boat in 1900, you are not derelict. You don't 
have one on your boat in 1920, now you have a problem. It 
evolved, you know? There are two-way radios now. If you don't 
have one, you can't say, ``Oh, my God, I didn't have one when I 
bought the boat,'' huh? That is not an excuse, OK? You had to 
have noted that a guy named Marconi came along, you know, in 
the interim and that, you know, young people have these devices 
now and you might have learned that there was a storm coming, 
huh? And you just can't exempt yourself from the liability.
    So that is kind of the challenge here. And that is why 
Senator Blumenthal and I have introduced legislation to give 
the Federal Trade Commission much greater authority, so that 
they can require these security measures to be put in place and 
that consumers receive immediate notification, as well, of any 
breach that occurs.
    And I think it is important for us to act this year, 
because this has been occurring over and over and over. And 
T.J. Maxx is in my congressional district, my old congressional 
district, and they had a similar breach in 2007. So it is not 
as though this doesn't keep happening over and over again. It 
is that we keep treating it as though it is a huge surprise 
that it is going to happen.
    And I just think we need to put in place the highest 
possible standards. That is why Senator Blumenthal and I 
introduced the legislation to help to accomplish that goal, and 
that is why Chairman Rockefeller is having these hearings, 
because we ultimately have to deal with the issue.
    I thank you, Mr. Chairman.
    The Chairman. That was very good questioning. I would like 
to be a part of the bill.
    Senator Markey. Your staff was the first group of human 
beings on the planet to receive a copy of the bill.
    The Chairman. Good.
    But, see, you raise a very important point, and that is 
that we measure everything based upon what it was. And that 
absolves us of the responsibility of saying what it might 
become. And the only important question, whether you are 
talking about national security, anything, appropriate 
security, is what it might become. And that is why we are 
constantly surprised.
    You know, the painful memory of the Boston Marathon, I am 
not sure what the teaching of that was. Because that was kind 
of a traditional act. Did we have something that we should have 
known, that there had been an advance in technology or in 
technique or in dispersion or whatever that we missed?
    But regardless of what the answer to that is, you are 
basically right. NIST's job is not to say exactly what it 
should be for this month, the next month, the next month. It 
should be the highest possible, practicable--the highest 
possible--standard. And that will reach many people who will 
object.
    Senator Markey. May I just say that it is a good example, 
where the Russians had given information about these suspects.
    The Chairman. And that is correct.
    Senator Markey. So the technology had worked, in fact, in 
gathering the information, but the human judgment then, in 
terms of what to do----
    The Chairman. Yes.
    Senator Markey.--with the information, you know?
    So here, the technology is something that now is available 
to deal with the threats. And it is there and available, and 
younger people, of course, are familiar with it. But it just 
becomes, in most instances, do you want to spend the money?
    The Chairman. Yes.
    Senator Markey. Do you want to spend the money to keep up 
with this technological arms race that you necessarily have to 
because it is concomitant with the electronic era that each of 
these companies are embracing?
    And so you can't think of that as a loss that you now have 
to suffer because you have to build in the security. You have 
to think of it as a necessary investment that you have to make.
    The Chairman. Yes, and we are not accustomed to that----
    Senator Markey. We are not.
    The Chairman.--pattern of thought. But you are suggesting 
that we need to be.
    Senator Markey. Exactly.
    The Chairman. And that is what NIST is there for.
    You missed my speech on spending money on infrastructure, 
and I will not pain you with repeating it. But you already 
agree with it.
    [Laughter.]
    The Chairman. Look----
    Senator Markey. Does that mean we are passing a 
transportation bill out of this committee this year?
    The Chairman. No. No, don't tease me with that.
    [Laughter.]
    The Chairman. This has been a very interesting and a very 
frustrating hearing for a couple of reasons. One is that it is 
a very complicated subject. I mean, we have the FTC, the 
President of the University of Maryland, this vast institution 
my former Chief of Staff, Kerry Ates, got her degree from, 
magna cum laude. And you all have great experience, and you 
bring great experiences to this.
    But we are under the stricture of the sense that time is 
running out on us. And are we going to have the time to 
energize people? As Senator Markey has indicated, young people 
are already knowledgeable. The question is, will they be 
energized to go into these fields? Will they be energized to go 
work at the University of Maryland and help you? Or at your 
firm, Mr. Mulligan, to help you?
    And I think it also makes the point that I made earlier, 
that at some point there is more reason there for it to have a 
point of responsibility. Ultimately, whether you are a senator 
or whether you are a President of a company or President of a 
university or playing first for the Boston Red Sox, it is not 
just holding on to your job, but it is how you do it, how 
people assess it with a hard eye, that makes the difference.
    Accountability is everything. We have tended to forget that 
in this country because somehow America always muddles through. 
America is not now muddling through, and it is not a pretty 
sight.
    You have been fantastic. You have been alert, you have been 
helpful. You have put up with our absences. We had nine votes. 
That is not a lot of fun for us, but we got nine judges, did we 
not? And that is a wonderful thing for America.
    So I want to profoundly thank you, each one of you, for 
being here and for being here this long.
    Mr. Beshar, I am feeling guilty about you. You haven't 
talked enough.
    [Laughter.]
    The Chairman. Would you like to talk for 2 or 3 minutes?
    [Laughter.]
    Mr. Beshar. I will decline your very kind invitation.
    The Chairman. Why? It is the perfect opportunity. Nobody is 
going to get up and leave while you are talking.
    [Laughter.]
    The Chairman. Say something that is on your heart that you 
want to say.
    Mr. Beshar. I will say very briefly, Senator, that I think 
the Government has really been out front of the bulk of 
industry and the nonprofit sector in identifying the 
significance of cybersecurity and in prodding business and the 
nonprofit sector to try to accelerate the pace of the 
commitment that they are showing.
    And you have done it in this committee. The FBI, the DHS, 
the White House--there are various government agencies that 
have really advanced the ball. And I think it is incumbent upon 
the bulk of business and the nonprofit sector to try to follow 
the lead that has been set.
    The Chairman. Yes. We have to get our act together, no 
question. And we are all part of it--part of the future, part 
of the wrongs of the present, part of the forgetfulness of the 
past, or taking too much comfort in the past.
    I have nothing wise to say, so I will end this hearing. I 
don't tend to bang a gavel because I think that is kind of 
showmanship, so I just end it by saying it is at an end. So you 
are free.
    [Laughter.]
    The Chairman. But you have our great gratitude.
    [Whereupon, at 5:17 p.m., the hearing was adjourned.]
                            A P P E N D I X

     Prepared Statement of the Electronic Transactions Association
    Chairman Rockefeller, Ranking Member Thune and Members of the 
Committee, the Electronic Transactions Association (ETA) appreciates 
the opportunity to submit this statement for the record for the 
Committee's hearing, ``Protecting Personal Consumer Information from 
Cyber Attacks and Data Breaches.''
    ETA is an international trade association representing companies 
that offer electronic transaction processing products and services. The 
purpose of ETA is to help the merchant acquiring industry by providing 
leadership through education, advocacy, and the exchange of 
information. ETA's membership spans the breadth of the payments 
industry, from financial institutions and transaction processors to 
independent sales organizations and equipment suppliers to merchants. 
More than 500 companies worldwide are members of ETA.
    As the trade association for the payments industry, ETA recognizes 
the critical importance of data security. With more than 70 percent of 
consumer spending now done electronically, consumers depend on the 
security and reliability of payment systems. Consumers prefer 
electronic payments due to their convenience, efficiency, and low cost, 
but data theft and cybercrime, if not properly combatted, could cause 
some consumers to forgo these benefits out of concern about the 
security of their personal financial information. And if consumers do 
not have confidence in electronic commerce, then neither will the 
entrepreneurs and investors who spur financial innovation. Accordingly, 
the continued development of online commerce and other technology-based 
sources of economic growth rest on effective data security.
    ETA is committed to ensuring that payment systems are fully secure 
and that customer information is protected. While recent high-profile 
data breaches remind us of the gravity of the threat posed by 
cybercriminals, existing data security systems have proven remarkably 
effective overall. Last year, U.S. payment systems processed more than 
$5 trillion in payments, and only a small fraction of those payments 
(less than one tenth of one percent) were fraudulent and consumers had 
no liability for such fraud. Nevertheless, data security will only be 
effective if it continues to stay ahead of the always evolving 
techniques and technologies of criminal enterprises.
    Because ETA members are on the front lines of fighting data theft, 
our members have dedicated significant resources annually to developing 
secure payment systems. ETA's members have worked with their merchant 
customers to employ advanced technologies to prevent data theft and the 
fraudulent use of personal information. Due to these efforts, for 
example, fraud accounts for less than 6 cents of every $100 of credit 
and debit card transactions. Even in the relatively small number of 
cases where fraud does occur, consumers are usually not responsible for 
those amounts as financial institutions have adopted zero customer 
liability policies for fraudulent activity.
    To further reduce the threat of fraud, ETA members that provide 
credit and debit cards are also beginning the phase-in of chip smart 
card technology beginning in 2015. This technology will replace 
magnetic stripe technology on credit and debit cards with cards 
containing embedded computer chips, which prevent criminals from 
producing counterfeit credit and debit cards. The adoption of EMV is a 
costly undertaking since it requires ``point of sale'' (POS) terminals 
to be updated to handle the new cards, but the investment is expected 
to yield a significant reduction in the incidents of card fraud and 
ensure the integrity of payment systems. Our industry is also working 
hard to deploy other technology solutions to fraud, like tokenization 
and end-to-end encryption, which hold real promise for thwarting 
criminal activity against merchants.
    ETA recognizes that protecting the personal financial information 
of consumers is a responsibility shared among payments processors, 
retailers, and banks. Accordingly, we recently joined with 14 leading 
retail and financial services trade groups in a partnership aimed at 
ensuring that our shared infrastructure is secure. This partnership 
seeks to enhance information sharing to prevent cyber attacks, promote 
new technologies to stay ahead of increasingly sophisticated threats, 
and collaborate on comprehensive solutions to threats growing to card-
not-present transactions and the mobile environment. ETA believes that 
such industry collaboration offers the best means for the development 
of industry standards and innovative solutions to strengthen data 
security.
    With respect to how government can best promote data security, ETA 
believes that the Federal government has an important role to play in 
creating a legal and regulatory environment conducive to technological 
innovation and the efficient and effective protection of consumer 
information. As Congress considers possible legislative measures to 
address data security, therefore, ETA would like to offer several 
recommendations.

  1.  Congress should adopt national data breach standards. ETA 
        believes that a uniform national standard for data breach 
        notification will help make sure consumers are notified when a 
        security breach puts at risk their personally identifiable 
        information, while minimizing the compliance risks to 
        businesses. Today, payment processors must comply with an ever-
        changing array of 46 different state laws on data breach. These 
        ambiguous laws unnecessarily increase the cost of data security 
        and confuse consumers with inconsistent rights and 
        responsibilities. A better approach is for a Federal standard 
        that preempts state laws with a clear notification trigger and 
        that provides a reasonable time for notifying consumers 
        following a breach. In addition, Federal data breach 
        legislation should avoid applying duplicative and inconsistent 
        requirements by providing a safe harbor for entities subject to 
        the Gramm-Leach-Bliley Act and the Fair Credit Reporting Act, 
        while not subjecting additional entities to these statutes.

  2.  Congress should not legislate technology standards. Since the 
        advent of electronic payments, payments technologies have 
        rapidly evolved to better protect consumer information and 
        further improve the efficiency of electronic payments. While 
        cybercrime has become increasingly complex, payments systems 
        have continued to make the investments in new technology 
        required to keep ahead of criminal efforts. Because future 
        cybercrimes are impossible to predict, payments systems need to 
        have the flexibility to quickly respond to new threats. Thus, 
        Congress should avoid mandating any particular technology 
        standards. Any standard Congress would adopt is likely to be 
        quickly rendered obsolete by new criminal tactics and, 
        therefore, could have the unintended consequence of restricting 
        the ability of payment systems to protect customer information 
        and the integrity of electronic commerce.

  3.  A layered approach to data security is the best strategy. There 
        is no one solution that will prevent every attempt by criminals 
        to steal data. Accordingly, in the same way that banks do not 
        rely solely on vaults to thwart bank robberies, but also 
        utilize in-house security guards, video cameras, and secure 
        facilities, payments systems need to deploy a layered approach 
        to data security. The utilization of multiple defenses--from 
        chip and tokenization to firewalls and encryption--is the best 
        strategy for minimizing data theft. Therefore, ETA recommends 
        that Congress not mandate a particular method of data security.

    We want to thank you for the opportunity to present this statement 
for the record on this important topic. If you have any questions about 
this statement or the issues discussed, please contact Jason Oxman, 
President of ETA.
                                 ______
                                 
                                      Department of Justice

            For Immediate Release--Monday, February 24, 2014

Attorney General Holder Urges Congress to Create National Standard for 
                         Reporting Cyberattacks

    WASHINGTON--In a video message released today, Attorney General 
Eric Holder called on Congress to create a strong, national standard 
for quickly alerting consumers whose information may be compromised by 
cyberattacks. This legislation would strengthen the Justice 
Department's ability to combat crime, ensure individual privacy, and 
prevent identity theft, while also helping to bring cybercriminals to 
justice.
    The complete text of the Attorney General's weekly address is 
available below:
    ``Late last year, Target--the second-largest discount retailer in 
the United States--suffered a massive data breach that may have 
compromised the personal information of as many as 70 million people, 
in addition to credit and debit card information of up to 40 million 
customers. The Department of Justice is currently investigating this 
breach, in close coordination with the U.S. Secret Service. And we are 
moving aggressively to respond to hacking, cyberattacks, and other 
crimes that harm American consumers--and expose personal or financial 
information to those who would take advantage of their fellow citizens.
    ``As we've seen--especially in recent years--these crimes are 
becoming all too common. And they have the potential to impact millions 
of Americans every year. Just days after the Target breach was made 
public, another major retailer--Neiman Marcus--reported that it also 
suffered a suspected cyberattack during the holiday season. And 
although Justice Department officials are working closely with the FBI 
and prosecutors across the country to bring cyber criminals to justice, 
it's time for leaders in Washington to provide the tools we need to do 
even more: by requiring businesses to notify American consumers and law 
enforcement in the wake of significant data breaches.
    ``Today, I'm calling on Congress to create a strong, national 
standard for quickly alerting consumers whose information may be 
compromised. This would empower the American people to protect 
themselves if they are at risk of identity theft. It would enable law 
enforcement to better investigate these crimes--and hold compromised 
entities accountable when they fail to keep sensitive information safe. 
And it would provide reasonable exemptions for harmless breaches, to 
avoid placing unnecessary burdens on businesses that do act 
responsibly.
    ``This legislation would strengthen the Justice Department's 
ability to combat crime and ensure individual privacy--while bringing 
cybercriminals to justice. My colleagues and I are eager to work with 
Members of Congress to refine and pass this important proposal. And we 
will never stop working to protect the American people--using every 
tool and resource we can bring to bear.''
    The full video is available at http://www.justice.gov/agwa.php
                                 ______
                                 
         Prepared Statement of the American Bankers Association
    Chairman Rockefeller, Ranking Member Thune, and members of the 
Committee, ABA appreciates the opportunity to submit for the record 
comments regarding the recent Target and other data security breaches. 
The ABA represents banks of all sizes and charters and is the voice for 
the Nation's $14 trillion banking industry and its two million 
employees.
    The subject of today's hearing, ``Protecting Personal Consumer 
Information from Cyber Attacks and Data Breaches,'' is an important 
one. Notwithstanding these recent breaches, our payment system remains 
strong and functional. No security breach seems to stop the $3 trillion 
that Americans spend safely and securely each year with their credit 
and debit cards. And with good reason: Customers can use these cards 
confidently because their banks protect them from losses by investing 
in technology to detect and prevent fraud, reissuing cards and 
absorbing fraud costs.
    At the same time, these breaches have reignited the long-running 
debate over consumer data security policy. ABA and the thousands of 
community, mid-size, regional, and large banks we represent recognize 
the paramount importance of a safe and secure payments system to our 
Nation and its citizens. We thank the Committee for holding this 
hearing and welcome the ongoing discussion. From ABA's perspective, 
Congress should examine the specific circumstances of the Target breach 
and the broader data security issues involved, and we stand ready as a 
resource to assist in your efforts.
    In our statement for the record we will focus on four main points:
  <bullet> Protecting consumers is the banking industry's first 
        priority. As the stewards of the direct customer relationship, 
        the banking industry's overarching priority in breaches like 
        that of Target's is to protect consumers and make them whole 
        from any loss due to fraud. Despite what others maintain, it is 
        the banking industry that reimburses consumers for any losses, 
        only later seeking reimbursement from the preached party.

  <bullet> A National data breach standard is essential. Consumers' 
        electronic payments are not confined by borders between states. 
        As such, a national standard for data security and breach 
        notification is of paramount importance.

  <bullet> All players in the payments systems, including retailers, 
        must significantly improve their internal security systems as 
        the criminal threat continues to evolve.

  <bullet> Protecting the Payments System is a Shared Responsibility. 
        Banks, retailers, processors, and all of the participants in 
        the payments system must share the responsibility of keeping 
        the system secure, reliable, and functioning in order to 
        preserve consumer trust. That responsibility should not fall 
        predominantly on the financial services sector.

    Before addressing each of these points in detail, it is important 
to understand the data security vulnerabilities in our system. The 
numbers are telling and point to the need for shared responsibility to 
fight off the continual attacks on data.
I. Data Security: Where are the Vulnerabilities?
    It is a sobering fact that, since January 2005, a total of over 
4,200 breaches exposing almost 600 million records have occurred 
nationwide. (Source: Identity Theft Resource Center) There were over 
600 reported data breaches during 2013 alone, an increase of 30 percent 
over 2012 and the third highest number of breaches over the last nine 
years. The two sectors reporting the highest number of breaches were 
the healthcare sector at 43 percent of reported breaches and the 
business sector, including merchants, which accounted for nearly 34 
percent of reported breaches.
    Moreover, the business sector, because of the Target breach, 
accounted for almost 82 percent of 2013's breached records. The 
Banking, Credit and Financial sector accounted for only 4 percent of 
all breaches and less than 2 percent of all breached records.\1\ 
However, in spite of the small percentage of actual data breaches, the 
Banking, Credit and Financial sector bears a disproportionate share of 
breach recovery and fraud expenses. This is a consistent trend since 
2005, where over this nine year period our sector accounted for 
approximately 8 percent of all reported breaches. The business sector 
accounted for approximately 36 percent and health care sector 
approximately 23 percent of all breaches over the same time period.
---------------------------------------------------------------------------
    \1\ 2013 Data Breach Category Summary, Identity Theft Resource 
Center, January 1, 2014, Available at: http://www.idtheftcenter.org/
images/breach/2013/BreachStatsReportSummary
2013.pdf
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

---------------------------------------------------------------------------
    Source: Identity Theft Resource Center

    These numbers point to the central challenge associated with 
breaches of financial account data or personally identifiable 
information: while the preponderance of data breaches occur at entities 
far removed from the banking sector, it is the bank's customer 
potentially at the end of the line who must be protected.
II. Protecting Consumers is Our First Priority
    While the facts of the Target breach remain fluid, the company has 
acknowledged that the breach occurred within its internal systems, 
affecting nearly 40 million credit and debit card accounts while also 
revealing the personally identifiable information (e.g., name, address, 
e-mail, telephone number) of potentially 70 million people. On average, 
the Target breach has affected 10 percent of every bank's credit and 
debit card customer base.
Paying for Fraud
    When a retailer like Target speaks of its customers having ``zero 
liability'' from fraudulent transactions, it is because our Nation's 
banks are making customers whole, not the retailer that suffered the 
breach. Banks are required to swiftly research and reimburse customers 
for unauthorized transactions, and normally exceed legal requirements 
by making customers whole within days of the customer alerting the bank 
of the fraud, if not immediately.\2\
---------------------------------------------------------------------------
    \2\ With traditional card payments, the rights and obligations of 
all parties are well-defined by Federal statute when an unauthorized 
transaction occurs. For example, Regulation E describes consumers' 
rights and card issuers' obligations when a debit card is used, while 
Regulation Z does so for credit card transactions. The payment networks 
also have well-established rules for merchants and issuers. For 
instance, while Regulation Z limits a customer's liability for 
unauthorized transactions on a lost or stolen credit card to $50, the 
card networks require issuers to provide their cardholders with zero 
liability.
---------------------------------------------------------------------------
    After the bank has reimbursed a customer for the fraudulent 
transaction, it can then attempt to ``charge-back'' the retailer where 
the transaction occurred. Unfortunately, the majority of these attempts 
are unsuccessful, with the bank ultimately shouldering the vast 
majority of fraud loss and other costs associated with the breach. 
Overall, for 2009, 62 percent of reported debit card fraud losses were 
borne by banks, while 38 percent were borne by merchants.\3\
---------------------------------------------------------------------------
    \3\ 2009 Interchange Revenue, Covered Issuer Cost, and Covered 
Issuer and Merchant Fraud Loss Related to Debit Card Transactions, June 
2011, Board of the Governors of the Federal Reserve System,, available 
at: http://www.federalreserve.gov/paymentsystems/files/debitfees
_costs.pdf
---------------------------------------------------------------------------
    It is an unfortunate truth that, in the end (and often well after 
the breach has occurred and the banks have made customers whole) banks 
generally receive pennies for each dollar of fraud losses and other 
costs that were incurred by banks in protecting their customers. This 
minuscule level of reimbursement, when taken in concert with the fact 
that banks bear over 60 percent of reported fraud losses yet have 
accounted for less than 8 percent of reported breaches since 2005 is 
clearly inequitable. We believe banks should be fully reimbursed for 
the costs they bear for breaches that occur elsewhere.
Reissuing and Ongoing Monitoring
    Each bank makes its own decision as to when and whether to reissue 
cards, which on average costs banks about $5 per card, but could be 
more. In the case of the Target breach, the decision of whether to 
reissue cards was made even more difficult considering the 
inconvenience this can cause during the holiday season: breach or no 
breach, many consumers would not have wanted their cards shut down 
leading up to Christmas. Those cards that have not been reissued are 
being closely monitored for fraudulent transactions. In some instances, 
banks gave customers an option of keeping their cards open through the 
holidays until they could reissue all cards in January or, if they were 
concerned, to shut their card down and be reissued a new card 
immediately.
    The Target compromise was also unique in terms of the high 
awareness of the ``Target'' name, the sheer number of people affected, 
and the media coverage of the event. In addition to proactively 
communicating with customers about the breach, bank call centers and 
branches have handled millions of calls and in-person inquiries 
regarding the card compromise. Many smaller and community banks have 
increased staffing to meet consumer demand. At the end of the day, 
consumers expect answers and to be protected by their bank, which is 
why they call us, not Target or whoever actually suffered the breach.
    We also remain vigilant to the potential for fraud to occur in the 
future as a result of the Target breach. Standard fraud mitigation 
methods banks use on an ongoing basis include monitoring transactions, 
reissuing cards, and blocking certain merchant or types of 
transactions, for instance, based on the location of the merchant or a 
transaction unusual for the customer. Most of us are familiar with that 
call from a card issuer rightfully questioning a transaction and having 
a card cancelled as a result. In many cases, however, the lifespan of 
compromised consumer data extends well beyond the weeks immediately 
following the breach itself. Just because the headlines fade away does 
not mean that banks can afford to relax their ongoing fraud protection 
and screening efforts. In addition there are ongoing customer support 
issues as customer's setup new card numbers for recurring transactions 
related to health club memberships and online stores such as iTunes.
III. A National Data Breach Standard is Essential
    In many instances, the identity of the entity that suffered the 
breach is either not known or, oftentimes, intentionally not revealed 
as there is no requirement to do so. Often, a retailer or other entity 
would rather pass the burden on to the affected consumers' banks rather 
than taking the reputational hit themselves. In such cases, the bank is 
put in the position of notifying their customers that their credit or 
debit card data is at risk without being able to divulge where the 
breach occurred. Many banks have expressed great frustration regarding 
this process, with their customers--absent better information--blaming 
the bank for the breach itself and inconvenience they are now 
suffering.
    Like the well-defined Federal regulations surrounding consumer 
protections for unauthorized credit or debit transactions, data breach 
notification for state and nationally-chartered banks is governed by 
the Gramm-Leach-Bliley Act and guidance from the from the Federal 
Financial Institutions Examination Council (FFIEC), requiring every 
bank to have a customer response program. Retail establishments have no 
comparable Federal requirements. In addition, not only are retailers, 
healthcare organizations, and others who suffer the majority of 
breaches not subject to Federal regulatory requirements in this space, 
no entity oversees them in any substantive way. Instead they are held 
to a wide variety of state data breach laws that aren't always 
consistent. Banks too must also abide by many of these state laws, 
creating a patchwork of breach notification and customer response 
standards that are confusing to consumers as well as to companies.
    Currently, 46 states, three U.S. territories, and the District of 
Columbia have enacted laws governing data security in some fashion, 
such as standards for data breach notification and for the safeguarding 
of consumer information. Although some of these laws are similar, many 
have inconsistent and conflicting standards, forcing businesses to 
comply with multiple regulations and leaving many consumers without 
proper recourse and protections.
    Establishing a national data security and notification law that 
brings others up to bank standards, requiring any business that 
maintains sensitive personal and financial information to implement, 
maintain, and enforce reasonable policies and procedures to protect the 
confidentiality and security of sensitive information from unauthorized 
use, would provide better protection for consumers nationwide.
    Our existing national payments system serves hundreds of millions 
of consumers, retailers, banks, and the economy well. It only stands to 
reason that such a system functions most effectively when it is 
governed by a consistent national data breach policy.
IV. All Players in the Payments System Must Improve Their Internal 
        Systems as the Criminal Threat Continues to Evolve
    While some details of the Target breach are still unknown, what is 
clear is that criminal elements responsible for such attacks are 
growing increasingly sophisticated in their efforts to breach the 
payments system. This disturbing evolution, as demonstrated by the 
Target breach, will require enhanced attention, resources, and 
diligence on the part of all payments system participants.
    The increased sophistication and prevalence of breaches caused by 
criminal attacks--as opposed to negligence or unintentional system 
breaches is also borne out in a recent study by the Ponemon Institute. 
Evaluating annual breach trends, the Institute found that 2012 was the 
first year in which malicious or criminal attacks were the most 
frequently encountered root cause of data breaches by organizations in 
the study, at 41 percent.\4\
---------------------------------------------------------------------------
    \4\ 2013 Cost of Data Breach Study: United States, May 2013, 
Ponemon Institute, available at: http://www.symantec.com/content/en/us/
about/media/pdfs/b-cost-of-a-data-breach-us-report
-2013.en-
us.pdf?om_ext_cid=biz_socmed_twitter_facebook_markewire_linkedin_2013Jun

_worldwide_CostofaDataBreach
---------------------------------------------------------------------------
    Emerging details of the Target breach are allowing us to see a 
troubling picture of the direction the criminal evolution is taking, 
and what it means for at-risk consumer data. For example:

  <bullet> While Target's last public statement on the issue stated 
        that the PINs that were compromised as part of the breach were 
        encrypted, the company originally stated that PINs were not 
        compromised at all. If the PINs were unencrypted, this would be 
        particularly troubling, as that would make bank customer 
        accounts vulnerable to ATM cash withdrawals as well as 
        unauthorized purchases. We call on law enforcement and those in 
        the forensics process to be as transparent as possible in 
        outlining what are the precise threats to our customers.

  <bullet> Even if the PINs that were breached were in fact encrypted, 
        there is still the potential that they could be decrypted, 
        placing our customers at just as much risk as if unencrypted 
        PINs had been captured.

  <bullet> Banks also do not know the extent to which their customers' 
        bank account numbers, which are linked to Target's RedCard, 
        were compromised as a result of the breach. If this information 
        was compromised, customers could be vulnerable to unauthorized 
        Automated Clearing House (ACH) transactions directly from their 
        accounts.

  <bullet> More generally, banks have also encountered significant 
        customer confusion as to the nature of Target's RedCard and the 
        bank's ability to help. Many believe the bank can cancel the 
        card and reissue it even though the card was issued by Target. 
        This confusion points to a broader problem with the emergence 
        of many non-traditional payments providers: customers have a 
        hard time understanding which payment entity is responsible for 
        what, and often just assume the bank is the responsible party.

    These threats to bank customer accounts point to the security 
vulnerabilities associated with non-traditional payments companies, 
such as Target, having direct linkages to the payments system without 
information security regulatory requirements comparable to that of 
financial institutions.
V. Protecting the Payments System is a Shared Responsibility
    While much has recently been made about the on-going disagreements 
between the retail community and the banking industry over who is 
responsible for protecting the payments system, in reality our Nation's 
payments system is made up of a wide variety of players: banks, card 
networks, retailers, processors, and even new entrants, such as Square, 
Google, and PayPal. Protecting this system is a shared responsibility 
of all parties involved and we need to work together and invest the 
necessary resources to combat increasingly sophisticated threats to 
breach the payments system.
    We must work together to combat the ever-present threat of criminal 
activity at our collective doorstops. Inter-industry squabbles, like 
those over interchange, have had a substantial impact on bank resources 
available to combat fraud. Policymakers must examine that impact 
closely to ensure that the necessary resources are not diverted from 
addressing the real concern at hand--the security of our Nation's 
payment system and the need to protect consumers. All participants must 
invest the necessary resources to combat this threat.
    In the wake of this breach, there has been significant discussion 
over how to enhance payment card security, focusing on the 
implementation of chip-based security technology known as EMV.\5\ This 
technology makes it much harder for criminals to create duplicate cards 
or make sense of encrypted data that they steal.
---------------------------------------------------------------------------
    \5\ EMV stands for Europay, Mastercard, and Visa, the developers of 
a global standard for inter-operation of integrated circuit, or 
``chip'' cards and chip card compatible point-of-sale terminals and 
automated teller machines.
---------------------------------------------------------------------------
    We encourage the implementation of chip technology, both on the 
card and at the point-of-sale. In fact, the rollout of this technology 
in the U.S. is well underway, with the next set of deadlines for banks 
and retailers coming in late 2015. It takes time for full 
implementation of chip technology in the U.S., as our country supports 
the largest economy in the world, with over 300 million customers, 8 
million retailers, and 14,000 financial institutions.
    Even though EMV is an important step in the right direction, there 
is no panacea for the ever-changing threats that exist today. For 
instance, EMV technology would not have prevented the potential harm of 
the Target breach to the 70 million customers that had their name, 
address, e-mail, and/or telephone number compromised. Moreover, EMV 
technology will help to address potential fraud at the point-of-sale, 
but it does not address on-line security, nor is it a perfect solution 
even at the point-of-sale as criminal efforts evolve. Because it is 
impossible to anticipate what new challenges will come years from now, 
we must therefore be cautious not to embrace any ``one'' solution as 
the answer to all concerns.
VI. The Path Forward
    Any system is only as strong as its weakest link. The same 
certainly holds true in our rapidly-changing consumer payments 
marketplace. The innovations that are driving the industry forward and 
presenting consumers with exciting new methods of making purchases is 
also rapidly expanding beyond the bounds of our existing regulatory and 
consumer protection regimes. And, as has historically been the case, 
the criminals are often one step ahead as the marketplace searches for 
consensus. That said, there are several positive steps policymakers can 
take to facilitate a higher level of security for consumers going 
forward. For example:
    Raise all participants in the payments system to comparable levels 
of security. Security within the payments system is currently uneven. 
In addition to adhering to the Payment Card Industry Data Security 
Standards, banks and other financial institutions are also subject to 
significantly higher information security requirements than others that 
facilitate electronic payments and house bank customer payment data.\6\ 
More must be done to buttress and enforce the current regulatory 
requirements that merchants face.
---------------------------------------------------------------------------
    \6\ For instance, banks are subject to the information security 
requirements contained within the Gramm-Leach-Bliley Act, the FFIEC Red 
Flag Rules regarding identity theft, and are continually examined 
against these requirements.
---------------------------------------------------------------------------
    Establish a national data security breach and notification 
standard. A national data breach standard, replacing the current 
patchwork of state laws and establishing one set of national 
requirements, would provide better and more consistent protection for 
consumers nationwide.
    Make those responsible for data breaches responsible for their 
costs. Banks bear the majority of costs associated with the fraud 
caused by breaches even though our industry is responsible for only a 
small percentage of the breaches that have occurred since 2005. When 
any entity--be it a bank, merchant, college or hospital--is responsible 
for a breach that compromises customer payment data or personally 
identifiable information, that entity should be responsible for the 
range of costs associated with that breach to the extent it was not 
adhering to the necessary security requirements.
    Increase the speed and transparency with which the results of 
forensic investigations are shared with the financial community. When a 
breach occurs, there is much banks and others do not know and are not 
told for extended periods of time regarding the vulnerability of 
certain aspects of their customers' data. Similar to the robust manner 
in which banks and law enforcement currently share other cybersecurity 
threat data, we must examine ways to share the topline threat data from 
merchant and other breaches that does not impede the overall 
investigation. For example, banks and payment networks currently share 
an increasing amount of cybersecurity threat and fraud information 
through groups such as the Financial Services Information Sharing and 
Analysis Center and other groups within ABA. Our efforts would be 
greatly enhanced if that information sharing capacity expanded to 
include the merchant community. We would welcome such expansion and 
look forward to working collectively with merchants to combat our 
common adversaries.
    Banks are committed to doing our share, but cannot be the sole 
bearer of that responsibility. Policymakers, card networks, and all 
industry participants have a vital role to play in addressing the 
regulatory gaps that exist in our payments system, and we stand ready 
to assist in that effort. Thank you for giving ABA the opportunity to 
provide this statement. We look forward to continuing to work with 
Congress to enhance the security of our Nation's payment system, and 
maintain the trust and confidence hundreds of millions of Americans 
place in it every day.
                                 ______
                                 
          Prepared Statement of the National Retail Federation
    Chairman Rockefeller, Ranking Member Thune, members of the 
Committee, on behalf of the National Retail Federation (NRF) we want to 
thank you for giving us this opportunity to provide you with these 
comments on data security and protecting American's financial 
information. NRF is the world's largest retail trade association, 
representing discount and department stores, home goods and specialty 
stores, Main Street merchants, grocers, wholesalers, chain restaurants 
and Internet retailers from the United States and more than 45 
countries. Retail is the Nation's largest private sector employer, 
supporting one in four U.S. jobs--42 million working Americans. 
Contributing $2.5 trillion to annual GDP, retail is a daily barometer 
for the Nation's economy.
    Collectively, retailers spend billions of dollars safeguarding 
consumers' data and fighting fraud. Data security is something that our 
members strive to improve every day. Virtually all of the data breaches 
we've seen in the United States during the past couple of months--from 
those at retailers that have been prominent in the news to those at 
banks and card network companies that have received less attention--
have been perpetrated by criminals that are breaking the law. All of 
these companies are victims of these crimes and we should keep that in 
mind as we explore this topic and public policy initiatives relating to 
it.
    This issue is one that we urge the Committee to examine in a 
holistic fashion: we need to reduce fraud. That is, we should not be 
satisfied with deciding what to do after a data breach occurs--who to 
notify and how to assign liability. Instead, it's important to look at 
why such breaches occur and what the perpetrators get out of them so 
that we can find ways to reduce and prevent not only the breaches 
themselves, but the fraudulent activity that is often the goal of these 
events. If breaches become less profitable to criminals then they will 
dedicate fewer resources to committing them and our goals will become 
more achievable.
    With that in mind, these comments are designed to provide some 
background on data breaches and on fraud, explain how these events 
interact with our payments system, discuss some of the technological 
advancements that could improve the current situation, raise some ways 
to achieve those improvements, and then discuss the aftermath of data 
breaches and some ways to approach things when problems do occur.
Data Breaches in the United States
    Unfortunately, data breaches are a fact of life in the United 
States. In its 2013 data breach investigations report, Verizon analyzed 
more than 47,000 security incidents and 621 confirmed data breaches 
that took place during the prior year. Virtually every part of the 
economy was hit in some way: 37 percent of breaches happened at 
financial institutions; 24 percent happened at retail; 20 percent 
happened at manufacturing, transportation and utility companies; and 20 
percent happened at information and professional services firms.
    It may be surprising to some given recent media coverage that more 
data breaches occur at financial institutions than at retailers. And, 
it should be noted, even these figures obscure the fact that there are 
far more merchants that are potential targets of criminals in this 
area. There are hundreds of times as many merchants accepting card 
payments in the United States than there are financial institutions 
issuing and processing those payments. So, proportionally, and not 
surprisingly, the thieves focus far more often on banks which have our 
most sensitive financial information--including not just card account 
numbers but bank account numbers, social security numbers and other 
identifying data that can be used to steal identities beyond completing 
some fraudulent transactions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Source: 2013 Data Breach Investigations Report, Verizon

    Nearly one-fifth of all of these breaches were perpetrated by 
state-affiliated actors connected to China. Three in four breaches were 
driven by financial motives. Two-thirds of the breaches took months or 
more to discover and 69 percent of all breaches were discovered by 
someone outside the affected organization.\1\
---------------------------------------------------------------------------
    \1\ 2013 Data Breach Investigations Report, Verizon.
---------------------------------------------------------------------------
    These figures are sobering. There are far too many breaches. And, 
breaches are often difficult to detect and carried out in many cases by 
criminals with real resources behind them. Financially focused crime 
seems to most often come from organized groups in Eastern Europe rather 
than state-affiliated actors in China, but the resources are there in 
both cases. The pressure on our financial system due to the overriding 
goal of many criminals intent on financial fraud is acute. We need to 
recognize that this is a continuous battle against determined 
fraudsters and be guided by that reality.
Background on Fraud
    Fraud numbers raise similar concerns. Just a year ago, Forbes found 
that Mexico and the United States were at the top of the charts 
worldwide in credit and debit card fraud.\2\ And fraud losses in the 
United States have been going up in recent years while some other 
countries have had success reducing their fraud rates. The United 
States in 2012 accounted for nearly 30 percent of credit and debit card 
charges but 47 percent of all fraud losses.\3\ Credit and debit card 
fraud losses totaled $11.27 billion in 2012.\4\ And retailers spend 
$6.47 billion trying to prevent card fraud each year.\5\
---------------------------------------------------------------------------
    \2\ ``Countries with the most card fraud: U.S. and Mexico,'' Forbes 
by Halah Touryalai, Oct. 22, 2012.
    \3\ ``U.S. credit cards, chipless and magnetized, lure global 
fraudsters,'' by Howard Schneider, Hayley Tsukayama and Amrita 
Jayakumar, Washington Post, January 21, 2014.
    \4\ ``Credit Card and Debit Card Fraud Statistics,'' CardHub 2013, 
available at http://www.cardhub.com/edu/credit-debit-card-fraud-
statistics/.
    \5\ Id.
---------------------------------------------------------------------------
    Fraud is particularly devastating for retailers in the United 
States. LexisNexis and Javelin Strategy & Research have published an 
annual report on the ``True Cost of Fraud'' each year for the last 
several years. The 2009 report found, for example, that retailers 
suffer fraud losses that are 10 times higher than financial 
institutions and 20 times the cost incurred by consumers. This study 
covered more than just card fraud and looked at fraudulent refunds/
returns, bounced checks, and stolen merchandise as well. Of the total, 
however, more than half of what merchants lost came from unauthorized 
transactions and card chargebacks.\6\ The founder and President of 
Javelin Strategy, James Van Dyke, said at the time, ``We weren't 
completely surprised that merchants are paying more than half of the 
share of the cost of unauthorized transactions as compared to financial 
institutions. But we were very surprised that it was 90-10.'' \7\ 
Similarly, Consumer Reports wrote in June 2011, ``The Mercator report 
estimates U.S. card issuers' total losses from credit-and debit-card 
fraud at $2.4 billion. That figure does not include losses that are 
borne by merchants, which probably run into tens of billions of dollars 
a year.'' \8\
---------------------------------------------------------------------------
    \6\ A fraud chargeback is when the card-issuing bank and card 
network take the money for a transaction away from the retailer so that 
the retailer pays for the fraud.
    \7\ ``Retailers are bearing the brunt: New report suggests what 
they can do to fight back,'' by M.V. Greene, NRF Stores, Jan. 2010.
    \8\ ``House of Cards: Why your accounts are vulnerable to 
thieves,'' Consumer Reports, June 2011.
---------------------------------------------------------------------------
    Online fraud is a significant problem. It has jumped 36 percent 
from 2012 to 2013.\9\ In fact, estimates are that online and other 
fraud in which there is no physical card present accounts for 90 
percent of all card fraud in the United States.\10\ And, not 
surprisingly, fraud correlates closely with data breaches among 
consumers. More than 22 percent of breach victims suffered fraud while 
less than 3 percent of consumers who didn't have their data breached 
experienced fraud.\11\
---------------------------------------------------------------------------
    \9\ 2013 True Cost of Fraud, LexisNexis at 6.
    \10\ ``What you should know about the Target case,'' by Penny 
Crosman, American Banker, Jan. 23, 2014.
    \11\ 2013 True Cost of Fraud, LexisNexis at 20.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
---------------------------------------------------------------------------
    Source: 2013 True Cost of Fraud, LexisNexis

    These numbers provide insights as to how to get to the right 
solutions of better safeguarding consumer and cardholder data and the 
need to improve authentication of transactions to protect against 
fraud. But before delving into those areas, some background on our 
payments system could be helpful.
The Payments System
    Payments data is sought in breaches more often than any other type 
of data.\12\ Now, every party in the payment system, financial 
institutions, networks, processors, retailers and consumers, has a role 
to play in reducing fraud. However, although all parties have a 
responsibility, some of those parties are integral to the system's 
design and promulgation while others, such as retailers and consumers, 
must work with the system as it is delivered to them.
---------------------------------------------------------------------------
    \12\ 2013 Data Breach Investigations Report, Verizon at 445, figure 
35.
---------------------------------------------------------------------------
    As the following chart shows, while the banks are intimately 
connected to Visa and MasterCard, merchants and consumers have 
virtually no role in designing the payment system. Rather, they are 
bound to it by separate agreements issued by financial intermediaries.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Typically contract between merchant bank and its retailers requires 
retailers to reimburse merchant bank for any costs, penalties, or fees 
imposed by the system on the merchant bank (including chargebacks--
i.e., disputed charges--and costs of data breaches)

    Thus consumers are obligated to keep their cards safe and secure in 
their wallets and avoid misuse, but must necessarily turn their card 
data over to others in order to effectuate a transaction. Retailers are 
likewise obligated to collect and protect the card data they receive, 
but are obligated to deliver it to processors in order to complete a 
transaction, resolve a dispute or process a refund. In contrast, those 
inside the triangle have much more systemic control.
    For example, retailers are essentially at the mercy of the dominant 
credit card companies when it comes to protecting payment card data. 
The credit card networks--Visa, MasterCard, American Express, Discover 
and JCB--are responsible for an organization known as the PCI (which 
stands for Payment Card Industry) data security council. PCI 
establishes data security standards (PCI-DSS) for payment cards. While 
well intentioned in concept, these standards have not worked quite as 
well in practice. They have been inconsistently applied, and their 
avowed purpose has been significantly altered.
    PCI has in critical respects over time pushed card security costs 
onto merchants even when other decisions might have more effectively 
reduced fraud--or done so at lower cost. For example, retailers have 
long been required by PCI to encrypt the payment card information that 
they have. While that is appropriate, PCI has not required financial 
institutions to be able to accept that data in encrypted form. That 
means the data often has to be de-encrypted at some point in the 
process in order for transactions to be processed.
    Similarly, merchants are expected to annually demonstrate PCI 
compliance to the card networks, often at considerable expense, in 
order to benefit from a promise that the merchants would be relieved of 
certain fraud inherent in the payment system, which PCI is supposed to 
prevent. However, certification by the networks as PCI Compliant 
apparently has not been able to adequately contain the growing fraud 
and retailers report that the ``promise'' increasingly has been 
abrogated or ignored. Unfortunately, as card security expert Avivah 
Litan of Gartner Research wrote recently, ``The PCI (Payment Card 
Industry) security standard has largely been a failure when you 
consider its initial purpose and history.'' \13\
---------------------------------------------------------------------------
    \13\ ``How PCI Failed Target and U.S. Consumers,'' by Avivah Litan, 
Gartner Blog Network, Jan. 20, 2014, available at http://
blogs.gartner.com/avivah-litan/2014/01/20/how-pci-failed-target-and-u-
s-consumers/.
---------------------------------------------------------------------------
    PCI has not addressed many obvious deficiencies in cards 
themselves. There has been much attention to the fact that the United 
States is one of the last places on earth to put card information onto 
magnetic stripes on the backs of cards that can easily be read and can 
easily be counterfeited (in part because that data is static and 
unchanging). We need to move past magstripe technology.
    But, before we even get to that question, we need to recognize that 
sensitive card data is right on the front of the card, embossed with 
prominent characters. Simply seeing the front of a card is enough for 
some fraudsters and there have been fraud schemes devised to trick 
consumers into merely showing someone their cards. While having the 
embossed card number on the front of the card might have made sense in 
the days of knuckle-buster machines and carbon copies, those days are 
long passed.
    In fact, cards include the cardholder's name, card number, 
expiration date, signature and card verification value (CVV) code. 
Everything a fraudster needs is right there on the card. The bottom 
line is that cards are poorly designed and fraud-prone products that 
the system has allowed to continue to proliferate.
    PCI has also failed to require that the identity of the cardholder 
is actually verified or authenticated at the time of the transaction. 
Signatures don't do this. Not only is it easy to fake a signature, but 
merchants are not allowed by the major card networks to reject a 
transaction based on a deficient signature. So, the card networks 
clearly know a signature is a useless gesture which proves nothing more 
than that someone was there purporting to be the cardholder.
    The use of personal identification numbers (PINs) has actually 
proven to be an effective way to authenticate the identity of the 
cardholder. PIN numbers are personal to each cardholder and do not 
appear on the cards themselves. While they are certainly not perfect, 
their use is effective at reducing fraud. On debit transactions, for 
example, PIN transactions have one-sixth the amount of fraud losses 
that signature transactions have.\14\ But PINs are not required on 
credit card transactions. Why? From a fraud prevention perspective, 
there is no good answer except that the card networks which set the 
issuance standards have failed to protect people in a very basic way.
---------------------------------------------------------------------------
    \14\ See 77 Fed. Reg. 46261 (Aug. 3, 2012) reporting $1.11 billion 
in signature debit fraud losses and $181 million in PIN debit fraud 
losses.
---------------------------------------------------------------------------
    As noted by LexisNexis, merchant fraud costs are much higher than 
banks' fraud costs. When credit or debit card fraud occurs, Visa and 
MasterCard have pages of rules providing ways that banks may be able to 
charge back the transaction to the retailer (which is commonly referred 
to as a ``chargeback''). That is, the bank will not pay the retailer 
the money for the fraudulent transaction even though the retailer 
provided the consumer with the goods in question. When this happens, 
and it happens a lot, the merchant loses the goods and the money on the 
sale. According to the Federal Reserve, this occurs more than 40 
percent of the time when there is fraud on a signature debit 
transaction,\15\ and our members tell us that the percentage is even 
higher on credit transactions. In fact, for online transactions, which 
as noted account for 90 percent of fraud, merchants pay for the vast 
majority of fraudulent transactions.\16\
---------------------------------------------------------------------------
    \15\ Id. at 46262.
    \16\ Merchants assume 74 percent of fraud losses for online and 
other card-not-present signature debit transactions. 77 Fed. Reg. 
46262.
---------------------------------------------------------------------------
    Retailers have spent billions of dollars on card security measures 
and upgrades to comply with PCI card security requirements, but it 
hasn't made them immune to data breaches and fraud. The card networks 
have made those decisions for merchants and the increases in fraud 
demonstrate that their decisions have not been as effective as they 
should have been.
Improved Technology Solutions
    There are technologies available that could reduce fraud. An 
overhaul of the fraud-prone cards that are currently used in the U.S. 
market is long overdue. As I noted, requiring the use of a PIN is one 
way to reduce fraud. Doing so takes a vulnerable piece of data (the 
card number) and makes it so that it cannot be used on its own. This 
ought to happen not only in the brick-and-mortar environment in which a 
physical card is used but also in the online environment in which the 
physical card does not have to be used. Canada, for example, is 
exploring the use of a PIN for online purchases. The same should be 
true here. Doing so would help directly with the 90 percent of U.S. 
fraud which occurs online. It is not happenstance that automated teller 
machines (ATMs) require the entry of a PIN before dispensing cash. 
Using the same payment cards for purchases should be just as secure as 
using them at ATMs.
    Protecting all cards with a PIN instead of a signature is the 
single most important fraud protection step that could be taken 
quickly. It's proven, it's effective, and it's relatively easily 
implementable. PIN debit cards are close to ubiquitous worldwide, and 
readily producible in the U.S. Chip is desirable add-on. If speed of 
implementation is of importance, then substituting PIN for signature is 
preferable to implementing Chip. More than twice as many U.S. terminals 
are ready to accept PIN cards today, than are chip ready. Despite this, 
one major card brand continues to denigrate PINs in favor of signature, 
in part because they can collect more fees with fraud-prone signature 
transactions.\17\
---------------------------------------------------------------------------
    \17\ See Appendix A. This document was unsealed in 2010 from the 
record of the In re Visa Check/MasterMoney antitrust litigation.
---------------------------------------------------------------------------
    Cards should also be smarter and use dynamic data rather than 
magnetic stripes. In much of the world this is done using computer 
chips that are integrated into physical credit and debit cards. It is 
important to note, however, that there are many types of technologies 
that may be employed to make this upgrade. EMV, which is an acronym for 
Europay, MasterCard and Visa, is merely one particular proprietary 
technology. As the name indicates, EMV was established by Europay, 
MasterCard and Visa. A proprietary standard could be a detriment to the 
other potentially competitive networks.\18\ Adopting a closed system, 
such as EMV, means we are locking out the synergistic benefits of 
competition.
---------------------------------------------------------------------------
    \18\ There are issues with EMV because the technology is just one 
privately owned solution. For example, EMV includes specifications for 
near field communications that would form the technological basis of 
Visa and MasterCard's mobile payments solutions. That raises serious 
antitrust concerns for retailers because we are just starting to get 
some competitors exploring mobile payments. If the currently dominant 
card networks are able to lock-in their proprietary technology in a way 
that locks-out competition in mobile payments, that would be a bad 
result for merchants and consumers who might be on the verge of 
enjoying the benefits of some new innovations and competition.
    So, while chip cards would be a step forward in terms of improving 
card products, if EMV is forced as the chip card technology that must 
be used--rather than an open-source chip technology which would 
facilitate competition and not predetermine mobile payment market-
share--it could be a classic case of one step forward and two steps 
backward.
---------------------------------------------------------------------------
    But even within that closed framework, it should also be noted that 
everywhere in the world that EMV has been deployed to date the card 
networks have required that the cards be used with a PIN. That makes 
sense. But here, the dominant card networks are proposing to force 
chips (or even EMV) on the U.S. market without requiring PIN 
authentication. Doing that makes no sense and loses a significant part 
of the fraud prevention benefits of chip technology. To do otherwise 
would mean that merchants would spend billions to install new card 
readers without they or their customers obtaining PINs' fraud-reducing 
benefits. We would essentially be spending billions to combine a 1990s 
technology (chips) with a 1960s relic (signature) in the face of 21st 
century threats.
    Another technological solution that could help deter and prevent 
data breaches and fraud is encryption. Merchants are already required 
by PCI standards to encrypt cardholder data but, as noted earlier, not 
everyone in the payments chain is required to be able to accept data in 
encrypted form. That means that data may need to be de-encrypted at 
some points in the process. Experts have called for a change to require 
``end-to-end'' (or point-to-point) encryption which is simply a way to 
describe requiring everyone in the payment-handling chain to accept, 
hold and transmit the data in encrypted form.
    According to the September 2009 issue of the Nilson Report ``most 
recent cyberattacks have involved intercepting data in transit from the 
point of sale to the merchant or acquirer's host, or from that host to 
the payments network.'' The reason this often occurs is that ``data 
must be decrypted before being forwarded to a processor or acquirer 
because Visa, MasterCard, American Express, and Discover networks can't 
accept encrypted data at this time.'' \19\
---------------------------------------------------------------------------
    \19\ The Nilson Report, Issue 934, Sept. 2009 at 7.
---------------------------------------------------------------------------
    Keeping sensitive data encrypted throughout the payments chain 
would go a long way to convincing fraudsters that the data is not worth 
stealing in the first place--at least, not unless they were prepared to 
go through the arduous task of trying to de-encrypt the data which 
would be necessary in order to make use of it. Likewise, using PIN-
authentication of cardholders now would offer some additional 
protection against fraud should this decrypted payment data be 
intercepted by a criminal during its transmission ``in the clear.''
    Tokenization is another variant that could be helpful. Tokenization 
is a system in which sensitive payment card information (such as the 
account number) is replaced with another piece of data (the ``token''). 
Sensitive payment data could be replaced with a token to represent each 
specific transaction. Then, if a data breach occurred and the token 
data were stolen, it could not be used in any other transactions 
because it was unique to the transaction in question. This technology 
has been available in the payment card space since at least 2005.\20\ 
Still, tokenization is not a panacea, and it is important that 
whichever form is adopted be an open standard so that a small number of 
networks not obtain a competitive advantage, by design, over other 
payment platforms
---------------------------------------------------------------------------
    \20\ For information on Shift4's 2005 launch of tokenization in the 
payment card space see http://www.internetretailer.com/2005/10/13/
shift4-launches-security-tool-that-lets-merchants-re
-use-credit.
---------------------------------------------------------------------------
    In many models tokenization occurs ``after the fact''--generally 
post authorization. Thus some fraud risk remains. To deal with this 
point-to-point encryption is preferred and would be complimentary to 
tokenization. The former would occur between the card being read and 
the assignment of a token. From the merchant's perspective, 
tokenization involves significant operational changes and could carry 
significant out-of-pocket costs. Despite that, for the majority of 
transactions, tokenization still may not address both ends of the 
security/authentication equation as well as would PIN and Chip. It has 
greatest utility in the 6 percent of transactions that currently do not 
occur face-to-face. Consequently, while point-to-point encryption and 
tokenization could be valuable adjuncts to PIN and Chip authentication, 
they are not a substitute.
    In addition, in some configurations, mobile payments offer the 
promise of greater security as well. In the mobile setting, consumers 
won't need to have a physical card--and they certainly won't replicate 
the security problem of physical cards by embossing their account 
numbers on the outside of their mobile phones. It should be easy for 
consumers to enter a PIN or password to use payment technology with 
their smart phones. Consumers are already used to accessing their 
phones and a variety of services on them through passwords. Indeed, if 
we are looking to leapfrog the already aging current technologies, 
mobile-driven payments may be the answer.
    Indeed, as much improved as they are, chips are essentially dumb 
computers. Their dynamism makes them significantly more advanced than 
magstripes, but their sophistication pales in comparison with the 
common smartphone. Smartphones contain computing powers that could 
easily enable comparatively state-of-the-art fraud protection 
technologies. The phones soon may be nearly ubiquitous, and if their 
payment platforms are open and competitive, they will only get better.
    The dominant card networks have not made all of the technological 
improvements suggested above to make the cards issued in the United 
States more resistant to fraud, despite the availability of the 
technology and their adoption of it in many other developed countries 
of the world, including Canada, the United Kingdom, and most countries 
of Western Europe.
    In this section, we have merely described some of the solutions 
available, but the United States isn't using any of them the way that 
it should be. While everyone in the payments space has a responsibility 
to do what they can to protect against fraud and data theft, the card 
networks have arranged the establishment of the data security 
requirements and yet, in light of the threats, there is much left to be 
desired.
A Better System
    How can we make progress toward the types of solutions that would 
reduce the crimes of data theft and fraud? One thing seems clear at 
this point: we won't get there by doing more of the same. We need PIN-
authentication of card holders, regardless of the chip technology used 
on newly issued cards. We also need chip cards that use open standards 
and allow for competition among payment networks as we move into a 
world of growing mobile commerce. Finally, we need companies throughout 
the payment system to work together on achieving end-to-end encryption 
so that there are no weak links in the system where sensitive card 
payment information may be acquired more easily than in other parts of 
the system.
Steps Taken by Retailers After Discovery of a Breach of Security
    In our view, it is after a fulsome evaluation of data breaches, 
fraud, the payments system and how to improve each of those areas in 
order to deter and prevent problems that we should turn to the issue of 
what to do when breaches occur. Casting blame and trying to assign 
liability is, at best, putting the cart before the horse and, at worst, 
an excuse for some actors to ignore their own responsibility for trying 
to prevent these crimes.
    One cannot reasonably demand greater security of a system than the 
system is reasonably capable of providing. Some participants act as if 
the system is more robust than it is. Currently, when the existing card 
products are hit in a criminal breach, that company is threatened from 
many sides. The threats come from entities seeking to exact fines and 
taking other penalizing action even before the victimized company can 
secure its network from further breaches and determine through a 
forensic analysis what has happened in order to notify potentially 
affected customers. For example, retailers that have suffered a breach 
are threatened with fines for the breach based on allegations of non-
compliance with PCI rules (even when the company has been certified as 
PCI-compliant). Other actors may expect the breached party to pay for 
all of the fraudulent transactions that take place on card accounts 
that were misused, even though the design of the cards facilitated 
their subsequent counterfeiting. Indeed, some have seriously suggested 
that retailers reimburse financial institutions for the cost of 
reissuing more fraud-prone cards. And, as a consequence of the breach, 
some retailers must then pay higher fees on its card transactions going 
forward. Retailers pay for these breaches over and over again, despite 
often times being victims of sophisticated criminal methods not 
reasonably anticipated prior to the attack.
    Breaches require retailers to devote significant resources to 
remedy the breach, help inform customers and take preventative steps to 
ward off future attacks and any other potential vulnerabilities 
discovered in the course of the breach investigation. Weeks or months 
of forensic analysis may be necessary to definitively discover the 
cause and scope of the breach. Any discovered weaknesses must be shored 
up. Quiet and cooperative law enforcement efforts may be necessary in 
an effort to identify and capture the criminals. Indeed, law 
enforcement may temporarily discourage publication of the breach so as 
to not alert the perpetrators that their efforts have been detected.
    It is worth noting that in some of these cases involving payment 
card data, retailers discover that they actually were not the source of 
the breach and that someone else in the payments chain was victimized 
or the network intrusion and theft occurred during the transmission of 
the payment card data between various participants in the system. For 
this reason, early attempts to assign blame and shift costs are often 
misguided and policy makers should take heed of the fact that often the 
earliest reports are the least accurate. Additionally, policy makers 
should consider that there is no independent organization devoted to 
determining where a breach occurred, and who is to blame--these 
questions are often raised in litigation that can last for years. This 
is another reason why it is best to at least wait until the forensic 
analysis has been completed to determine what happened. Even then, 
there may be questions unanswered if the attack and technology used was 
sophisticated enough to cover the criminals' digital tracks.
    The reality is that when a criminal breach occurs, particularly in 
the payments system, all of the businesses that participate in that 
system and their shared customers are victimized. Rather than resort to 
blame and shame, parties should work together to ensure that the breach 
is remedied and steps are taken to prevent future breaches of the same 
type and kind.
Legislative Solutions
    In addition to the marketplace and technological solutions 
suggested above, NRF also supports a range of legislative solutions 
that we believe would help improve the security of our networked 
systems, ensure better law enforcement tools to address criminal 
intrusions, and standardize and streamline the notification process so 
that consumers may be treated equally across the Nation when it comes 
to notification of data security breaches.
    From many consumers' perspective payment cards are payment cards. 
As has been often noted, consumers would be surprised to learn that 
their legal rights, when using a debit card--i.e. their own money--are 
significantly less than when using other forms of payment, such as a 
credit card. It would be appropriate if policy makers took steps to 
ensure that consumers' reasonable expectations were fulfilled, and they 
received at least the same level of legal protection when using their 
debit cards as they do when paying with credit.
    In addition, NRF supports the passage by Congress of the bipartisan 
``Cyber Intelligence Sharing and Protection Act'' (H.R. 624) so that 
the commercial sector can lawfully share information about cyber-
threats in real-time and enable companies to defend their own networks 
as quickly as possible from cyber-attacks as soon as they are detected 
elsewhere by other business.
    We also support legislation that provides more tools to law 
enforcement to ensure that unauthorized network intrusions and other 
criminal data security breaches are thoroughly investigated and 
prosecuted, and that the criminals that breach our systems to commit 
fraud with our customers' information are swiftly brought to justice.
    Finally, and for nearly a decade, NRF has supported passage of 
legislation that would establish one, uniform Federal breach 
notification law that would be modeled on, and preempt, the varying 
breach notification laws currently in operation in 46 states, the 
District of Columbia and Federal territories. A Federal law could 
ensure that all entities handling the same type of sensitive consumer 
information, such as payment card data, are subject to the same 
statutory rules and penalties with respect to notifying consumers of a 
breach affecting that information, Further, a preemptive Federal breach 
notification law would allow retailers and other businesses that have 
been victimized by a criminal breach to focus their resources on 
remedying the breach and notifying consumers rather than hiring outside 
legal assistance to help guide them through the myriad and sometimes 
conflicting set of 50 data breach notification standards in the state 
and Federal jurisdictions. Additionally, the use of one set of 
standardized notice rules would permit the offering to consumers of the 
same notice and the same rights regardless of where they live.
Conclusion
    In closing three points are uppermost.
    First, retailers take the increasing incidence of payment card 
fraud very seriously. We do so as Main Street members of the community, 
because it affects our neighbors and our customers. We do so as 
businesses, because it affects the bottom line. Merchants already bear 
at least an equal, and often a greater, cost of fraud than any other 
participant in the payment card system. We have every reason to want to 
see fraud reduced, but we have only a portion of the ability to make 
that happen. We did not design the system; we do not configure the 
cards; we do not issue the cards. We will work to effectively upgrade 
the system, but we cannot do it alone.
    Second, the vast majority of breaches are criminal activity. The 
hacked party, whether a financial institution, a card network, a 
processor, a merchant, a governmental institution, or a consumer is the 
victim of a crime. Traditionally, we don't blame the victim of violence 
for the resulting stains; we should be similarly cautious about 
penalizing the hackee for the hack. The payment system is complicated. 
Every party has a role to play; we need to play it together. No system 
is invulnerable to the most sophisticated and dedicated of thieves. 
Consequently, eliminating all fraud is likely to remain an aspiration. 
Nevertheless, we will do our part to help achieve that goal.
    Third, it is long past time for the U.S. to adopt PIN and chip card 
technology. The PIN authenticates and protects the consumer and the 
merchant. The chip authenticates the card to the bank. If the goal is 
to reduce fraud we must, at a minimum, do both.
                               Appendix A
                              Exhibit 499
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                        Retail Industry Leaders Association
                                      Arlington, VA, March 26, 2014

Hon. Jay Rockefeller,
Chairman,
Committee on Commerce, Science, and Transportation,
United States Senate
Washington, DC.

Hon. John Thune,
Ranking Member,
Committee on Commerce, Science, and Transportation,
United State Senate,
Washington, DC.

Dear Chairman Rockefeller and Ranking Member Thune:

    On behalf of the Retail Industry Leaders Association (RILA), thank 
you for the opportunity to offer our comments on the record for the 
Commerce, Science & Transportation Committee's hearing, ``Protecting 
Personal Consumer Information from Cyber Attacks and Data Breaches.'' 
By way of background, RILA is the trade association of the world's 
largest and most innovative retail companies. RILA promotes consumer 
choice and economic freedom through public policy and industry 
operational excellence. Its members include more than 200 retailers, 
product manufacturers, and service suppliers, which together account 
for more than $1.5 trillion in annual sales, millions of American jobs 
and operate more than 100,000 stores, manufacturing facilities and 
distribution centers domestically and abroad.
    Retailers take the threat of cyber-attacks extremely seriously and 
work diligently every day to stay ahead of the sophisticated criminals 
behind them. Retail companies individually, and the industry 
collectively, are taking aggressive steps to counter these threats. 
While enhanced security measures help retailers thwart thousands of 
cyber-attacks every day, unfortunately some attacks are successful and 
the resulting incidents can affect millions of our customers. For 
retailers, such a breach can damage the relationship that we have with 
our customers. However, more broadly, a breach can undermine consumers' 
faith in the electronic payments system as stolen information can be 
used to produce fraudulent cards for illicit use or put the customer at 
risk of identity theft.
    Given these facts, retailers take extraordinary steps to strengthen 
overall cybersecurity and prevent attacks. Retailers secure their 
systems with substantial investments in experts and technology. 
Further, they employ many tactics and tools to secure data, such as 
data encryption, tokenization and other redundant internal controls, 
including a separation of duties. While these enhanced security 
measures help to rebuff attacks, retailers are constantly working to 
expand existing cybersecurity efforts.
    Collaboration within the industry and coordination with other 
stakeholders is essential. In January, RILA launched its Cybersecurity 
and Data Privacy Initiative which focuses on strengthening overall 
cybersecurity. As part of this initiative, RILA has formed the Retail 
Cybersecurity Leaders Council (RCLC) and we are additionally calling 
for the development of Federal data breach notification legislation. 
Made up of senior retail executives responsible for cybersecurity, the 
RCLC will aim to improve industry-wide cybersecurity by providing a 
trusted forum for all stakeholders to share threat information and 
discuss effective security solutions.
    Subsequently, RILA formed a partnership with the National Cyber-
Forensics and Training Alliance (NCFTA) to enhance cybersecurity 
information sharing and expand retailers' proactive and vigilant 
approach to cyber threats to protect consumers against criminals. 
Partnering with the NCFTA is one of several approaches RILA is taking 
to enhance collaboration across the entire payments system. This 
partnership will help retailers leverage the NCFTA's vast network of 
cybersecurity threat intelligence and resources, and will advance the 
RCLC's mission of information sharing amongst retailers.
    RILA and the retail industry have taken strides to improve security 
and form strategic partnerships to improve information sharing. RILA 
calls on Congress to enact Federal data breach notification legislation 
that is practical, proportional and sets a single national standard, 
replacing the patchwork of state laws currently in place. A Federal 
standard will help ensure that customers receive timely and accurate 
information following a breach, and any legislation considered by 
Congress should include three essential provisions. First, strong state 
pre-emption language that would create a single national standard 
replacing the current patchwork of 46 state notification laws that add 
unnecessary complexity to the process. Second, legislation should 
consider the practical realities following a breach. Specifically, 
adequate time must be given prior to notification in order to provide 
reasonable time to secure the breached environment, conduct a thorough 
forensics investigation, and then based off this assessment, the 
ability to determine who may have been affected by the cyber-attack and 
what information was compromised. Furthermore, reasonable delay 
provisions should be included at the request of law enforcement for 
investigative purposes or for national security reasons. Third, 
notification requirements should be linked to risk of harm, whether or 
not the compromised information is in usable form to commit financial 
fraud or identity theft.
    While retailers understand and manage their internal systems and 
security, they have little or no influence over the actions taken by 
other players in the payments universe, which may have enormous 
implications on fraud. Instead, retailers must rely on others in the 
payments ecosystem to dictate critical security decisions, including 
card technology, retailer terminals, and when data can be encrypted 
during the transmission between retailers and the card networks. 
Retailers have long argued that the card technology in place today is 
antiquated; the unfortunate reality is that criminals can use stolen 
consumer data to create counterfeit cards with stunning ease. For 
years, retailers have urged banks and card networks to adopt the 
enhanced fraud prevention technology in use around the world here in 
the United States. While their resistance to doing so has been great, 
retailers continue to press all other stakeholders in the payments 
system to make this a priority.
    The RILA plan focused on four major steps that should be taken to 
improve the security of debit and credit cards. First, quickly 
establish a plan to retire antiquated magnetic stripe technology in 
place today. Second, require cardholders to input a PIN on all card 
transactions. Banks require that cardholders enter a PIN number to 
withdraw money from an ATM; the same fraud protection should apply to 
retail transactions. Third, establish a roadmap to migrate to chip-
based smart card technology with PIN security, also known as Chip and 
PIN. Finally, recognizing that card security must outpace criminal 
advancements, the members of the payments ecosystem must work together 
to identify new technologies and long-term, comprehensive solutions to 
the threats.
    We recognize that retailers are only one piece of the payments 
ecosystem, and so our Cybersecurity and Data Privacy Initiative also 
called for collaboration among retailers, banks and card networks to 
advance improved payments security. In February, RILA joined with the 
Financial Services Roundtable (FSR) to form the Merchant and Financial 
Services Industries Cybersecurity Partnership with 16 other trade 
associations representing both merchants and financial services 
companies. The Partnership will enhance system-wide collaboration and 
will explore paths to increased threat information sharing, better card 
security technology, and maintaining the trust of customers. 
Specifically, the partnership is focusing on improving overall security 
across the payments ecosystem, and bolstering consumer confidence in 
the security of their payment data and the systems used to process 
payments. The group has identified five focus areas to help achieve the 
goals: threat information sharing, cybersecurity risk mitigation, 
enhanced security for card present transactions, enhanced security for 
card-not-present and mobile, and data breach notification and cyber 
security legislation. We have little doubt that all parties share the 
goals of protecting consumers and maintaining confidence in our 
payments systems. In order to accomplish these goals, we must set aside 
our previous disagreements and work together on common solutions. That 
is why RILA is reaching out to representatives across the business 
community, including the card networks and financial institutions of 
all sizes, in an effort to work together to identify near-and long-term 
solutions.
    In closing, by working together with public-private sector 
stakeholders, our ability to develop innovative solutions and 
anticipate threats will grow, enhancing our collective security and 
giving our customers the service and peace of mind they deserve. We 
appreciate the opportunity to submit these comments for the record and 
we look forward to working with you and your staff on these issues 
moving forward.
            Sincerely,
                                                Bill Hughes
                         Senior Vice President, Government Affairs.
                                 ______
                                 
 Response to Written Question Submitted by Hon. John D. Rockefeller IV 
                         to Hon. Edith Ramirez
    Question. Senators Feinstein, Pryor, Nelson, and I have introduced 
S. 1976, the Data Security and Breach Notification Act of 2014. The 
bill would, among other things, require entities that maintain personal 
information on consumers to establish protocols that secure 
information. The FTC would be tasked with issuing regulations that 
detail the statutory scope of this mandate.
    The FTC has a long history of using its existing authority under 
Section 5 of the FTC Act to pursue companies that fail to adequately 
protect consumers' personal information. The agency has also called for 
data security legislation.
    Given its success with using Section 5, please explain why the 
agency sees the need for data security legislation such as S. 1976.
    Answer. The FTC supports Federal legislation such as S. 1976 that 
would (1) strengthen its existing authority governing data security 
standards on companies and (2) require companies, in appropriate 
circumstances, to provide notification to consumers when there is a 
security breach. While the majority of states have data breach 
notification laws, few have specific laws requiring general data 
security policies and procedures. Breach notification and data security 
standards at the Federal level would extend notifications to all 
citizens nationwide and create a strong and consistent national 
standard that would simplify compliance by businesses while ensuring 
that all American consumers are protected.
    Specifically, the FTC supports legislation that would give the 
Commission the authority to seek civil penalties to help deter unlawful 
conduct, jurisdiction over non-profits, and rulemaking under the 
Administrative Procedure Act. We have urged Congress to allow the FTC 
to seek civil penalties for all data security and breach notice 
violations in appropriate circumstances to help ensure effective 
deterrence. In addition, enabling the FTC to bring cases against non-
profits--such as educational institutions and health facilities, which 
have been the subject of a number of breaches--would help ensure that 
consumer data is adequately protected regardless of what type of entity 
collects or maintains it.
    Finally, rulemaking authority under the Administrative Procedure 
Act would enable the FTC to respond to changes in technology when 
implementing the legislation. For example, whereas a decade ago it 
would be both difficult and expensive for a company to track an 
individual's precise geolocation, the explosion of mobile devices has 
made such information readily available. As technology and business 
models change and new forms of consumer data can be used to perpetrate 
identity theft, fraud, and other types of harm, APA rulemaking 
authority would help ensure that the law is kept up to date.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                           Hon. Edith Ramirez
    Question 1. In your testimony, you reference ``geolocation 
information'' as a rapidly emerging technology. The FTC has also 
referred previously to ``precise geolocation data,'' for instance in a 
2012 Commission report, proposing to protect the privacy of sensitive 
data including ``precise geolocation data.''
    In the 2012 report, the FTC recommended that, before any firm could 
collect, store or use such data, it would be required to ``provide 
prominent disclosures and obtain affirmative express consent before 
using data in a manner materially different than claimed at the time of 
collection.'' This sounds reasonable in certain circumstances. However, 
the Commission did not define the term ``precise geolocation data.'' 
The Commission does advise that geolocation data that cannot be 
reasonably linked to a specific consumer would not trigger a need to 
provide a consumer protection mechanism, and further advises that if a 
firm takes steps to de-identify data, it would not need to provide this 
mechanism. However, because the FTC does not define relevant terms, I 
have heard that there is some concern for how practitioners in the 
mapping and surveying fields can comply with the guidance. 
Specifically, some stakeholders are concerned that a private firm would 
need to get a citizen's approval before developing mapping for an E-911 
and emergency response management system. What does the FTC consider to 
be ``precise geolocation data''?
    Answer. Precise geolocation data includes any information that can 
be used to pinpoint a consumer's physical location. For example, many 
mobile applications (``apps'') collect a user's longitude and latitude 
coordinates, which allows them to translate a user's exact location on 
a map. It does not include general location data, such as a consumer's 
zip code, city, or town. In the context of the Children's Online 
Privacy Protection Act (COPPA), the statute and the Commission's COPPA 
Rule require parental consent for the collection of geolocation 
information sufficient to identify street name and name of city or 
town.

    Question 1a. When mapping for an E-911 or emergency response 
management system, what level of de-identification is needed? Does a 
company need to secure everyone's prior approval, or else redact from 
the map every citizen for whom they did not get prior consent, when 
mapping for an E-911 or emergency response management system?
    Answer. In its 2012 Privacy Report, the Commission set forth a 
privacy framework that calls on companies to incorporate privacy by 
design, simplified consumer choice, and increased transparency into 
their business operations. It is important to note that the framework 
is a voluntary set of best practices designed to assist companies as 
they operationalize privacy and data security practices within their 
businesses. It neither imposes new legal obligations, nor is it 
intended as a template for law enforcement.
    The framework calls on companies to offer an effective consumer 
choice mechanism unless the data practice is consistent with the 
``context of the interaction'' between the consumer and the company. 
Under this approach, whether a company should provide choice ``turns on 
the extent to which the practice is consistent with the context of the 
transaction or the consumer's existing relationship with the business, 
or is required or specifically authorized by law.'' \1\ Mapping for an 
E-911 or emergency response management system would generally fall 
within the context of the interaction, and therefore companies that 
collect and use of geolocation information for these purposes do not 
need to provide a consumer choice mechanism.
---------------------------------------------------------------------------
    \1\ Federal Trade Commission, Protecting Consumer Privacy in an Era 
of Rapid Change 38-39 (Mar. 2012).

    Question 1b. I understand the Commission received significant 
public comment on this issue from engineers, architects, planners, 
surveyors, mappers and the Federal Geographic Data Committee, which 
represents Federal mapping agencies. Can you tell me what the FTC's 
thinking is on this issue, and what its plans are to address the 
stakeholders' concerns?
    Answer. When members of the geospatial industry collect addresses, 
parcel information, or other geolocation or survey data that is tied to 
public land records, this practice would generally fall within the 
``context of the interaction'' standard. As any consumer who has 
purchased a house knows, public land record data is collected, used, 
and linked to specific consumers as a matter of course in connection 
with real estate transactions as well as property tax assessments and 
similar purposes. Accordingly, companies that collect and use this data 
for these purposes would generally not need to provide a consumer 
choice mechanism.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                           Hon. Edith Ramirez
    Question 1. Earlier this year, the FTC testified before the Senate 
Banking Committee on safeguarding consumers when there is a security 
breach. What precisely triggers notification? There are 46 different 
state laws. In your opinion, what should be the threshold warranting a 
notification? Since the combination of certain types of personal 
information is more sensitive than each piece individually, what type 
of information being breached should warrant a notification to 
consumers?
    Answer. It is important for both consumers and businesses that the 
trigger for breach notification is balanced. We want to ensure that 
consumers learn about breaches that could result in identity theft, 
fraud, or other harm so they can take steps to help protect themselves, 
but we do not want to notify consumers when the risk of harm is 
negligible, as over-notification could cause consumers to become 
confused or to become numb to the notices they receive.
    Consumers should be given notice when information is breached that 
could be misused to harm consumers. At a minimum, companies should 
notify consumers of a breach of Social Security numbers because this 
information can be used to commit identity theft, even if not paired 
with an individual's name and address. Similarly, an account username 
and password can be used to gain access to an account, even if the 
thief does not have the name of the account holder. Additionally, in 
the event of changing technology or business models, the FTC should be 
able to exercise rulemaking authority to modify the definition of 
personal information.
    I am happy to work with the Committee as it considers legislation 
on this important matter.

    Question 2. You testified regarding your important work in civil 
law enforcement against unfair or deceptive acts in data security 
practices. Is it safe to assume that you believe the Commission has 
existing authority to pursue enforcement actions against private 
businesses that fail to adopt reasonable data security practices?
    Answer. Yes. The Commission has authority to challenge companies' 
data security practices that are unfair or deceptive under Section 5 of 
the FTC Act, and we have used this authority to settle 52 data security 
cases to date. In addition, Congress has given the FTC authority to 
bring data security enforcement actions against non-bank financial 
institutions under the Gramm-Leach-Bliley Act, against consumer credit 
reporting agencies under the Fair Credit Reporting Act, and against 
websites and online services directed at children under the Children's 
Online Privacy Protection Act.
    The Commission has called for data security legislation that would 
strengthen its existing authority. For example, we currently lack 
authority under Section 5 to obtain civil penalties, an important 
remedy for deterring violations. Likewise, enabling the FTC to bring 
cases against non-profits, which have been the source of a number of 
breaches, would help ensure that whenever personal information is 
collected from consumers, entities that maintain such data take 
reasonable measures to protect it.

    Question 3. What additional tools do law enforcement need to share 
information about ongoing threats and attacks with the private sector?
    Answer. Information sharing is an important part of the fight 
against those who attempt to exploit consumers' personal information. 
Information exchanges such as Information Sharing and Analysis Centers 
(ISAC) enable companies to pool information about security threats and 
defenses so that they can prepare for new kinds of attacks and quickly 
address potential vulnerabilities. ISACs may also share information 
with law enforcement agencies, and vice-versa. The FTC is considering, 
at the request of members of Congress, the formation of an ISAC to 
enable retailers to share information. We have begun consulting with 
other ISACs and industry groups to explore the formation of such a 
group.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                           Hon. Edith Ramirez
    Question 1. In your testimony, you state that ``having a strong and 
consistent national requirement would simplify compliance by businesses 
while ensuring that all consumers are protected.'' Do you believe 
preempting state laws in favor of a strong national requirement would 
benefit, not harm, consumers?
    Answer. I support a Federal data security and breach notification 
law that would preempt state law, but only if such a standard is 
sufficiently strong and the states are given the ability to enforce the 
law. If a consistent nationwide standard came at the expense of 
weakening existing state legal protections for consumers' information, 
I would not support the law.

    Question 2. Would a uniform Federal data breach notification law 
enforced by the Commission, as well as states attorneys general, 
provide a significantly greater level of protection for consumers than 
currently exists?
    Answer. While the majority of states have data breach notification 
laws, few have specific laws requiring general data security policies 
and procedures. Breach notification and data security standards at the 
Federal level would extend notifications to all consumers nationwide 
and create a level playing field so that businesses operating in 
numerous states can apply one standard. A Federal law could create 
uniform protections for all American consumers.

    Question 3. Many different players in the Internet ecosystem 
increasingly collect and store the same or similar information. Should 
they all be subject to the same standards for data security?
    Answer. All companies that collect and handle sensitive consumer 
information should be required to implement reasonable data security 
measures. We believe that reasonableness is the appropriate standard 
because it allows a company flexibility to develop a data security 
program based on factors such as the sensitivity and volume of consumer 
information it holds; the size and complexity of its data operations; 
and the cost of available tools to improve security and reduce 
vulnerabilities. The Commission has emphasized a process-based approach 
to data security that includes designating an individual or individuals 
responsible for data security; conducting risk assessments; designing a 
security program to address risks, including administrative, physical, 
and technical safeguards; and adjusting the program to address changes.

    Question 4. In your written testimony, you express concern about 
data security legislation's ability to keep pace with technology. Would 
a ``reasonableness'' standard help address that concern because what is 
reasonable today may not be reasonable tomorrow as technology evolves?
    Answer. That is correct. The Commission's reasonableness standard 
and emphasis on a process-based approach to data security encourages 
companies to reevaluate and adjust their programs periodically in light 
of changes to the types of information they collect as well as changes 
in the marketplace, including changes in technology.
    Additionally, we support Federal data security and breach 
notification legislation that would, among other things, authorize 
rulemaking under the Administrative Procedure Act to give the 
Commission the flexibility to implement the statute by making changes 
when appropriate. For example, this authority should include the 
authority to modify the definition of personal information in response 
to changes in technology and changing threats.

    Question 5. You mention in your testimony that the data security 
provisions of both the Fair Credit Reporting Act and the Children's 
Online Privacy Protection Act rely on a ``reasonableness'' standard. 
Should comprehensive Federal data security legislation also be subject 
to a reasonableness standard?
    Answer. Yes. A reasonableness standard would ensure that companies 
have strong protections in place to protect consumer information as 
well as flexibility when developing and implementing any data security 
program.
                                 ______
                                 
Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                          to John J. Mulligan
    Question 1. Target's representatives told us that its point-of-sale 
(POS) devices at U.S. stores use different operating systems and 
software than its devices at Canadian stores. According to published 
reports, U.S. stores run on Target-designed software that is used with 
Windows XP Embedded and Windows Embedded for Point of Service, while 
Canadian locations use POS devices from Retalix, an NCR company.
    Please explain why Target uses different POS operating systems and 
software in the United States and Canada.
    Answer. The U.S. and Canada have different payment card 
technologies in use in the respective countries, resulting in the use 
of different payment systems and software. As of 2013, the overwhelming 
majority of payment cards issued in the U.S. were not chip-enabled. 
This remains the case today.
    In the U.S., Target processes point of sale transactions using a 
Target-built application. We are in the process of completing the 
implementation of Windows Embedded for Point of Sale (POS Ready 7) on 
all of our registers in 2014. In Canada, Target processes point of sale 
transactions using Retalix in order to process chip-enabled cards, 
which are required in Canada.

    Question 1a. The 2013 breach was limited to Target's U.S. stores; 
its Canadian stores were not affected. Do you believe weaknesses in 
Target's POS operating system or software used for U.S. stores allowed 
or contributed to the breach?
    Answer. As of 2013, the overwhelming majority of payment cards 
issued in the U.S. were not chip-enabled. This remains the case today. 
In Canada, credit and debit cards are required to be chip-enabled. The 
malware that was designed to capture card data at Target stores in the 
U.S. would not be able to capture the same information from a chip-
enabled card transaction. Unlike Canada, however, chip-enabled cards 
are not common, let alone standard, in the U.S.
    Target is accelerating our $100 million investment in the adoption 
of chip technology because we believe it is critical to enhancing 
consumer protections. We have already installed approximately 10,000 
chip-enabled payment devices in Target stores and expect to complete 
the installation in all Target stores by this September, six months 
ahead of schedule. We also expect to begin to issue chip-enabled Target 
REDcards and accept all chip-enabled cards by early 2015. As a founding 
member and steering committee member of the EMV Migration Forum, we 
will continue to lead the adoption of these technologies across the 
payment ecosystem.

    Question 1b. Going forward, does Target plan to upgrade its POS 
operating systems and software used in its U.S. locations? If so, how?
    Answer. While it is not a requirement, we believe the adoption of 
chip technology is critical to enhancing consumer protections. As noted 
previously, we have already installed approximately 10,000 chip-enabled 
payment devices in Target stores and expect to complete the 
installation in all Target stores by this September, six months ahead 
of schedule. In the U.S., we are in the process of completing the 
implementation of Windows Embedded for Point of Sale (POS Ready 7) on 
all of our registers in 2014.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            John J. Mulligan
    Question 1. Looking beyond just the issue of credit and debit card 
data, it is my understanding that Target--and many other retailers--
collect a substantial amount of personal consumer information for other 
purposes.
    For example, it is my understanding that a number of retailers 
sometimes require customers to present a drivers' license--and either 
scan or copy all of the information on that license--when they are 
making a return, even when they have a receipt for the return.
    Does Target collect this type of information from consumers when 
they engage in returns or other related transactions?
    Answer. Target swipes or scans guest government-issued 
identification cards (IDs) in connection with the following limited 
types of transactions:

  1.  For the purchase of age-restricted item transactions such as 
        alcohol and M-rated video games;

  2.  For the purchase of certain medically restricted item 
        transactions, such as pseudoephedrine and dextromethorphan;

  3.  For returns without receipt;

  4.  For transactions in which a guest pays for their merchandise and 
        then leaves the store without the merchandise, but later 
        returns to retrieve the merchandise;

  5.  For certain high-risk check transactions;

  6.  For cash transactions above $10,000 in order to complete the 
        Internal Revenue Service (IRS) Form 8300, Report of Cash 
        Payments over $10,000; and

  7.  For tax-exempt transactions, such as sales to nonprofit 
        organizations in order to complete tax-exemption certificates.

    There are a handful of states in which IDs cannot be swiped because 
of state laws prohibiting swiping or because of the absence of a 
barcode on the state ID. In these states, cashiers manually key 
information from a guest's ID.
    When swiping a guest's ID, Target only collects the data that is 
relevant to the type of transaction. Additionally, information obtained 
during the ID swipe is not used for other purposes.

    Question 1a. If so, how is this information stored and used?
    Answer. When information is collected from a guest's ID, Target 
does not collect more personal information than necessary for the 
particular purpose for which the card is swiped and Target uses the 
information exclusively for that purpose. Guest information is stored 
for a fixed amount of time depending on the type of transaction. The 
information is secured. The information is not used for other purposes.

    Question 1b. Is that information also shared with any third-
parties?
    Answer. Target only shares information collected through ID swipes 
in the following instances: (1) for high risk check transactions Target 
may share information with vendors that assist Target in authorizing 
and processing check payments; (2) in certain states, as required by 
state law, Target provides state authorities information relating to 
pseudoephedrine purchases; (3) for cash transactions over $10,000, 
Target submits Form 8300 to the IRS; and (4) for tax-exempt 
transactions, Target may share tax exemption certificates with state 
tax auditors upon request. However, Target does not use or share 
information collected through ID swipes for marketing purposes.

    Question 1c. Is it ever deleted from your systems?
    Answer. Yes. Guest information is stored for a fixed amount of time 
depending on the type of transaction. The information is secured.

    Question 2. Do you allow customers to request a copy of any 
personal information file that Target maintains on them?
    Answer. In accordance with our privacy policy, Target guests can 
access or update their personal information.

    Question 2a. If so, how do they request it?
    Answer. Our privacy policy is available to our guests on 
Target.com. A guest can click a hyperlink, ``Contact Us'' to complete a 
form and submit their request. A guest can also contact Target by 
phone, e-mail or mail. If a guest has created a Target.com account, 
they can log in and update their account information, including 
contact, billing, and shipping information.

    Question 2b. If not, why not?
    Answer. N/A
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Kelly Ayotte to 
                            John J. Mulligan
    Question 1. As a former Attorney General, I can appreciate how 
crucial information sharing is by law enforcement to both retail stores 
and financial institutions. Can you both discuss your relationship with 
the FBI and the Secret Service (or DHS in general) when it comes to the 
flow of information that would affect a potential cyber-attack or data 
breach? Could this relationship be improved? What do you see as the 
best role for state and local law enforcement in this area?
    Answer. All businesses and their customers are facing frequent and 
increasingly sophisticated attacks by cyber criminals. In order to 
address this threat, none of us can go it alone. Protecting American 
businesses and consumers is a shared responsibility.
    Target deeply values our longstanding and ongoing partnership with 
law enforcement. For more than 20 years, we've established ourselves as 
a valuable partner to law enforcement in their efforts to strengthen 
public safety. We partner with public safety agencies on the local, 
state, and national level.
    Target participates in a number of initiatives to enhance 
information sharing including with the U.S. Department of Homeland 
Security (DHS). This outreach is focused on raising awareness, 
educating and informing these leaders on our vast public safety 
efforts, and educating them on our priorities and capabilities. Through 
this outreach we are able to highlight our unique approach and non-
traditional partnerships to address public safety challenges by 
developing crime solutions and supporting preparedness and resiliency 
initiatives. Target has played the convener role enabling them to share 
best practices across jurisdictions. Target also shared organizational 
leadership insights that could be applied across groups and hosts 
leadership training programs centered on Target's most effective 
leadership development courses, but revised and geared toward law 
enforcement and emergency managers.
    The Secret Service has been a valuable partner to Target as they 
continue to investigate the breach that occurred at Target in late 
2013. For example, on the evening of December 12, we were notified by 
the Justice Department of suspicious activity involving payment cards 
used at Target stores. We immediately started our internal 
investigation. On December 13, we met with the Justice Department and 
Secret Service.
    Target is a charter member and serves on the board of the FBI's 
Domestic Security Alliance Council (DSAC). DSAC is a strategic 
partnership between the U.S. Government and U.S. Private Industry. Its 
goal is to advance the Federal Bureau of Investigation (FBI)'s mission 
of preventing, detecting, and deterring criminal acts by facilitating 
strong, enduring relationships among its private industry members. In 
March 2014, Target became the first retailer to join the Financial 
Services Information Sharing and Analysis Center (FS-ISAC). The 
Financial Services Information Sharing & Analysis Center (FS-ISAC), is 
a non-profit private sector initiative developed by the financial 
services industry to help facilitate the detection, prevention, and 
response to cyber attacks and fraud activity.
    Target works closely with state and local law enforcement through 
our accredited forensic laboratories that specialize in forensics, 
audio and video analysis, and latent fingerprints. In addition, Target 
operates 14 Investigations Centers (ICs) nationwide that focus on 
providing investigative support to our stores and to law enforcement. 
Today, 30 percent of Target's lab caseload provides pro bono services 
to law enforcement agencies for violent felony cases that have nothing 
to do with Target.

    Question 2. What steps did Target take internally before notifying 
your customers that the company had potentially suffered a breach of 
security that may have affected their payment cards? Were you able to 
complete a forensic analysis of the breach before notifying customers? 
If not, why not?
    Answer. Our actions leading up to our public announcement on 
December 19--and since--have been guided by the principle of serving 
our guests. We moved quickly to share accurate and actionable 
information with the public. While the forensic analysis of the breach 
was far from complete, on December 15, we confirmed that criminals had 
infiltrated our system, installed malware on our point-of-sale network 
and potentially stolen guest payment card data. We then began notifying 
the payment processors and card networks, preparing to publicly notify 
our guests, and equipping call centers and stores with the necessary 
information and resources to address our guests' concerns. When we 
announced the intrusion on December 19, we used multiple forms of 
communication, including a mass-scale public announcement, e-mail, 
prominent notices on our website, and social media. The forensic 
analysis is estimated to be completed later in 2014.

    Question 3. What steps do you believe are reasonable, if not 
necessary, for breached companies to take before notifying potentially 
affected customers of a breach? In Target's breach over the holidays, 
for example, did you have all of the customer contact information you 
needed to individually contact your customers to let them know that 
they might be affected by the breach?
    Answer. Our actions leading up to our public announcement on 
December 19--and since--have been guided by the principle of serving 
our guests. We moved quickly to share accurate and actionable 
information with the public. On December 15, we confirmed that 
criminals had infiltrated our system, installed malware on our point-
of-sale network and potentially stolen guest payment card data. We then 
began notifying the payment processors and card networks, preparing to 
publicly notify our guests, and equipping call centers and stores with 
the necessary information and resources to address our guests' 
concerns. When we announced the intrusion on December 19, we used 
multiple forms of communication, including a mass-scale public 
announcement, e-mail, prominent notices on our website, and social 
media.

    Question 3a. For customers who simply made purchases in your store 
with payment cards and where you had no other contact information, did 
you subsequently obtain that information in order to notify these 
customers individually? If so, how did you do so?
    Answer. Target sent e-mails to guests for whom we had e-mail 
addresses. Target did not seek to obtain personal contact information 
for those whom which we did not already have personal contact 
information but we did take steps to notify individuals by following 
state statutes that allowed for substitute notice. State substitution 
notice methods include: (1) posting notice on our website; (2) 
providing notice by e-mail to each relevant guest for whom Target had 
an e-mail address; and (3) providing notice to national and state 
media.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Kelly Ayotte to 
                              Ellen Richey
    Question. As a former Attorney General, I can appreciate how 
crucial information sharing is by law enforcement to both retail stores 
and financial institutions. Can you both discuss your relationship with 
the FBI and the Secret Service (or DHS in general) when it comes to the 
flow of information that would affect a potential cyber-attack or data 
breach? Could this relationship be improved? What do you see as the 
best role for state and local law enforcement in this area?
    Answer. Law enforcement plays a critical role in the response to 
any cyber-attack, and Visa works closely with state and Federal law 
enforcement agencies to identify, impede, and stop cyber criminals. We 
feel that broad and regular communication with law enforcement is 
imperative to an effective cyber-security response policy.
    Visa has relationships with a range of law enforcement agencies in 
the U.S, including the United States Secret Service and the Federal 
Bureau of Investigation. In addition, we maintain strong contacts with 
law enforcement in many countries around the world and work 
cooperatively on fraud and compromise investigations. While Visa 
engages regularly with law enforcement, we do not share any personal 
customer or merchant information without a subpoena or its equivalent.
    Visa has varied systems for sharing information with industry 
stakeholders as well as law enforcement, including through our website, 
data security alerts, client communications, webinars, newsletters and 
more. Visa has been actively involved in training and education 
programs with law enforcement and lending our expertise on payment 
system security issues.
    Visa sees a key role for both state and Federal law enforcement to 
address cyber-attacks, and in particular we regularly work with the 
United States Secret Service and the FBI offices around the country to 
address specific situations as they occur. Law enforcement gathers 
information through criminal investigations that can assist in 
deconstructing attacks which lend valuable insight into the prevention 
of future breaches. We also partner with Electronic Crime Task Force 
entities that have relationships with forensic investigation companies 
to gather and analyze breach data. These entities are a rich source of 
information to issuers and payment networks alike. Visa looks forward 
to continuing to work with a broad spectrum of cybersecurity and data 
breach specialists, both public and private, to further our efforts to 
prevent and contain future breaches. We welcome all efforts to 
strengthen and promote the involvement of state, local, and Federal law 
enforcement in breach response activities.

                                  <all>

</pre></body></html>
